<html>
<title> - POISONED PATRIOTS: CONTAMINATED DRINKING WATER AT CAMP LEJUENE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     POISONED PATRIOTS: CONTAMINATED DRINKING WATER AT CAMP LEJUENE 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2007

                               __________

                           Serial No. 110-56


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

37-793 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001










































                    COMMITTEE ON ENERGY AND COMMERCE

                  JOHN D. DINGELL, Michigan, Chairman

HENRY A. WAXMAN, California          JOE BARTON, Texas
EDWARD J. MARKEY, Massachusetts          Ranking Member
RICK BOUCHER, Virginia               RALPH M. HALL, Texas
EDOLPHUS TOWNS, New York             J. DENNIS HASTERT, Illinois
FRANK PALLONE, Jr., New Jersey       FRED UPTON, Michigan
BART GORDON, Tennessee               CLIFF STEARNS, Florida
BOBBY L. RUSH, Illinois              NATHAN DEAL, Georgia
ANNA G. ESHOO, California            ED WHITFIELD, Kentucky
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
ELIOT L. ENGEL, New York             JOHN SHIMKUS, Illinois
ALBERT R. WYNN, Maryland             HEATHER WILSON, New Mexico
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              CHARLES W. ``CHIP'' PICKERING, 
    Vice Chairman                    Mississippi
LOIS CAPPS, California               VITO FOSSELLA, New York
MICHAEL F. DOYLE, Pennsylvania       STEVE BUYER, Indiana
JANE HARMAN, California              GEORGE RADANOVICH, California
TOM ALLEN, Maine                     JOSEPH R. PITTS, Pennsylvania
JAN SCHAKOWSKY, Illinois             MARY BONO, California
HILDA L. SOLIS, California           GREG WALDEN, Oregon
CHARLES A. GONZALEZ, Texas           LEE TERRY, Nebraska
JAY INSLEE, Washington               MIKE FERGUSON, New Jersey
TAMMY BALDWIN, Wisconsin             MIKE ROGERS, Michigan
MIKE ROSS, Arkansas                  SUE WILKINS MYRICK, North Carolina
DARLENE HOOLEY, Oregon               JOHN SULLIVAN, Oklahoma
ANTHONY D. WEINER, New York          TIM MURPHY, Pennsylvania
JIM MATHESON, Utah                   MICHAEL C. BURGESS, Texas
G.K. BUTTERFIELD, North Carolina     MARSHA BLACKBURN, Tennessee
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana

                                 ______

                           Professional Staff

                 Dennis B. Fitzgibbons, Chief of Staff

                   Gregg A. Rothschild, Chief Counsel

                      Sharon E. Davis, Chief Clerk

                 Bud Albright, Minority Staff Director

                                 ______

              Subcommittee on Oversight and Investigations

                    BART STUPAK, Michigan, Chairman

DIANA DeGETTE, Colorado              ED WHITFIELD, Kentucky
CHARLIE MELANCON, Louisiana              Ranking Member
    Vice Chairman                    GREG WALDEN, Oregon
HENRY A. WAXMAN, California          MIKE FERGUSON, New Jersey
GENE GREEN, Texas                    TIM MURPHY, Pennsylvania
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             MARSHA BLACKBURN, Tennessee
JAY INSLEE, Washington               JOE BARTON, Texas (ex officio)
JOHN D. DINGELL, Michigan (ex 
officio)

                                  (ii)







































  
                             C O N T E N T S

                              ----------                              
                                                                   Page
 Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     4
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................     5
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, prepared statement......................................     6
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    30

                               Witnesses

Jeff Byron.......................................................     7
    Prepared statement...........................................     9
Mike Gros, M.D,..................................................    12
    Prepared statement...........................................    15
Jerome Ensminger.................................................    17
    Prepared statement...........................................    21
Major General Robert Dickerson, Jr., Commanding General, Camp 
  Lejeune, NC....................................................    44
    Prepared statement...........................................    46
Kelly Dreyer, Environmental Restoration Program Manager, U.S. 
  Marine Corps Headquarters......................................    45
    Prepared statement...........................................    46
Pat Leonard, Director, Office of the Judge Advocate General, 
  Claims, Investigations, and Tort Litigation....................    48
    Prepared statement...........................................    48
Thomas Sinks, deputy director, National center of Environmental 
  Health, Agency for Toxic Substances and Disease Registry, 
  ATSDR, accompanied by Frank Bove, senior epidemiologist, ATSDR, 
  and Morris Maslia, environmental engineer, ATSDR...............    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................    54
    ATSDR handout................................................   157
Peter J. Murtha, Director, Office of Criminal Enforcement, 
  Forensics and Training, Office of Enforcement and Compliance 
  Assurance, U.S. Environmental Protection Agency................    79
    Prepared statement...........................................    82
Marcia D. Crosse, Director, Public Health and Military Health 
  Care Issues, U.S. Government Accountability Office.............    89
    Prepared statement...........................................    91
Franklin Hill, director, Superfund Division, U.S. Environmental 
  Protection Agency, Region 4....................................   128
    Prepared statement...........................................   131
    Answers to submitted questions...............................   144

                           Submitted Material

Letter of June 6, 2007 to Dr. Howard Frumpkin, from Messrs. 
  Barton and Whitfield...........................................   147
    Preliminary response to the letter...........................   151
Notice to Residents of Tarawa Terrace, April 1985, from Major 
  General L.H. Buehl.............................................   176
Letter of June 11, 2007 from Granta Y. Nakayama, Assistant 
  Administrator for Enforcement and Compliance Assurance, EPA, to 
  Chairman Dingell...............................................   178
TCE Levels in Drinking Water, chart, submitted by Mr. Stupak.....   180
Inaccuracies in ATSDR's HazDat Database, submitted by Mr. Walden.   181
Miscellaneous exhibits...........................................   182


     POISONED PATRIOTS: CONTAMINATED DRINKING WATER AT CAMP LEJUENE

                              ----------                              


                         TUESDAY, JUNE 12, 2007

                House of Representatives,  
                  Subcommittee on Oversight
                                and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
room 2322, Rayburn House Office Building, Hon. Bart Stupak 
(chairman) presiding.
    Present: Representatives Inslee, Solis, Dingell, Whitfield, 
Walden, and Burgess.
    Staff present: John Sopko, John Arlington, Joanne Royce, 
Scott Schloegel, Kyle Chapman, Alan Slobodin, Dwight Cates, and 
Matthew Johnson.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. The subcommittee will come to order.
     Today we have a hearing entitled ``Poisoned Patriots: 
Contaminated Drinking Water At Camp Lejeune.'' Each Member will 
be recognized for a 5-minute opening statement. I will begin.
    This is the first in a series of hearings this committee 
will be holding to examine whether the Pentagon is adequately 
protecting the American people, including military personnel 
and their families, from risks associated with environmental 
contamination at its facilities. In this hearing we will 
explore the tragic narrative of why tens of thousands of 
Marines and their families were exposed to highly contaminated 
drinking water at Marine Corps Base Camp Lejeune for nearly 30 
years.
    Three years ago this committee heard testimony from Jerry 
Ensminger, a 24-year-old Marine Corps veteran, who raised 
serious questions about why both the Department of the Navy and 
the Marine Corps waited 5 years before notifying Camp Lejeune 
residents that the drinking water was highly contaminated. Mr. 
Ensminger also raised questions about whether the Navy and 
Marine Corps were cooperating with the Agency for Toxic 
Substances and Disease Registry, ATSDR, which has been engaged 
for the last 8 years in studying the connection between 
exposure to contaminated drinking water at Camp Lejeune and the 
increased instance of cancer and birth defects of children at 
the base.
    Over 20 years after the Marine Corps finally took the 
contaminated wells out of service, these and countless other 
questions remain unanswered or inadequately addressed.
    The purpose of this hearing today is to get some answers.
    When did the Marine Corps learn that the drinking water at 
Camp Lejeune, a military base, nearly 100,000 residents were 
contaminated with dangerous chemicals?
    If the contamination was first discovered in 1980, why did 
the Marine Corps wait until 1985 before it closed its wells?
    Why were the closed wells not immediately capped and 
abandoned, but continued to be used to supply water at various 
times up to and through 1987?
    When and how were the residents told about the 
contamination?
    Was the notification adequate?
    Did exposure to drinking water cause cancer and birth 
defects in children conceived at the base? What about adults 
who drank the water?
    How has the Marine Corps responded to those affected? Has 
it taken care of its own? Has the Marine Corps continued with 
Semper Fidelis, or always faithful?
    Why is the ATSDR study taking so long? Will the study be 
published as scheduled by December 2007? Has the military 
intentionally delayed the study?
    Today we welcome back Mr. Ensminger who knows firsthand the 
horrible consequences of the military's failure to detect and 
clean up the toxic drinking water at Camp Lejeune. His daughter 
Jane was born in 1976 at Camp Lejeune; 6\1/2\ years later she 
was diagnosed with leukemia. Jane died when she was 9 years old 
in 1985, the same year that the poisoned wells were first shut 
down.
    Mr. Ensminger is joined on the first panel by Michael Gros 
and Jeff Byron who likewise painfully know only too well the 
devastation caused by exposure to the poisoned drinking water 
at Camp Lejeune.
    Jeff Byron, a former air traffic controller, moved his 
family into base housing at Camp Lejeune in 1982, 3 months 
after his first daughter Andrea was born, and 2 years before 
Rachel was born. Rachel is developmentally disabled, has spina 
bifida, and was born with a cleft palate. Andrea has a rare 
bone disease known as aplastic anemia.
    Dr. Michael Gros, a Navy obstetrician at the time at Camp 
Lejeune, contracted T-cell lymphoma and can no longer practice 
medicine. Dr. Gros spent his entire time in the Marine Corps at 
Camp Lejeune and he and his family lived in base housing.
    We are deeply grateful to these three witnesses for coming 
forward to share their painful stories with our committee.
    We will also hear from officials at the Agency for Toxic 
Substance and Disease Registry, ATSDR, about the study 
initiated in 1999 which examines whether individuals born 
between 1968 and 1985 to mothers who drank contaminated water 
while they were pregnant and living at Camp Lejeune are at 
increased risk of developing certain childhood cancers and/or 
birth defects. We will hear whether the Department of the Navy 
and the Marine Corps have been forthcoming in their efforts to 
assist ATSDR in this critical study. We also hope to learn why 
the Department of the Navy was resistant to funding the ATSDR 
study despite a Federal statute requiring that it do so. Why 
did DoD refuse to fund ATSDR activities at Camp Lejeune for 3-4 
years from 1998 through 2000? Did military obstruction and lack 
of funding delay completion of the study? More importantly, 
does ATSDR have accurate information on which to base its 
study? Why aren't all the Marines and their families who were 
exposed to this contaminated water included in the study?
    The principal contaminant of the drinking water at Camp 
Lejeune was a volatile organic compound referred to as TCE, or 
trichloroethylene. TCE, a volatile organic compound, is an 
industrial cleaning solvent widely used in defense and 
commercial and industrial applications. TCE is the most 
widespread water contaminant in the Nation, and almost every 
major military base has a Superfund site with TCE 
contamination.
    TCE was also the main contaminant at the Woburn, 
Massachusetts Superfund site made famous by the best selling 
book, A Civil Action. That book and the movie based on it 
illustrated very well the horrible toll that TCE can take on 
the human body. But here is an important frame of reference. As 
bad as the contamination was at Woburn, the concentrations of 
TCE at Camp Lejeune were as much as 10 to 15 times higher.
    We have a chart. Here is what EPA has proposed. There is a 
current standard, 5 parts per billion; Woburn is 267; Hadnot, 
which is one of the wells, was 3,400. In Hadnot on February 7, 
1985, over 18,000 parts per billion in the water.
    In 2001, EPA attempted to issue a risk assessment that 
found TCE to be at least twice as carcinogenic as originally 
thought, and possibly 40 times as carcinogenic. The Defense 
Department aggressively opposed the EPA's finding, labeling it 
``junk science'' and sided with the White House to derail 
issuance of the tough new TCE standard. Instead, the issue was 
referred for study by the National Academy of Sciences, 
delaying for years any conclusions about whether millions of 
Americans, including the residents at Camp Lejeune, were 
contaminated by TCE. The EPA standard was vindicated and 
accepted a year ago by the National Academy of Sciences.
    Nevertheless, this obstruction of environmental prerogative 
has been the modus operandi of the Defense Department for years 
now, since at least 2001. The Pentagon has sidetracked 
environmental regulations, opposed EPA efforts to set strict 
reclusion limits, stalled and underfunded cleanups and ignored 
Federal and State environmental regulators. Moreover, every 
year, right up through 2006, the Defense Department has sought 
to exempt itself from environmental laws.
    Those days are over. Nearly 1 out of 10 Americans live 
within 10 miles of a military site listed on the Superfund 
National Priority List for hazardous waste cleanup. The 
American people, military and civilian alike, deserve to work 
and live in communities where drinking water is safe and the 
air they are breathing does not threaten their lives.
    I next turn to my friend from Kentucky, Ranking Member of 
the subcommittee, Mr. Whitfield, for an opening statement, 
please.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Chairman Stupak, thank you very much. And we 
thank you for holding this important hearing. For many years, 
Congress has demanded answers about drinking water 
contamination at Camp Lejeune, and today we will get an update 
on what we've learned in that study. In particular, we look 
forward to the testimony from the Government Accountability 
Office that will detail the findings of its May 2007 report on 
Camp Lejeune. Congress mandated this study in the 2005 Defense 
Authorization Act.
    Just last year Congress passed several legislative 
provisions relating to Camp Lejeune. Section 318 of the 207 
Defense Authorization Act requires the National Academy of 
Sciences to conduct a comprehensive review and evaluation of 
the available scientific and medical evidence regarding 
associations between prenatal, child, and adult exposure to 
drinking water contaminated with trichloroethylene, TCE, and 
PCE, perchloroethylene at Camp Lejeune. This comprehensive 
study will expand on the Agency for Toxic Substances and 
Disease Registry's ongoing study at Camp Lejeune.
    The 2007 defense bill also requires the Marine Corps to 
notify Camp Lejeune residents and employees who may have been 
exposed to contaminated drinking water of the results of the 
ATSDR study. Congress wants to know the facts and we want to 
provide that information to our service members and their 
families.
    Last week, Ranking Member Barton and I sent a letter to 
ATSDR requesting information on exposures to contaminated 
drinking water at 22 other military facilities. Committee staff 
identified these facilities based on a search of contamination 
records in ATSDR databases. At several facilities the level of 
TCE contamination in drinking water is comparable to levels 
found at Camp Lejeune. For instance, McClellan Air Force Base 
in California and the Wurtsmith Air Force Base in Michigan each 
had extensive TCE contamination in drinking water at levels of 
public health concern. In its public health assessment of the 
Wurtsmith Air Force Base, ATSDR concluded past exposure to 
groundwater may have posed an increased risk of developing 
adverse health effects. ATSDR assumes tap water was 
contaminated with TCE at 1,100 parts per billion between 1962 
and 1977. Unfortunately, no one has investigated this matter, 
and we don't know the real extent of exposure or whether any 
adverse health effects occurred. We need to have these 
questions answered.
    In response to our letter, ATSDR has provided a list of 
nine military bases where past exposures to TCE and PCE were 
considered a public health hazard. Mr. Chairman, I hope that we 
can use this list as a starting point to conduct more oversight 
at these facilities. The military personnel at these sites 
deserve to know if they were exposed to contaminated drinking 
water and what the potential public health implications are for 
them and their families.
    Drinking water contaminated with TCE and other volatile 
organic compounds is not just a problem at military facilities. 
In my own district, the Paducah Gaseous Diffusion Plant has 
extensive groundwater contamination, including several 
contaminated residential drinking water wells. Fortunately, 
relatively few residents were exposed to the contaminated 
drinking water and detailed information on health impacts is 
available from independent research conducted by the University 
of Cincinnati.
    Today we are also releasing information regarding TCE 
contamination at several municipal and private sites. According 
to ATSDR the Sol Lynn Industrial Transformer Site in Houston, 
Texas, had tap water with TCE concentrations of 953,000 parts 
per billion. The Barnhart site in Illinois had tap water with 
TCE concentrations of 730 parts per billion. Further, the San 
Fernando Valley aquifer in North Hollywood, California, had TCE 
concentrations as high as 18,000 parts per billion. 
Unfortunately, little is known about the possible health 
impacts of the 800,000 residents of Los Angeles, Burbank, and 
Glendale who drank water from this contaminated aquifer for 
years. These sites also deserve our attention.
    Mr. Chairman, the more we learn about this problem, the 
more we believe we may actually need to craft legislation to 
ensure that professional public health officials can help find 
the answers to these concerns. And I know I look forward to 
working with you on whether or not we need to identify whether 
ATSDR and other health agencies need more authority and more 
funding to investigate past exposures to TCE and other volatile 
organic compounds.
    And, Mr. Chairman, I ask unanimous consent that an opening 
statement of the ranking member, Mr. Barton, be inserted into 
the record. He is unable to be with us. And then also the 
letter that I referred to that we wrote to ATSDR about these 
other sites, and the records that they provided to us about the 
contamination at the other sites. I would ask consent that we 
will enter those into the record.
    Mr. Stupak. without objection, the opening statement of 
Ranking Member Joe Barton will be entered into the record, and 
also the June 6, 2007 letter to you and Mr. Barton with 
attachments will also be part of the record as well as any 
other statements by members for the record.
    [The prepared statements of Mr. Barton and Mr. Green 
follow:]

  Prepared Statement of Hon. Joe Barton, a Representative in Congress 
                        from the State of Texas

    I thank the chairman for holding this hearing. This problem 
at Camp Lejeune is hardly a new one, but it is important that 
we get to the bottom of why military personnel there were 
exposed to contaminated drinking water for so long. As early as 
1980, significant contamination was discovered in the drinking 
water, but 5 years passed before the Navy finally identified 
the contaminated wells and shut them down.
    I am not persuaded by the Navy's justification that they 
did not know the contamination was significant in 1980, or that 
the drinking water met regulatory requirements in place at that 
time. The fact is the contaminated wells should have been 
identified and shut down immediately. This is a simple matter 
of right and wrong. The delay may not have been criminal, but 
it was unmistakably immoral.
     Stories conflict on why it took so long, and they involve 
a complicated series of events. Unfortunately, the committee 
staff has not had enough time to thoroughly investigate. The 
minority staff first learned of this hearing just 4 weeks ago, 
and the first briefing from the Navy occurred just 3 weeks ago. 
On important matters such as this, 3 weeks is simply not enough 
time to conduct serious, thoughtful oversight.
    Fortunately for the subcommittee, several Federal agencies 
have devoted the time and energy necessary to fully review 
drinking water contamination at Camp Lejeune. Today we will 
hear from the Environmental Protection Agency, the Government 
Accountability Office, and the Agency for Toxic Substances and 
Disease Registry on their extensive research.
    Camp Lejeune is the poster boy for contaminated drinking 
water on a military base, but it certainly is not the only one. 
I think we can anticipate learning of even worse problems at 
other bases. Last week, Representative Whitfield and I sent a 
letter to ATSDR to obtain information regarding extensive 
drinking water contamination at nearly two dozen military 
facilities.
    Based on the data we have uncovered, some of these 
facilities likely had exposures in excess of what we know 
occurred at Camp Lejeune. Past contamination is also a problem 
at civilian municipal facilities, and we need answers on those 
facilities as well.
    Mr. Chairman, we are prepared to dig into these issues. We 
have laid the groundwork for a serious investigation of 
drinking water contamination at military and civilian 
facilities. I hope that we can work on a bipartisan basis. 
There is no reason why we shouldn't.
                              ----------                              


  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    Thank you, Mr. Chairman, for holding this hearing on 
contaminated drinking water at Camp Lejeune.
    This hearing is the first in a series of hearings on 
contaminated drinking water on our military bases.
    We ask our military personnel to protect and defend our 
country. It is my belief that we have a responsibility and an 
obligation to protect our military personnel and their families 
when they are living on military bases.
    We know the chemicals TCE and PCE were contaminating at 
least eight sights in the water system in and around Camp 
Lejeune.
    The exact date of contamination is unknown, but it seems 
that Camp Lejeune officials may have known about the TCE and 
PCE in the wells as early as 1980. They did not close the 
contaminated wells until 1985 and even reopened the wells 
periodically from 1985 until 1987.
    TCE and PCE are clear and have no odor. For 7 years the 
military personnel and their families at Camp Lejeune were 
unknowingly bathing, drinking, and cooking with this 
contaminated water.
    The EPA recommends contamination levels for TCE and PCE in 
drinking water at 5 parts per billion. Those living at Camp 
Lejeune were in some cases exposed to TCE and PCE levels over 
1,000 parts per billion.
    Camp Lejeune was declared a Superfund in 1989 and the DoD's 
remediation process has been ongoing since that time. The EPA 
expects the cleanup to be completed in 2011.
    Currently, our office is wading through the process of 
having a toxic waste site in our district declared a Superfund. 
We are just beginning the process, but I certainly hope that it 
would not take some 18 years to clean up our site.
    There are many unanswered questions surrounding the 
contaminated water at Camp Lejeune. I know many of us on the 
committee want to know why military personnel who may have been 
exposed to TCE and PCE while living at Camp Lejeune still have 
not been notified of their potential health risks.It seems to 
me that Camp Lejeune is an example of how we failed to 
responsibly protect our troops and their families. This hearing 
is an opportunity to shed some light on the unresolved issues 
at Camp Lejeune.
    Thank you Mr. Chairman, I yield back my time.
                              ----------                              

    Mr. Whitfield. I think you and your staff were given copies 
of those, and thank you very much, Mr. Chairman. My time has 
expired.
    Mr. Stupak. I know there's a Health Subcommittee going on 
so, Mr. Walden, you will be next then.
    Mr. Walden. Thank you very much Mr. Chairman. I am going to 
waive an opening statement. I would like to hear from the 
witnesses. I will have comments to make during expanded Q&A.
    Mr. Stupak. Mr. Burgess, you are welcome to make an opening 
statement.
    Mr. Burgess. Thank you, Mr. Chairman. I too will waive an 
opening statement. I would just respectfully suggest there's 
probably more sites than the one we have under discussion 
today, and perhaps this committee could gently urge the 
Department of Defense to use the money appropriated to clean up 
the sites around the country for which cleanup has already been 
authorized.
    I will yield back the balance of my time.
    Mr. Stupak. Very good. That concludes all the opening 
statements of members. Other members may be coming. We will 
allow them an opening statement if they so choose at the 
appropriate time. As I said there's a couple other hearings 
going on of the Energy and Commerce Committee. So that 
concludes the opening statements by members of the 
subcommittee.
    I will call our first panel of witnesses to come forward. 
They are already here. Mr. Ensminger, Dr. Gros, and Mr. Byron. 
Gentlemen, it's the policy of this subcommittee to take all 
testimony under oath. Please be advised that witnesses have the 
right to counsel to be present while they testify and be 
advised by counsel during testimony.
    Do any of you wish to be represented by counsel today? No 
one indicating they are, so I will take that as a ``no.'' and 
I'm going to ask you, would you please rise and raise your 
right hand to take the oath.
    [Witnesses sworn.]
    Mr. Stupak. let the record reflect the witnesses replied in 
the affirmative. You are now under oath. We will now go with 
opening statements from our witnesses. Let's start on my right.
     Mr. Byron, if you would, please, sir, if you press that 
button in front of you to turn on your mike.

                    STATEMENT OF JEFF BYRON

    Mr. Byron. Thank you. Good morning, my name is Jeff Byron. 
I served my country honorably in the United States Marine Corps 
from June 1981 to June 1985. I have been invited to give 
testimony here today on the events surrounding the toxic water 
contamination that occurred at Camp Lejeune Marine Corps Base. 
The contamination took place between the years 1957 through 
1987. I am here to tell you of the negative impact that 
exposure to VOCs has had on my family's medical history, past 
and present.
    After boot camp and air traffic controller school, I was 
assigned a permanent duty station at Marine Corps Air Station, 
New River, Jacksonville, North Carolina. The Air Station 
provides air support for Camp Lejeune. When we arrived in 
Jacksonville, I applied for base housing. None was available. 
It would be a 6-month wait, and therefore we lived out in town.
    My oldest child Andrea was born in June 1982. Two months 
later our family moved to Midway Park base housing complex. 
Midway Park is directly across from the main gate at Camp 
Lejeune. In August 1983, renovation of Midway Park forced our 
family to move to other base housing. We were assigned quarters 
at 3114 Bougainville Drive and Tarawa Terrace base housing 
complex. During our stay in base housing, my daughter Andrea 
was seen by doctors at the Naval Hospital on Camp Lejeune 57 
times in 30 months for such illnesses as rashes, urinary tract 
infections, yeast infections, and unexplained fevers. Most of 
the time the medical personnel on base did not have an 
explanation for her symptoms. We were told to give her tepid 
baths and children's Tylenol to reduce the fevers.
    During this time my wife and I conceived our second child, 
Rachel. She was born April 27, 1985, 6 weeks prior to my 
discharge from active duty. On her initial newborn profile from 
Onslow Memorial Hospital, there were no abnormalities listed. 
But when we took her to the base hospital for her first newborn 
checkup, the hospital officials noted the following medical 
concerns: She had slow weight gain, a heart murmur, a double 
ear infection, umbilical hernia, brachial dimples and 
posteriorly rotated ears, a large hemangioma--which is a 
birthmark--on her lower back, and what they listed as ASD. I'm 
not sure what that is.
    It was also noted to speak to a pediatrician as soon as we 
arrive home and shows that the patient is leaving in 4 days and 
may need an EKG, a CRR, and a cardiac referral. She had to be 
fed in an infant seat because of projectile vomiting. She was 
labeled ``a failure to thrive baby.'' Two weeks later, June 25, 
1985, I was discharged from Active Duty service from the United 
States Marine Corps.
    Six months after being discharged from the Marine Corps, 
Andrea, our first born, was diagnosed with a rare bone marrow 
disorder called aplastic anemia. Andrea was treated at 
Cincinnati Children's Hospital Medical Center, which at the 
time was considered the No. 2 hematology department in the 
country. The head of the hematology department asked us: What 
chemicals have you been exposed to? Our answer was none. They 
asked us for all the names of cleaning and hygiene products 
that we used. All of the products were ruled out. Andrea was in 
the hospital under quarantine for 30 days. Andrea was given 
blood and platelet transfusions. She was treated at Children's 
Hospital until she was 12 years old.
    Can you imagine, I had my oldest daughter in the hospital 
with a bone marrow disease, under quarantine, while my youngest 
daughter was seeing multiple medical specialists for birth 
defects, and my wife, 6 months pregnant with twin boys. I don't 
know how we did it.
    Andrea's aplastic anemia is in remission now, but her 
doctors have told her there is a 50 percent chance the disease 
could return if Andrea decides to have children of her own.
    It was 15 years after my discharge, May 27, 2000, when we 
received a letter from the National Opinion Research Center, 
who was contracted on behalf of the Department of Health and 
Human Services to do the survey and contact people that lived 
at Marine Corps Base Camp Lejeune. They were requesting that 
our family participate in a survey concerning toxic water 
contamination, specifically those children who were in utero 
and born while residing in base housing, Tarawa Terrace, Hadnot 
Point. They requested that our youngest daughter Rachel 
participate in a survey.
    When the survey results came out, we were shocked to find 
out our daughter was not identified as a study participant 
since her documented medical records confirmed that she had two 
of the births defects of interest: cleft palate and spina 
bifida.
    After we confronted ATSDR officials about her medical 
records which we had provided previously to them, they agreed 
that she had one of the birth defects of interest and therefore 
qualified as a study participant. It was quite clear to me 
after reading questions that were part of the survey that the 
Marine Corps had been aware of this situation for a very long 
time. From documents we obtained through the Freedom of 
Information Act request, we were able to determine that Marine 
Corps/DoD environmental personnel on base were well aware of 
the VOC contamination before our family moved into base 
housing, and therefore could have intervened and prevented the 
adverse health effects suffered by my family as well as other 
families whose medical history is similar to my own.
    It was supposedly a notice to the residents of Tarawa 
Terrace that was distributed by the base commander in April 
1985 that showed the base officials were more concerned with 
water usage than informing the residents of the risk of 
drinking, bathing, and cooking with contaminated water. The GAO 
report on page 29 does not reflect this point because they have 
not presented the document in its entirety.
    The Marine Corps was morally responsible for providing 
clean, potable water, no matter who the contaminator was, 
especially after the contamination was discovered. According to 
the GAO report, GAO repeats over and over that Headquarters 
Marine Corps, DoD, and Marine Corps Base Camp Lejeune officials 
took no action.
    Our family had already scheduled a vacation in North 
Carolina in 2000. We wanted to show our daughters where they 
were born. While we were in Jacksonville we went to Onslow 
Memorial Hospital to request copies of our daughters' birth 
records. We were very surprised to find out that all records 
were destroyed after 7 years. We then went to ABC 1-hour dry 
cleaners, which was a primary source of contamination from PCE 
at Tarawa Terrace base housing.
    I took my 35 millimeter camera and took pictures of the 
facility that cost taxpayers $4.3 million to clean up. After 
the film had been developed, it was apparent that safe 
operating procedures were not in place. There was also a Marine 
Corps warehouse across the street and base housing that had 
several blue barrels surrounding the brick structure. On 
subsequent visits to Camp Lejeune, these barrels were no longer 
visible.
    I would like to thank the Oversight and Investigation 
Subcommittee personnel for inviting me to give testimony here 
today. And I would like to thank the members of the House 
Energy and Commerce Committee for hearing my testimony. I would 
like to especially thank the former residents of Marine Corps 
Base Camp Lejeune for being here.
    Thank you very much. That's my statement.
    Mr. Stupak. Thank you Mr. Byron.
    [The prepared statement of Mr. Byron follows:]

                        Statement of Jeff Byron

     Good morning. My name is Jeff Byron. I served my country 
honorably in the United States Marine Corps from June 1981 
through June 1985. I have been invited to give testimony here 
today on the events surrounding the toxic water contamination 
that occurred at Marine Corps Base, Camp Lejeune. The 
contamination took place between the years 1957 through 1987. I 
am here to tell you of the negative impact that exposure to 
VOCs has had on my family's medical history, past and present.
     After boot camp and Air Traffic Controller school I was 
assigned a permanent duty station at Marine Corps Air Station, 
New River, Jacksonville, North Carolina. The Air Station 
provides air support for Camp Lejeune. When we arrived in 
Jacksonville I applied for base housing. None was available, it 
would be a 6-month wait, and therefore we lived out in town. My 
oldest child, Andrea, was born in June of 1982. Two months 
later our family moved to Midway Park base housing complex. 
Midway Park is directly across from the main gate of Camp 
Lejeune. In August of 1983 renovation of Midway Park forced our 
family to move to other base housing. We were assigned quarters 
at 3114 Bougainville Drive in Tarawa Terrace base housing 
complex. During our stay in base housing my daughter, Andrea, 
was seen by doctors at the Naval Hospital on Camp Lejeune 57 
times in 30 months for such illnesses as rashes, urinary tract 
infections, yeast infections and unexplained fevers. Most of 
the time the medical personnel on base did not have an 
explanation for her
    symptoms. We were told to give her tepid baths and 
children's Tylenol to reduce the fevers. During this time my 
wife and I conceived our second child, Rachel. She was born 
April 27, 1985, 6 weeks prior to my discharge from active duty.
    On her initial newborn profile from Onslow Memorial 
Hospital there were no abnormalities listed. But when we took 
her to the base hospital for her first new-born check, up the 
hospital officials noted the following medical concerns:

    <bullet>  Slow weight gain
    <bullet>  A heart murmur
    <bullet>  Double ear infection
    <bullet>  Umbilical hernia
    <bullet>  Brachial dimples and posteriorly rotated ears
    <bullet>  A large hemangioma (raised birthmark) on her 
lower back
    <bullet>  ASD

    It was noted ``Speak to pediatrician as soon as arrive 
home-are leaving in 4 days-may need EKG, CRR & cardiac 
referral''. She had to be fed in an infant seat because of 
projectile vomiting. She was labeled ``a failure to thrive 
baby''. Two weeks later, June 25, 1985, I was discharged from 
active duty service from the Marine Corps.
     Six months after being discharged from the Corps, Andrea, 
our first born, was diagnosed with a rare bone marrow disorder 
called aplastic anemia. Andrea
     was treated at CCHMC (Cincinnati Children's Hospital 
Medical Center), which at that time was considered the #2 
hematology department in the country. The head of the 
hematology department asked us what chemicals we had been 
exposed to, our answer, none. They asked us for all of the 
names of cleaning and hygiene products that we were using. All 
of the products were ruled out. Andrea was in the hospital 
under quarantine for 30 days. Andrea was given blood and 
platelet transfusions. She was treated at Children's Hospital 
until she was 12 years old. Can you imagine, I had my oldest 
daughter in the hospital with a bone marrow disease, under 
quarantine. While my youngest daughter was seeing multiple 
medical specialist for birth defects, and my wife 6 months 
pregnant with twin boys. I don't know how we did it. Andrea's 
aplastic anemia is in remission now, but her doctor has told 
her that there is a 50 percent chance the disease could return, 
if Andrea decides to have children of her own and becomes 
pregnant.
     It was 15 years after my discharge, May 27, 2000 we 
received a letter from The National Opinion Research Center who 
was contracted on behalf of the Department of Health and Human 
Services to do a survey and contact people that lived at Marine 
Corps Base Camp Lejeune. They were requesting that our family 
participate in a survey concerning toxic water contamination, 
specifically those children who were in utero and born while 
residing in base housing, (Tarawa Terrace, Hadnot Point). They 
requested that our youngest daughter, Rachel, participate in 
the survey. When the survey results came out we were shocked to 
find out that our daughter was not identified as a study 
participant, since her documented medical records confirmed 
that she had two of the birth defects of interest, cleft 
pallet, and spina-bifida. After we confronted ATSDR officials 
with her medical records, which we had previously provided to 
them, they agreed that she had one birth defect of interest, 
and therefore qualified as a study participant. It was quite 
clear to me after reading questions that were part of the 
survey, that the Marine Corps had been aware of this situation 
for a very long time. From documents that we obtained through 
the Freedom of Information Act requests, we were able to 
determine that the Marine Corps/DoD environmental personnel on 
base were well aware of the VOC contamination before our family 
moved into base housing. And therefore could have intervened 
and prevented the adverse health effects suffered by my family 
as well as other families, whose medical history is very 
similar to my own.
     There was supposedly a Notice to the Residents of Tarawa 
Terrace, that was distributed by the base commander in April of 
1985. That showed that base officials were more concerned with 
water usage than informing the residents of the risk of 
drinking, bathing, and cooking with contaminated water. (The 
GAO report page 29, does not reflect this point because they 
have not presented the document in its entirety) The Marine 
Corps was morally responsible for providing clean potable 
water, no matter who the contaminator was, especially after the 
contamination was discovered. According to the GAO report, GAO 
repeats over and over that Head Quarters Marine Corps/DoD, and 
MCBCL officials took no action .
     Our family had already scheduled a vacation to North 
Carolina in 2000. We wanted to show our daughters where they 
were born. While we were in Jacksonville, we went to Onslow 
Memorial Hospital to request copies of our daughters' birth 
records; we were very surprised to find out that all records 
were destroyed after seven years. We then went by ABC 1 hour 
dry cleaner, which was the primary source of contamination from 
PCE at Tarawa Terrace base housing. I took my 35mm camera and 
took pictures of the facility that cost tax payers 4.3 million 
dollars to clean up. After the film had been developed it was 
apparent that safe operating procedures were not in place. 
There was also a Marine Corps well house across the street in 
base housing that had several blue barrels surrounding the 
brick structure. On subsequent visits to Camp Lejeune, these 
barrels were no longer visible.
     To me it was apparent that the Marine Corps had known for 
20 years, before they had decided to tell my family of the 
exposure. I felt that they had wronged my family and others 
that had served this country as patriots. It was quite obvious 
that ``Semper Fi'', always faithful, did not apply to us. I was 
raised to believe that to get something done you had to do it 
yourself. That is what I and others are doing. Those of us that 
have become activists want to ensure that this American tragedy 
never happens again. I have attended all of the ATSDR meetings 
concerning Camp Lejeune with the exception of the Water 
Modeling Scientific Panel. I am a sitting member of the 
Community Assistance Panel with the ATSDR, tasked with 
evaluating the possibilities of doing further studies on 
children and adults exposed at Camp Lejeune. I accompanied 
Jerry Ensminger to the hill when he gave testimony to a 
subcommittee hearing for Energy & Commerce concerning DoD's 
request to obtain exemptions from environmental law. I am happy 
to say that with Jerry's testimony, DoD was denied exemption. I 
attended the Commandant's fact finding panel in Jacksonville, 
NC. where according to the GAO report (page 46) the panel made 
several finding criticizing Camp Lejeune and Department of the 
Navy. One said, ``Communications to Camp Lejeune residents 
regarding drinking water contamination was not detailed enough 
to completely characterize the contamination found at the time 
of the well closures'' Notice to Residents of Tarawa Terrace--
from the base commander. In my opinion, misleading at best. We 
started a web site, The Few, The Proud, The Forgotten, 
www.tftptf.com, in an attempt to provide documented history to 
the former residents so that they can make informed decisions 
regarding their future. To educate the public and government 
officials, to the events surrounding toxic water exposures at 
Camp Lejeune.
     Because of my involvement with ATSDR as a cap member the 
Government Accountability Office allowed me and others to read, 
and comment on a copy of their draft report, ``Defense Health 
Care Activities Related to Past Drinking Water Contamination at 
Marine Corps Base Camp Lejeune''. After reading the draft 
report I have come to the conclusion that the GAO had not done 
its homework and it had depended upon the Marine Corps 
Headquarter explanation of documentation, and did not check 
their source. A Marine Corps document providing the sampling 
result stated that ND meant ``none detected.'' (page 28 1st 
note of the GAO report) The document that is being referred to, 
GAO has removed the column that shows the instrument's 
detection limit. On this same document a zero at the end of one 
PCE reading was missing, miss leading the reader to think that 
the meter read 158 parts per billion, in reality the reading 
was 1580 parts per billion. This is just one deception that I 
have uncovered in the GAO report.
     While ATSDR did not always receive requested funding and 
experienced delays in receiving information from DoD for its 
Camp Lejeune related work, ATSDR officials said this has not 
significantly delayed their work. This was stated no less than 
5 times in the GAO report. When something is overstated, it 
tends not to be true. I was also shocked to find out that ATSDR 
had come up with 548 Comparison Individuals for the in-utero 
study group, from the same base! Even after ATSDR officials 
repeatedly told CAP members that to do a credible study they 
did not need to use individuals from Camp Lejeune. Since I am a 
member of the CAP I thought it might be important for me to 
know about this group. What happened to trust and transparency? 
I provided GAO with documents to refute many of their 
statements. When the final draft came out I was surprised to 
see that they had not listened to very much of what I had to 
say. They had written a biased report in defense of the DoD and 
Marine Corps. I will be happy to dispel the rest of the GAO 
report with Congress at the upcoming hearing.
                              ----------                              

    Mr. Stupak. Dr. Gros.

                  STATEMENT OF MIKE GROS, M.D.

    Dr. Gros. Good morning, Mr. Chairman, ladies and gentlemen 
of the committee. Thank you for inviting me to speak before you 
regarding the unfortunate water contamination issue which we 
have all heard about. My name is Michael L. Gros, M.D.
     My involvement with this event spans the time period from 
July 1980 to July 1983 when I lived at H-57 MOQ and worked at 
the Naval Hospital as a staff Ob/Gyn physician. I provided in 
my written testimony a chronology of my dates of education and 
my qualifications.
    I come before you as a representative of many individuals 
and families who were adversely affected over a 40-or-more-year 
time frame by contaminated water at Camp Lejeune. I am, 
unfortunately, well qualified by virtue of a harrowing and 
life-altering experience with non-Hodgkins lymphoma and its 
treatment involving a bone marrow transplant and the 
development of severe chronic graft versus host disease, from 
which I now suffer continuously.
    My family and I moved to Camp Lejeune in July 1980 after 
finishing a Navy internship and residency at Naval Regional 
Medical Center in Portsmouth, Virginia. Ironically, we desired 
Camp Lejeune as a duty station, since it was stateside and, at 
the time, seemed safe for my family. Little did we know that 
quite the opposite was true. Unknown to us, Camp Lejeune had 
groundwater contamination, which we've discussed, with various 
organic chemicals such as trichloroethylene and 
perchloroethylene, among other chemicals, that may have 
originated as early as the 1950's. This was due to improper 
disposal of these agents used in machinery overhaul and 
improper location of wells in areas affected by seepage into 
the water table.
    Our house at H-57 MOQ was supplied by the Hadnot Point 
water system. As noted in the table, acceptable levels of TCE 
are less than 5 parts per billion. Our house had 1,400 parts 
per billion and one well providing our water, and one well, 
number 651, had an astounding 18,900 parts per billion TCE when 
it was finally taken offline in 1985, 2 years after we left.
    So, for all of our 3 years living at H-57, we were 
ingesting and inhaling this poisonous water and its vapor from 
showering and bathing. It's noted that the poisoning is even 
worse if the water is heated up because the materials 
volatilize easier than water boils. Our food and the baby 
formula and toddlers' Kool-Aid were mixed with the seemingly 
clean water.
    This poisoning has no taste, it has no smell, and so it's 
undetectable by usual means. The cancerous effects do not 
appear until 10 to 15 years post-exposure, the so-called 
latency period which is noted in ATSDR's own documents. From 
1980 onwards, Camp Lejeune's own documents revealed that 
routine water tests typically performed on chlorinated water 
systems looking for substances called trihalomethanes showed 
the presence of major contamination with other organic 
chemicals which required further action. Levels of these 
contaminants were so high so as to preclude THM testing. No 
records of any further action on Camp Lejeune's part exist. In 
fact, this THM testing was simply again repeated in intervals 
with similar results and, again, a shocking lack of further 
clarification.
    Where was Camp Lejeune's concern for the safety of its 
residents? The technology involved in finding these poisons was 
readily available, but was either neglected due to incompetence 
or deliberately not done for unknown reasons. It is 
incomprehensible that this happened. Who made such bad 
decisions? Why was this ghoulish experiment performed on our 
military volunteers and their families? Such a failure to 
follow up on abnormal tests in my profession would have caused 
me to lose my medical license and, at best, face a malpractice 
suit I was sure to lose.
    I'm sorry that I think like a doctor, but I feel people in 
charge of the welfare of others, such as managers of public 
water systems, should be held to standards of conduct 
commensurate with the serious nature of their jobs.
    In spite of multiple handwritten warning notes on repeated 
test reports over several years' period of time, the advice of 
the base's outside water consultants to further identify and 
quantitate the poisoning chemicals was repeatedly ignored. 
Amazingly, no tests were ever done in follow-up to identify the 
nature of these compounds or their sources.
    Even more incredible was the Marine Corps's attempt to 
later justify this gross neglect with the tack that no law 
existed requiring them to exercise the normal good judgment and 
caring that any other contemporary water supplier would have 
had for its customers. For example, the well 651 was not taken 
offline until 1985, 2 years after we left Camp Lejeune. Were we 
all unwitting lab rats? Such chemicals such as TCE and PCE are 
undetectable by usual taste and smell. So when we left active 
duty for Houston, Texas, in 1983, I was completely unaware that 
we had been systematically, unethically, and heartlessly 
poisoned during 3 years of living at Camp Lejeune.
    I began a private practice of Ob/Gyn in Houston, Texas. 
Although I felt well, I began to show subtle lab abnormalities 
as early as 1993 and 1994. Definitely by 1997 these lab tests 
showed a marked shift in my complete blood count with an 
elevation of a lymphocyte fraction. To make a long story short, 
from 10 to 15 years removed from living at Camp Lejeune I had 
developed a slowly progressive and untreatable non-Hodgkins 
lymphoma called cutaneous T-cell lymphoma. My only treatment 
option would eventually be a bone marrow transplant when the 
disease reached such a point that my resistance to infection 
would be so low I could no longer see patients.
    As I was seeing patients one day in November 1999, I was 
contacted out of the blue by Marie Sochia from the Agency for 
Toxic Substances and Disease Registry. She informed me that my 
younger son, Tom, conceived and born at Camp Lejeune, was to be 
studied as part of an in utero study due to his chemical 
exposure. This was my first knowledge of any toxic water in my 
former base. It was then that I made the connection between my 
disease and the TCE and PCE exposure which I had suffered 
during 3 years of continuous exposure at Camp Lejeune. My son 
seemed fine. However, I had progressive lymphoma.
    I was happy to know that an infant study was to be done, 
but I was shocked to learn that there were no studies planned 
and no studies were felt to be warranted on the thousands of 
adults who were similarly exposed. I vigorously dispute this 
conclusion.
    In May 2002, my disease had progressed to the point where I 
had dangerously low immunity and the lymphoma was replacing 50 
percent of my bone marrow. I had to abruptly abandon my 
practice and be admitted for the only remaining chance of a 
cure, which was a bone marrow transplant. As many of you know, 
this is not a walk in the park. BMT carries a significant 
mortality risk related to acute and long-term complications. 
Thankfully, the procedures rather quickly put the lymphoma in 
remission, but unfortunately has left me with severe chronic 
graft versus host disease. The quality of my life has really 
degenerated as a result. Most of my ability to recreate and 
travel has been largely destroyed, and I can no longer tolerate 
much sun exposure or outside activity. But at least I'm still 
alive and kicking, and am finally here at long last to present 
this story to you all.
    I have enclosed a list of most of the medical setbacks I 
have had over the last 5 years in the written testimony. My 
battle to stay healthy and out of the hospital has easily 
exceeded $4.5 million at this point in time. No telling what my 
total medical bills will amount to, but while I lay in bed in 
the aphaeresis unit for 4 hours at a time, getting my blood 
circulated in the photophaeresis apparatus, I have plenty of 
time to worry about how I'm going to stay alive and still avoid 
bankruptcy.
    I was awarded 100 percent service-connected disability for 
my disease, but have found funding for anything other than 
pharmacy items to be very difficult to access at the VA 
hospital in Houston, Texas. I was forced to give away my 
practice at a great financial loss. Because of my need for 
chronic immune suppression, I will probably never be able to 
see patients again. All of the dedication and years of training 
I invested from the seventh grade onward have been wasted by a 
career cut short in its prime by this debacle.
    My wife and I now have two new full-time careers, just 
staying alive and figuring out how to pay for it all.
    I am here today to urge you to compel ATSDR, or preferably 
another truly impartial agency, to investigate the fates of 
those adults exposed as I was. I continue to receive phone 
calls from adults similarly exposed, suffering from lymphomas, 
who are just now finding out about this event. I am certain 
most of the hapless victims of this silent disaster are either 
dead or unaware that they are sick at an early age with cancer. 
They need help with their medical expenses and monitoring for 
future medical and possible developmental problems in their 
progeny.
    This is not a faceless disaster. There are many people 
undoubtedly involved in the initial mismanagement and 
subsequent coverup of this entire event. There certainly has to 
be some credible explanation for at least the period in which 
my family was involved from 1980 to 1983.
    There is a chain of command in the Navy and Marine Corps. 
Decisions surrounding management of the public water system on 
a Marine base are not made in a vacuum. A complete 
investigation needs to be initiated, with congressional 
oversight and congressional subpoena power as needed. Some 
victims even feel that possible criminal activity may have been 
involved.
    The criminal investigation begun several years ago at the 
request of a number of victims and their families needs to be 
reopened. We also need to make sure this is not something akin 
to a version of the infamous Tuskegee experiment.
    Members of the committee, I thank you for allowing me to 
speak before you today and I would be happy to answer any 
questions you might have.
    Mr. Stupak. Thank you.
    [The prepared statement of Dr. Gros follows:]

                   Testimony of Michael L. Gros M.D.

     Good morning ladies and gentlemen of the committee, and 
thank you for inviting me to speak before you regarding the 
unfortunate water contamination issue involving the Marine base 
at Camp Lejeune, North Carolina.
     My name is Michael L. Gros, M. D.
     My involvement with this event spans the time period from 
July 1980, to July 1983, when I lived at H-57, MOQ and worked 
at the Naval Hospital as a staff Ob/Gyn. A brief chronology of 
my service dates is provided below:

    <bullet>  B. A. 1974, Trinity University, San Antonio, TX
    <bullet>  M.D. 1976, Baylor College of Medicine, Houston, 
TX, Navy Scholarship
    <bullet>  Internship and Residency in Ob/Gyn, 1976-1980, 
NRMC, Portsmouth, VA.
    <bullet>  Staff Ob/Gyn, July 1980-July1983, Camp Lejeune, 
N. C., LCDR, MC, USNR
    <bullet>  Private practice Ob/Gyn, 1983 to 2002, Houston, 
TX.
    <bullet>  Medically retired May 2002 to present due to Non-
Hodgkins Lymphoma

    I come before you as a representative of many individuals 
and families who were adversely affected over a forty or more 
year time frame by contaminated water at Camp Lejeune. I am 
unfortunately well qualified by virtue of a harrowing and life 
altering experience with Non-Hodgkins lymphoma and its 
treatment involving a bone marrow transplant (BMT) and the 
unfortunate development of severe chronic graft vs. host 
disease (GVHD) from which I now suffer, continuously.
     My family and I moved to Camp Lejeune in July 1980, after 
I finished my U.S. Navy internship and residency in Ob/Gyn at 
NRMC, Portsmouth, VA. Ironically, we desired Camp Lejeune as a 
duty station since it was stateside and, at the time, seemed 
safe for the family. Little did we know that quite the opposite 
was true.
     Unknown to us, Camp Lejeune had ground water and well 
water contamination with various volatile organic compounds 
such as trichloroethylene (TCE) and perchloroethylene (PCE), 
among other chemicals, that may have originated as early as the 
1950's. This was due to improper disposal of these agents used 
in machinery overhaul and improper location of wells in areas 
affected by seepage into the water table. Our house at H-57 MOQ 
was supplied by the Hadnot Point water system. Acceptable 
levels of TCE are <5ppb. Our house had at least 1,400 ppb TCE 
(maybe higher), and one well, No. 651 in the Hadnot Point field 
had an astounding 18,900 ppb TCE when finally taken off line 
1985, two years after we left.
     So for all of our three years living on base at H-57 MOQ 
we were ingesting and inhaling this poisonous water and its 
vapor from showering and bathing (worse when heated up). Our 
food and the baby's formula and toddler's Kool Aid were mixed 
with this seemingly clean water. This poisoning has no taste 
and no smell and so is undetectable by usual means. The 
cancerous effects do not appear until 10-15 years post exposure 
(latency period noted in ATSDR documents).
     From 1980 onwards, Camp Lejeune's own documents reveal 
that routine water tests typically performed on chlorinated 
water systems (trihalomethanes, THM) showed the presence of 
major contamination from other organic compounds requiring 
further action. Levels of these contaminants were so high as to 
preclude THM testing. No records of any further action on Camp 
Lejeune's part exist. In fact, this THM testing was simply 
again repeated at intervals with similar results and again a 
shocking lack of further clarification. Where was CLNC's 
concern for the safety of its residents?
     The technology involved in finding these poisons was 
readily available, but was either neglected due to incompetence 
or deliberately not done for unknown reasons. It is 
incomprehensible that this happened. Who made such bad 
decisions? Why was this ghoulish experiment performed on our 
military volunteers and their families?
     Such a failure to follow up on abnormal tests in my 
profession would have caused me to lose my medical license or 
at best, face a malpractice suit I was sure to lose. I am sorry 
that I think from a doctor's perspective, but I feel people in 
charge of the welfare of others, such as managers of public 
water systems, should be held to standards of conduct 
commensurate with the serious nature of their jobs.
     In spite of multiple handwritten warning notes on repeated 
test reports over several years period of time, the advice of 
the base's own outside water consultants to further identify 
and quantitate the poisoning chemicals was repeatedly ignored. 
Amazingly, no follow up tests were ever done to even identify 
the nature of the interfering chemicals or their sources. Even 
more incredible was the Marine Corp's attempt to later justify 
this gross neglect with the tact that no ``law'' existed 
requiring them to exercise the good judgment and caring that 
any other contemporary water supplier would have had for its 
customers. For example, the horribly polluted well, No. 651, 
(drilled next to the dump!) was not taken off line until 1985, 
two years after we left Camp Lejeune. Were we all unwitting lab 
rats?
    Since chemicals such as trichloroethylene and 
perchloroethylene are undetectable by the usual modes of taste 
and smell, when I left active duty to move to Houston, Texas, I 
was completely unaware that we had been systematically, 
unethically, and heartlessly poisoned during our 3 years at 
Camp Lejeune.
    I began a private practice in Ob/Gyn in Houston, TX. 
Although I felt well, I began to show subtle lab abnormalities 
as early as 1993 and 1994, and definitely by 1997, these lab 
tests showed a marked shift in my complete blood count with an 
elevation of lymphocytes. To make a long story short, from 10-
15 years removed from living at Camp Lejeune, I had developed a 
slowly progressive and untreatable Non-Hodgkins lymphoma called 
Cutaneous T-Cell lymphoma (CTCL), otherwise known as mycosis 
fungoides.
     My only treatment option would eventually be a bone marrow 
transplant when the disease reached such a point that my 
resistance to infection would be so low that I could no longer 
see patients.
     As I was a seeing patients one day in November 1999, I was 
contacted out of the blue by Marie Sochia from the Agency for 
the Toxic Substance and Disease Registry (ATSDR). She informed 
me that my younger son, Tom, conceived and born at Camp 
Lejeune, was to be studied as part of an ``in utero'' study, 
due to his chemical exposure at Camp Lejeune. This was my first 
knowledge of any toxic water at my former base.
     It was then that I made the connection between my disease 
and TCE and PCE exposure, which I had suffered during three 
years of continuous exposure at Camp Lejeune, North Carolina. 
My son seemed fine. However, I had progressive lymphoma. I was 
happy to know that an infant study was to be done, but I was 
shocked to learn that no studies were felt by ATSDR to be 
warranted on the thousands of exposed adults. I vigorously 
dispute this conclusion.
     In May 2002, my disease had progressed to the point where 
I had dangerously low immunity with the lymphoma replacing 
fifty percent of my bone marrow. I had to abruptly abandon my 
practice and be admitted for my only remaining chance at a 
cure, a bone marrow transplant (BMT).
     As many of you know, this is not a walk in the park. BMT 
carries a significant mortality risk related to acute and long-
term complications. Thankfully, the procedure rather quickly 
put the lymphoma in remission, but, unfortunately, has left me 
with severe chronic graft versus host disease. The quality of 
my life has really degenerated as a result. Most of my ability 
to recreate and travel has been largely destroyed. I can no 
longer tolerate much sun exposure or outside activity. But at 
least I am still alive and kicking and am finally here at long 
last to present this story to you all.
     Here is a list of most of the major medical setbacks I 
have endured over the last 5 years:

    <bullet>   Graft versus host disease of liver, lungs, skin, 
eyes, gastrointestinal tract
    <bullet>   Pneumonia-bacterial
    <bullet>   Pneumonia-Pneumocystis carinii
    <bullet>  Cellulitis
    <bullet>   Acute and chronic renal failure
    <bullet>   Cataracts--both eyes
    <bullet>   Diabetes
    <bullet>   Heart failure
    <bullet>   Gastroenteritis
    <bullet>   Toxoplasmosis of the brain
    <bullet>   Squamous cell carcinoma of the skin
    <bullet>   Osteopenia
    <bullet>   Baldness
    <bullet>   Depression
    <bullet>   Hearing loss secondary to medications
    <bullet>   Anemia
    <bullet>   Fatigue
    <bullet>   Septicemia from a central line

    My battle to stay healthy and out of the hospital has 
easily exceeded $4\1/2\ million at this point in time. No 
telling what my total medical bills will amount to, but while I 
lay in bed in the aphaeresis unit for 4 hours getting my blood 
circulated in the photophaeresis apparatus, I have plenty of 
time to worry about how I am going to stay alive and still 
avoid bankruptcy.
     I was awarded 100 percent service connected disability for 
my disease, but have found funding help for anything other than 
pharmacy items to be very difficult to access at the V.A. 
hospital in Houston, TX.
     I was forced to give away my practice at a great financial 
loss. Because of my need for chronic immune suppression, I will 
probably never be able to see patients again. All of the 
dedication and years of training I invested from the seventh 
grade onward have been wasted by a career cut short in its 
prime by this debacle.
     My wife and I now have new full time careers--just staying 
alive and figuring out how to pay for it all.
     I am here today to urge you to compel ATSDR, or preferably 
another truly impartial agency, to investigate the fates of 
those adults exposed as I was. I continually receive phone 
calls from adults similarly exposed, suffering from lymphomas, 
yet just now finding out about this event. I am certain most of 
the hapless victims of this silent disaster are either dead or 
unaware why they are sick at an early age with cancer. They 
need help with their medical expenses and monitoring for future 
medical and possible developmental problems in their progeny.
     In my opinion, there is an ongoing coverup involving this 
disaster, and ATSDR may well be ``running the point'' for the 
responsible governmental agencies or chemical manufacturers. 
The absence of relevant documents showing any reasonable chain 
of responsibility, combined with the trumped up and utterly 
unbelievable attempts at public relations put out by the Marine 
Corps, are very telling in this regard. Instead of wisely 
spending the tax payors money finding and assisting all those 
exposed to this chemical cocktail, the Marine Corp has seen fit 
to hire a public relations and strategy firm (Booze Allen 
Hamilton) to arrange misleading town meetings, whose 
predetermined exculpatory findings insult our intelligence. It 
seems no one is responsible for any of this man-made disaster. 
Ladies and gentlemen, I do not believe any of this rubbish.
     This is not a faceless disaster. There were many people 
undoubtedly involved in the initial mismanagement and 
subsequent cover up of this entire event. There certainly has 
to be some creditable explanation for at least the period in 
which my family was involved from 1980 to 1983. There is a 
chain of command in the Navy and Marine Corps. Decisions 
surrounding management of a public water system on a Marine 
base are not made in a vacuum.
     A complete investigation needs to be initiated with 
congressional oversight and congressional subpoena power as 
needed. Some victims even feel that possible criminal activity 
may have been involved. The criminal investigation begun 
several years ago at the request of a number of the victims and 
their families needs to be reopened. We also need to make sure 
this is not something akin to a version of the infamous 
Tuskegee experiment.
     Members of the committee, I thank you for allowing me to 
speak before you today.
     I would be happy to answer any questions you might have.
                              ----------                              

    Mr. Stupak. Mr. Ensminger, your opening statement, please, 
sir.

                 STATEMENT OF JEROME ENSMINGER

    Mr. Ensminger. Good morning. My name is Jerry Ensminger, 
and I served my country faithfully for 24\1/2\ years in the 
United States Marine Corps.
    I would like to take this opportunity to thank the 
chairman, the committee members and their staffs for all the 
hard work that went into making these hearings possible.
    I must say that it has been inspiring for me to have tuned 
in to C-SPAN these last several months and witnessed our 
Congress doing what our Founding Fathers intended. You have 
been taking on the tough issues that matter to the majority of 
our citizens, not just the issues that affect special interest 
groups and big business. And I am quite sure most Americans 
applaud you for your efforts.
    I am appearing here today as one spokesperson for the 
hundreds of thousands of Marines, sailors, their families, and 
the loyal civilian employees who were unknowingly exposed to 
horrendous levels of toxins through their drinking water at 
Camp Lejeune, North Carolina.
    Camp Lejeune is quite possibly one of, if not the worst, 
water contamination incidents in history. I can confidently 
make this claim based on the potential numbers of people who 
were exposed and the documented levels of contaminants that 
were present in the finished drinking water at this base. 
Ironically, most of these people still do not have any idea 
that they were exposed to these contaminants at Camp Lejeune. 
They have not been notified, and the United States Marine Corps 
has to date refused to institute any type of legitimate 
notification plan or policy.
    I can assure you that there are many more individuals and 
families who are now literally spread out all over this 
country, if not this world, that are wondering, what happened 
to me, ``What happened to my family member?'' these people 
deserve an answer. It is time for the United States Marine 
Corps to live up to our motto, which is Semper Fidelis, which 
is Latin for ``always faithful.''
    My daughter Janey was conceived while her mother and I 
lived in one of the base family housing units that was affected 
by the contaminated drinking water at Camp Lejeune. Just like 
our other children, Janey was born seemingly normal; that is, 
until she was diagnosed with acute lymphocytic leukemia at the 
age of 6.
    In 1997, the Agency for Toxic Substances and Disease 
Registry, or ATSDR, proposed a childhood leukemia/non-Hodgkins 
lymphoma study for children exposed to VOCs in utero while 
their parents lived at Camp Lejeune between the years of 1968 
and 1985. The proposal, which was sent to the Secretary of the 
Navy, stated that the expected occurrences of these illnesses 
in a group of 10,000 to 12,000 births for that same time period 
was 7.2 cases. ATSDR has now already confirmed 14 cases of 
leukemia and two cases of childhood non-Hodgkins lymphoma out 
of 12,598 respondents to their survey. This is more than a 100 
percent increase in the instances of these childhood cancers.
    Mr. Chairman, the bottom line is this: DoD officials had 
been repeatedly notified by three different analytical 
laboratories over a span of 4.5 years about the existence of 
these chemicals in Camp Lejeune's finished drinking water. One 
laboratory wrote a letter on August 10, 1982, to Camp Lejeune's 
commanding general, telling him that the high levels of 
chemicals that they had found in their water were more 
important from a health standpoint than what they had sent 
their water to be tested for in the first place, which was 
TTHMs.
    DoD authorities took no action to identify the source of 
these chemicals in their water for 4.5 years following their 
discovery. We have discovered documents where DoD 
representatives have admitted that the ATSDR had incorrect 
water system data for Camp Lejeune.
    Ms. Kelly Dreyer of Headquarters Marine Corps wrote a 16 
November 2000 e-mail to a Mr. Neil Paul at Camp Lejeune's 
Environmental Management Department citing the incorrect data 
and directing its correction. Ms. Dreyer wrote in her e-mail 
that it was important that we set the record straight. She 
asked Mr. Paul to prepare a memorandum to the ATSDR with all of 
the correct information, and placed a 1 December 2000 deadline 
for its completion. Then I discover another e-mail from Ms. 
Dreyer, dated 16 March 2001, 4 months later; this time to a Mr. 
Rick Raines, a subordinate of Mr. Paul's at Camp Lejeune, 
repeating the very same request.
    This information was related to the incorrect water system 
data which caused the ATSDR to overlook more than 1,500 babies 
in an earlier study. We now know that the memorandum never got 
written. ATSDR never found out that they had been provided 
incorrect water system data for Camp Lejeune until I informed 
Dr. Frank Bove in a telephone conversation in 2002.
    The credit for the discovery of the incorrect water system 
data belongs to Major Tom Townsend, United States Marine Corps 
(retired). He now lives in Moscow, Idaho. It was through Major 
Townsend's diligent and aggressive letter writing and Freedom 
of Information Act request campaign that much of the factual 
information about Camp Lejeune was uncovered. Major Townsend 
lost an infant son and, more recently, his wife of more than 50 
years to this contamination.
    Over the nearly 10 years that I have been involved in this 
situation, I have had much interaction with the various DoD 
personnel who have been involved in this situation. While some 
have been understanding, others have been just as, if not more, 
hurtful and arrogant.
    During the 1990's and early 2000's, there have been, in my 
estimation, multiple violations of the CRCLA and RCRA laws in 
regards to Camp Lejeune. It is suspected that 6 years ago the 
United States Environmental Protection Agency granted our 
Department of Defense the authority not to list anymore of 
their contamination sites on the national priority list. I must 
also assume that this was executed with the full blessing of 
the Bush administration, or else the EPA's decision would have 
been overturned.
    There is something that a lot of Americans do not 
understand. The United States Department of Defense is our 
Nation's largest polluter. Prior to the EPA granting authority, 
DoD had 172 highly contaminated sites on the national priority 
list. I realize that it is of the utmost importance that we 
maintain a strong defense. I also understand firsthand what 
happens if we do not maintain our environment at the same time. 
What will we have left to defend? A toxic waste dump.
    Yes, our Department of Defense should be held to the same 
standards as every other industry in our Nation. The Department 
of Defense would not tell the truth about their own accidental 
killing of our own soldiers in a combat zone; i.e., Pat 
Tillman. What makes anyone believe that they would not lie 
about the contamination on their installations right here in 
the United States?
    My daughter Janey lost her battle against her malignancy 
nearly 2\1/2\ years after it started. Janey went through hell, 
and all of us who loved her, we went through hell with her. 
Janey died at 3:35 p.m. on 24 September 1985. She was only 9 
years old.
    Thank you, Mr. Chairman.
    Mr. Chairman, I would like to share with the committee the 
dialog of a telephone conversation I had recently with someone 
from headquarters Marine Corps.
    Mr. Stupak. Go ahead.
    Mr. Ensminger. On the 10th of April I called Headquarters 
Marine Corps to find out what happened to the funding for the 
National Academy of Sciences review, funding that was 
authorized by the defense authorization bill, and I got Ms. 
Kelly Dreyer on the phone, and we were discussing this and 
several other issues. And Ms. Dreyer accused me of having a lot 
of pent-up anger. I couldn't believe that she said that.
    But I recounted to Ms. Dreyer, and the fact that she's a 
mother, what I went through as a parent through the illness of 
my daughter. I informed her of the shock that happens to a 
parent when their child's diagnosed with one of these 
catastrophic illnesses. I had to have letters written so that I 
could attain a humanitarian transfer so my daughter could be 
transferred to Penn State University Medical Center where my 
home's at, where my family was for support. And one of the 
doctors wrote a letter and I read it, and it said at her 
diagnosis, her white blood count was over 150,000, which put 
her in a high-risk category and limited the ability or the 
chances that she would have long-term survival.
    I lived that nightmare every day from the time I saw that 
letter. Every day that entered my mind. And then I reminded Ms. 
Dreyer about what she went through in the treatment rooms. 
Every time she got stuck with a needle, I was there holding 
her. She was screaming in my ear. Every time they stuck a 
needle through her bone in her hip to pull out bone marrow, I 
held her and she screamed in my ear, ``Daddy, ``Daddy, don't 
let them hurt me.'' And the only thing that I could say to her 
was, ``Honey, the only reason they're hurting you is they're 
trying to help you.''
    And then I reminded Ms. Dreyer about every time Janey got 
hit with chemotherapy, and she was heaving her guts out, and 
all I could do was stand and rub her back and soothe her.
    And then when Janey came home from school, when she could 
finally go back to school, crying because the other kids at 
school picked on her because her treatments made her look like 
a freak.
    And then on the day of her death, I started crying. I 
hadn't cried in front of Janey before that time because she was 
pulling her strength from me. And I had to be strong for her. 
If I had to cry, I went somewhere else. But that day I started 
crying, and she looked up at me, and she had pneumonia that bad 
she could hardly talk, but she said, ``Stop it.'' and I said, 
``Stop what?'' she said, ``Stop crying, Daddy. I love you.''
    That was the last words my daughter said to me. She went 
into a coma. Thirty-five minutes later, she took her last 
breath, and I since that conversation with Ms. Dreyer I have 
thought about that statement she made to me. And you know what? 
Through these people's misconduct and their deceit, they 
haven't filled me with a lot of pent-up anger. What they have 
filled me with is a terrible resolve to expose their 
misconduct, their arrogance, and their incompetence. And I want 
to expose the truth.
    Thank you.
    Mr. Stupak. thank you for your testimony.
    [The prepared statement of Mr. Ensminger follows:]

                    Testimony of Jerome M. Ensminger

     Good morning, my name is Jerry Ensminger and I served my 
country faithfully for 24\1/2\ years in the United States 
Marine Corps. I would like to take this opportunity to thank 
the chairman, the committee members, and their staffs for all 
of the hard work that went into making these hearings possible. 
I must say that it has been inspiring for me to have tuned into 
C-SPAN these last several months and witnessed our congress 
doing what our founding fathers intended. You have been taking 
on the tough issues that matter to the majority of our 
citizens, not just the issues that affect special interest 
groups and big business. I, and I am quite sure most Americans, 
applaud you for your efforts.
     I am appearing here today as one spokes person for the 
hundreds of thousands of Marines, Sailors, their families, and 
the loyal civilian employees who were unknowingly exposed to 
horrendous levels of toxins through their drinking water at 
Camp Lejeune, N.C. Camp Lejeune is, quite possibly, one of , if 
not the worst, water contamination incidents in history. I can 
confidently make this claim based on the potential numbers of 
people who were exposed and the documented levels of 
contaminants that were present in the finished drinking water 
at the base. Ironically, most of these people still do not have 
any idea that they were exposed to these contaminates at Camp 
Lejeune. They have not been notified and the United States 
Marine Corps has to date refused to institute any type of 
legitimate notification plan/policy. I can assure you that 
there are many more individuals and families who are now 
literally spread out all over the country that are wondering, 
``What happened to me?'' ``What happened to my family member?'' 
These people deserve an answer. It is time for the United 
States Marine Corps to live up to their motto ``Semper 
Fidelis'' which is Latin for ``Always Faithful.''
     My daughter Janey was conceived while her mother and I 
lived in one of the base family housing units that was affected 
by the contaminated drinking water at Camp Lejeune. Just like 
our other children, Janey was born seemingly normal, that is 
until she was diagnosed with Acute Lymphosytic Leukemia at the 
age of six. In 1997, the Agency for Toxic Substances and 
Disease Registry (ATSDR) proposed a childhood Leukemia /Non-
Hodgkins Lyphoma study for children exposed to VOCs in-utero 
while their parents lived at Camp Lejeune between the years 
1968-1985. The proposal (CLW 2815-2832) which was sent to the 
Secretary of the Navy, stated that the expected occurrences of 
these illnesses in a group of 10,000-12,000 births for that 
time period was 7.2 cases. ATSDR has now confirmed 14 cases of 
leukemia and two non-hodgkins lymphoma out of 12,598 
respondents to their survey. This is more than a 100 percent 
increase in the incidence of these childhood cancers.
     On October 1, 1980, representatives from Navy Facilities 
Engineering Command, Atlantic Division from Norfolk, VA. Came 
to Camp Lejeune. They took a composite water sample of all 
eight water systems that were operating on Camp Lejeune at that 
time. The results of this composite sample (CLW 0430) showed 
VOC contamination that exceeded today's Maximum Contaminate 
Level (MCL) of 5ppb. We must remember that this was composite 
(combined) sample of which 6 of the contributing water systems 
were not deemed to be contaminated. Ms. Elizabeth Betz, 
Supervising Chemist at Camp Lejeune's Quality Control 
Laboratory wrote a memorandum (CLW 0613) dated 31 August 1982 
that specifically addressed the 1 October 1980 sampling event. 
First and foremost, the analytical results for this sample were 
not provided to Camp Lejeune until 12 August 1982 and Ms. Betz 
points out errors that were committed during the sample 
collection process. Also, during October of 1980 the United 
States Army Environmental Hygiene Team from Fort McPhearson, 
GA. Began testing certain water systems aboard Camp Lejeune for 
total Trihalomethanes (TTHMs). Their analysis of the 30 October 
1980 water samples taken form the Hadnot Point Water 
Distribution System had the following hand written remark: 
``Water is highly contaminated with low molecular weight 
halogenated hydrocarbons.'' (CLW 0436) On 29 December 1980 
another sample was taken from the Hadnot Point system and again 
the U.S. Army laboratory wrote a note on the analytical form, 
Heavy organic interference at CHCL2BR. You need to analyze for 
chlorinated organics by GC/MS. (CLW 0438) Once again samples 
were taken of the same system on 30 January 1981 and the U.S. 
Army laboratory wrote on the analytical result form You need to 
analyze for chlorinated organics by GC/MS (GC/MS is an 
abbreviation for Gas Chromatograph / Mass Spectrometer.) 
Finally, on 9 March 1981 more samples of Hadnot Point water 
system were collected and analyzed. The U.S. Army laboratory 
once again wrote a note at the bottom of the analytical result 
form Water highly contaminated with other chlorinated 
hydrocarbons (solvents)! (CLW 0443) These analytical result 
forms were being sent by the U.S. Army directly to the Navy 
Facilities Engineering Command, Atlantic Division, Norfolk, VA. 
No action was taken. In fact, officials at Camp Lejeune were 
unaware of the U.S. Army's finding until the Summer of 1982. 
When the EPA's MCLs for TTHMs went into effect in 1982, Camp 
Lejeune was required to use a North Carolina state certified 
laboratory for the analysis of their water. Grainger 
Laboratories of Raleigh, N.C. was contracted by Camp Lejeune to 
analyze their water samples. In May 1982, a Grainger laboratory 
representative phoned Ms. Betz of Camp Lejeune and informed her 
that they had found high levels of Volatile Organic Chemicals 
(VOCs) during their analysis of the Hadnot Point and Tarawa 
Terrace water systems. They had a problem with some of the 
sample bottles and they requested that Camp Lejeune take new 
samples. On 10 August 1982, Mr. Bruce A. Babson, a chemist with 
Grainger laboratories, wrote a letter to the Commanding General 
of Camp Lejeune. (CLW 0592,0593) In his letter Mr. Babson 
stated ``Interferences which were thought to be chlorinated 
hydrocarbons hindered the quantitation of certain 
trihalomethanes. These appeared to be at high levels and hence 
more important from a health standpoint than the total 
Trihalomethane content. For these reasons we called the 
situation to the attention of Camp Lejeune personnel.'' Mr. 
Babson went on in his letter to describe the levels of the 
chemicals they had found in the samples. Tetrachloroethylene 
(PCE) 104 ppb in the Tarawa Terrace (TT) sample and 
Trichloroethylene (TCE) 1,400 ppb in the Hadnot Point sample. 
There was absolutely no action taken by Camp Lejeune officials 
after they received this warning. On 19 August 1982, Ms. Betz 
wrote another memorandum (CLW 0606-0607) to Mr. Sharpe, 
Supervisory Ecologist, Environment Section. In her memorandum 
Ms. Betz outlines the Grainger laboratory results and she also 
discusses the EPA suggested no adverse response levels (SNARLS) 
for the chemicals found in Camp Lejeune finished drinking 
water. In paragraph 8 of her memo Ms. Betz writes that the 
levels of PCE for the Terawa Terrace system exceed the EPA's 
guidance. In fact, they were more than doubled. Grainger 
laboratories continued to test Camp Lejeune's finished drinking 
water for TTHMs throughout 1982-1983 and each time they 
detected high levels of VOCs. They contacted Camp Lejeune and 
they annotated it on their analytical result form. (CLW 0693, 
0953) No action was taken!
     In 1982 the U.S. Navy began their Navy Assessment and 
Control of Installation Pollutants (NACIP) Initial assessment 
study (IAS) of Camp Lejeune. This program was started in 1980 
by the U.S. Navy to identify any possible ``Love Canals'' at 
any Naval shore installations (CLW 4994). The NACIP IAS was 
completed for Camp Lejeune and they issued their report in 
April 1983. The general finding of the NACIP IAS report stated 
in paragraph 2.2.2 ``Seventy six waste disposal sites have been 
identified; however, most (54) do not contain hazardous waste 
or do not pose a significant threat to human health or the 
environment.' and 2.2.4 ``No industrial or municipal wastes 
were found to be migrating onto base property.'' I would like 
to know how these ``experts'' came to this conclusion. Did they 
take water samples from the groundwater aquifers or did they 
make this assumption from a quick drive around the boundary of 
the base? Camp Lejeune officials, quick to seize on this IAS 
report, wrote a letter to the State of North Carolina, Division 
of Health Services, Solid and Hazardous Waste Management Branch 
(CLW 0948). In their letter to the state, a Camp Lejeune 
official wrote ``The study concludes that none of the 76 sites 
pose an immediate threat to human health or the environment,'' 
There is quite a big difference in the definition of the words 
``most'' and ``none'' , especially when they are used in 
reference to hazardous waste sites and human health! There are 
some very pertinent questions about the NACIP IAS that remain 
unanswered. Did Camp Lejeune inform the NACIP IAS team that 
VOCs had already been detected in their finished drinking 
water? Did the NACIP IAS team ask for existing analytical 
results of Camp Lejeune drinking water when they inspected the 
water treatment plant? The NACIP IAS was on-going when Camp 
Lejeune received the 10 August 1982 letter (CLW 0592) from 
Grainger Laboratories. Did Camp Lejeune provide this letter to 
the NACIP/IAS team? It would be my guess that none of this 
information was shared with the NACIP IAS team. I make this 
assertion based on a letter dated October 25, 1985 from the 
State of North Carolina to Mr. Larry Fitzpatrick. The 
attachment to this letter was an assessment written by Mr. Rick 
Schiver of N.C.s Department of Environmental Management 
concerning the groundwater contamination at Camp Lejeune. In 
his assessment, Mr. Schiver wrote ``During July 1984, 
confirmation studies were begun at eighteen (18) priority 
sites. The results of these groundwater studies were documented 
in a report provided to the Marine Corps in February 1985: as 
the Marine Corps disagrees with the conclusion in this report, 
it will not release a copy of it to any outside agency. It is 
my estimation that when the NACIP team came back to Camp 
Lejeune in July 1985, officials at the base, realizing that the 
NACIP confirmation study would reveal the existing groundwater 
contamination, they informed them of the existing analytical 
results. It is my opinion that the NACIP team was both 
professionally embarrassed and appalled by the fact that this 
information had been available during their IAS of the base in 
1982. They had neither asked for it and worse, Camp Lejeune 
officials concealed the information from them. I suspect that 
the NACIP team wrote a scathing confirmtion study report about 
Camp Lejeune. No one with whom I have personally spoken, has 
seen this report. It is imperative that Congress obtain a copy 
of this original report. I believe that it is the smoking gun 
in relation to the drinking water contamination at Camp 
Lejeune.
     As stated previously, the NACIP Confirmation study began 
in July 1984 (Note: The U.S.E.P.A. issued RMCLs for VOCs in 
June 1984) and they began testing the individual water supply 
wells in October. The results of these samples began to trickle 
back in during November and December of that year. It was more 
than 4 years after the initial discovery of VOCs in Camp 
Lejeune's finished drinking water before they took any action 
to remedy the situation. During the months of November and 
December of 1984, Camp Lejeune removed (7) contaminated water 
supply wells from service in the Hadnot Point system. In 
January 1985, the Chief of Staff's wife smelled fuel in the tap 
water at their quarters on Paradise Point officers' housing 
area. This housing area was served by the Holcomb Blvd. water 
treatment plant since August 1973. (Note: Remember this water 
system and date; it becomes very important later in time) Camp 
Lejeune maintenance workers discover that an emergency back-up 
generator fuel line had burst, allowing fuel to enter the water 
system. The Holcomb Boulevard plant was immediately taken off 
line and this area was provided Hadnot Point water via an 
existing inter-tie between the two systems. Camp Lejeune 
officials notified N.C. state health and environmental 
authorities of the accidental contamination. After thoroughly 
flushing the Holcomb Boulevard system with Hadnot Point water, 
military and N.C. state authorities began testing the water to 
ensure that the fuel had been sufficiently flushed out of the 
system. What they found was worse! At the Berkley Manor 
Elementary School they found Trichloroethylene (TCE) at 1,148.4 
ppb and Dichloroethylene (DCE) at 406.6 ppb. (CLW 2254) This is 
when well No. 651 of Hadnot Point water system was discovered. 
This well was located at the back corner of Lot No. 203, the 
Defense Revitalization Management Office yard; (The base junk 
yard!) (Note: Well No. 651 was constructed in 1971, 30 years 
after operations began at Lot No. 203). This well tested at 
18,900 ppb of Trichloroethylene (TCE) and 655 ppb of Vinyl 
Chloride during early February 1985 testing. It should be 
pointed out that well No. 651 was the only contaminated well 
that was still pumping during the January, February 1985 time 
frame. This one contaminated well caused finished drinking 
water samples to exceed the 1,000 ppb for TCE alone. One can 
only imagine what the levels of contaminates were prior to the 
November/December 1984 time frame when several of these 
contaminated wells would have been pumping at the same time. 
Hopefully, the ATSDR's on-going computerized water modeling 
will answer that question. During this same time frame, the 
water system for the Tarawa Terrace (TT) base family housing 
area was found to be contaminated with high levels of 
Tetrachloroethylene (PCE). It should be pointed out at this 
time that the highest contaminated water supply well for TT 
(TT--26 @ 1,580 ppb PCE) was constructed at the property line. 
TT's well field was constructed down gradient and directly 
across the street from a dry cleaning establishments, gasoline 
stations, automotive repair facilities, and known septic sewage 
ground absorption systems.
     On 11 March 1985, Mr. Julian Wooten, Director of Camp 
Lejeune's Natural Resources and Environmental Affairs Division 
wrote what I can only describe as a C.Y.A. letter. (CLW 1179-
1180) In his letter, Mr. Wooten explained, in remarkable 
detail, the recommendations of, and the sources contacted (and 
not) by Mr. Hubbell. My only regret about this letter is that 
Mr. Wooten concurred with Mr. Hubbell's recommendations. (See 
paragraph No. 3, CLW 1180) Mr. Wooten was a personal friend of 
mine. When I discovered this letter, I was greatly disheartened 
and disillusioned by his actions (or lack there of). I lost a 
lot of respect for this man. It is quite obvious that these 
authorities were playing a selective game of Ostrich; put your 
head in the sand and do not look back where you know the 
damming Information lies. That way if all of this comes up 
later, they can say, ``We did not know any better.'' This is 
the exact tactic that has been employed by the D.O.N. and the 
USMC ever since this situation truly became public in 1997. Mr. 
Wooten retired in the 1990s; Mr. Hubbell holds a flag rank 
civilian Position at HQMC. His biography can be viewed on the 
USMC's official Web site www.usmc.mil General officer 
biographies.
    On October 4, 1989, (CLW 4976) Camp Lejeune was placed on 
the National Priority List (NPL) for contamination sites. This 
appointment automatically required the ATSDR to execute their 
Congressionally mandated mission and perform an assessment at 
Camp Lejeune for human exposures to the contamination. 
Initially, the USMC provided information to the ATSDR (see PHA 
for Camp Lejuene) and the public about the Tarawa Terrace 
Hadnot Point and Holcomb Blvd. service areas that was incorrect 
and blatantly untrue! When the ATSDR began their assessment of 
the contamination at Camp Lejeune, there were several letters 
written requesting data on the water systems and the 
contamination sites on the base. On February 23, 1993, Ms. 
Nancy L. Sonnenfeld of the ATSDR's Epidemiology and 
Surveillance Branch Wrote a letter to Mr. Neal Paul of CLNC, 
Environmental Management Department (CLW 2245, 2246). In her 
letter, Ms. Sonnenfeld explained exactly what information / 
data the ATSDR was looking for, drinking water distribution 
systems data. I would like to point out the statement made by 
this scientist at the beginning of paragraph No. 3 in this 
letter. It is my opinion that statements such as these are 
considered pandering and gives the impression that the ATSDR is 
willing to play on both sides of the fence! While I did obtain 
this letter, none of the enclosures have ever been made public. 
A letter written to CLNC on March 5, 1993 (CLW 2247) ATSDR 
environmental engineers were requesting copies of site related 
materials appropriate for the preparation of public health 
assessments. The author of this letter, Mr. Stephen S. Aoyama, 
P.E. was very thorough in his request. Please note the hand-
written comments that were made on the letter at CLNC. ``Final 
Reports Only--Send 2 or 3 Final R1/FS.'' This was not what 
ATSDR asked for; this was a deliberate stalling / harassment 
tactic. Then, on September 2, 1994 (Note: 6 days prior to their 
initial release of the Camp Lejeune PHA) the ATSDR's Office of 
Assistant Administrator wrote a letter to the Engineering 
Support Department, Navy Environmental Health Center (NEHC), 
Norfolk, VA. (CLW 2407) This letter states ``We have sent MCB, 
Camp Lejeune several requests for information and, in most 
cases, the responses were inadequate and not supporting 
documentation was forwarded.'' (Note: All of the handwritten 
notes were on this letter when it appeared on the PDF file. 
(Please note the ``knee jerk'' comment at the lower left.) Then 
I find a letter from the Commanding Officer of the NEHC (CLW 
2406) a subordinate command to CLNC ``recommending'' that they 
cooperate with the ATSDR and provide them with the requested 
data. Please note that higher headquarters was copied on this 
letter and the enclosure. I have found no documented 
involvement from higher headquarters where they chastised CLNC 
authorities for their lack of cooperation with the ATSDR. The 
fact that there is no documented corrective action from any of 
the higher headquarters is a clear signal that they complied 
with and were party to the tactics being employed by CLNC in 
this situation. I have found many data requests (in writing) 
from the ATSDR. I have never found any written submissions of 
data to the ATSDR from CLNC, not one! We have submitted Freedom 
of Information Act (FOIA) requests to the ATSDR and the USMC 
for any and all documents pertaining to data submissions from 
CLNC to the ATSDR. None of these FOIAs have ever been 
fulfilled. In fact, the Director of the ATSDR sent me a letter 
dated 4 May 2007 that his agency can not produce the supporting 
documents for their 4 August 1997, PHA of Camp Lejeune. Dr. 
Frumkin stated that all of these reference documents had been 
``mistakenly'' destroyed by a private contractor? It would be 
interesting to find out how many other N.P.L. sites P.H.A. 
supporting Documents have been lost or destroyed by this agency 
or is it only the Camp Lejeune documents?
    At the same time the ATSDR was conducting the PHA for Camp 
Lejeune, (1992-97) the ATSDR proposed an adverse pregnancy 
outcome study for the years 1968-1985. (CLW 2528-2529) This 
study was conducted and it became the basis for the Camp 
Lejeune Health Survey (1999-2003) and the epidemiological study 
that is still in progress. There is a problem with the findings 
of this initial study. Camp Lejeune officials provided the 
ATSDR with incorrect water system/distribution data for the 
Holcomb Blvd. and Tarawa Terrace service areas. The ATSDR had 
been led to believe that the Holcomb Blvd. water service area 
had received their drinking water from the Holcomb Blvd. water 
treatment / distribution plant. This water treatment plant was 
not constructed until 1972 and the Camp Lejeune Plant Account 
records show it as becoming operational in August 1973. (CLW 
3238) Prior to 1973, the base family housing in this area, 
Berkley Manor, Paradise Point, and Midway Park, received their 
water from the presumed contaminated Hadnot Point system. 
Furthermore, CLNC officials misled the ATSDR and the public to 
believe that when the 2 wells in the Tarawa Terrace (TT) system 
had been taken off line because of contamination, they shut the 
entire TT water distribution system off. They proclaim in many 
documents (CLW 3075, 3076, 3077, 3161) that without the 
production from those two contaminated wells, the TT plant 
could not meet the water demand. Since 1985 TT received their 
water from the Holcomb Blvd. system. We know that this was not 
the truth, the Tarawa Terrace water system stayed in production 
and on-line until March 1997. Because of the incorrect 
information for the Holcomb Blvd. service area an estimated 
1,500 pregnancies were overlooked in the 1968-1985 ``Adverse 
Pregnancy Outcome'' study. I have no idea how many babies were 
excluded because of the erroneous data on TT. We also know from 
internal USMC documents that Camp Lejeune officials turned on 
one of the known contaminated TT wells to meet water demand 
during peak demand periods. (CLW 1132) An action bried (CLW 
1129--1131) written by the Assistant Chief of Staff Facilities 
on 1 March 1985 outlined the alternatives for providing water 
to the Tarawa Terrace (TT) base housing area. The USMC 
constantly states that their highest priority is the Health and 
welfare of their Marines, Sailors, their families, and the 
civilian employees on their bases. I can assure you that this 
document, and the alternatives that we now know were chosen, do 
not support those claims. According to the alternatives that we 
now know were selected from this document, health and welfare 
took a back seat to money and favors. In 1999, Major Tom 
Townsend, USMC (Retired) began a very aggressive letter writing 
/ FOIA campaign. His intent was to procure as much information 
pertaining to the situation as he could. It was Tom Townsend 
who, in 2000, discovered the incorrect water system data for 
the Holcomb Blvd. service area for the years of 1968-1973. He 
immediately notified USMC officials (in writing) of the error. 
On 16 November 2000, Ms. Kelly Dreyer, Project Officer, Camp 
Lejeune Water Contamination, Installations and Logistics 
Branch, Headquarters Marine Corps (HQMC) sent an e-mail to Neal 
Paul at CLNC, EMD. In her email Ms. Dreyer outlined the 
incorrect water system data situation to Mr. Paul. She told him 
that it was ``important to set the record straight'' and she 
wanted him to write a memorandum to ATSDR with the correct 
information. Ms. Dreyer went on to spell out in detail what 
information she wanted on the memo and gave him a ``by date'' 
for completion and signature of 1 December 2000. She also 
directed that the Commandant of the Marine Corps and the NEHC 
be copied. Four months later, March 16, 2001, Ms. Dreyer sends 
another e-mail to CLNC, EMD requesting the very same 
information. (CLW 3307) The only difference is that this time 
she addresses her request to Mr. Rick Raines, a subordinate of 
Mr. Neal Paul who received the first directive. Needless to 
say, this memorandum was never written. The ATSDR never knew 
they had incorrect water system data until I told Dr. Frank 
Bove During a telephone conversation in 2002. The USMC had 
corrected their error by placing a new entry on their 
chronology which is located on their official Web site. The 
USMC never informed the ATSDR that their ``Adverse Pregnancy 
Outcome'' study had been skewed by the incorrect water system 
data. What is just as appalling is the fact that the USMC did 
not correct this error knowing full well that the ATSDR was 
well into their Childhood Cancer and Birth Defects study. Had 
it not been for Tom Townsend's diligence, this lie may never 
have been uncovered. The lies about the Tarawa Terrace water 
system were never rectified. It is unknown how many babies that 
were exposed to these contaminates have been overlooked by the 
ATSDR's studies.
    When the ATSDR announced their proposal for a Childhood 
Cancer study on June 23, 1997 (CLW 2815) it caused a firestorm 
of lies and deceit amongst the USMC and DoN spin doctors. When 
any press interviews or press releases were issued concerning 
the Camp Lejeune water contamination, they always pointed to 
the Tarawa Terrace base housing area. This was because they had 
an off-base scapegoat on which to focus the attention of the 
media and the public. When the ATSDR went to the Secretary of 
the Navy to acquire funding for their proposed Childhood Cancer 
study in 1997, Ms. Elsie Munsell wrote a letter to the ATSDR. 
(CLW 2917) In her letter, Ms. Munsell wrote ``the volatile 
organic chemicals found in the water supply under investigation 
came from an off base source, ABC One Hour Cleaners. According 
to our investigation, this off site source of contamination is 
a National Priorities Listed Site under the jurisdiction of the 
EPA. Therefore, in accordance with CERCLA 107(a), it is more 
appropriate for you to seek funding for the study from the 
responsible party.'' The USMC /DoN's incorrect water system 
data had worked wonders for them thus far. They had the ATSDR 
believing that the only one small housing area, the 21 housing 
units at Hospital Point, were exposed to contamination caused 
by the military. In reality, it was 1,929 units for the years 
of 1968-1973. They had the Secretary of the Navy's Office 
baffled as well and they got away with not funding the ATSDR's 
study because of it. The ATSDR then proceeded to pursue the 
funding from the White House Office of Management and Budget 
(OMB); they succeeded. OMB authorized the funding based upon 
III phases; if the 1st phase (the survey) showed enough data 
(cases), then it would proceed to the 2nd phase (verification 
of reported ailments). If the 2nd phase showed enough medically 
verified cases, then it would proceed into the 3rd and final 
phase, the epidemiological study of the confirmed cases. It is 
my opinion that the DoD agencies involved in the process did 
everything possible to kill this study in the 1st phase. They 
held the keys to all of the data that The ATSDR needed. To 
ensure the validity of the 1st phase of this study, 80 percent 
of the estimated 16,500 Pregnancies that occurred at Camp 
Lejeune between the years of 1968-1985 need to be contacted. 
DoD agencies initially pledged their support of these efforts, 
but it quickly degraded into stonewalling and delaying tactics. 
What better way to kill this study than by ensuring that the 
ATSDR did not contact the 80 percent of pregnancies required by 
OMB to validate the 1st phase? This very scenario was alluded 
to by Ms. Kathy Skipper of the ATSDR, Public Affairs Office in 
an e-mail to Ms. Kelly Dreyer of HQMC (CLW 3130).
     Upon OMB approval of the ATSDR funding, ATSDR personnel 
proceeded with the writing and peer review for the protocol of 
their proposed study. Once all of this was accomplished, it was 
time to start mailing out the questionnaires to the small 
number of subjects that had thus far been identified. The 
Survey (Phase No. 1) was supposed to begin in January 1999; 
this did not happen because of an objection by DoN and USMC 
authorities in October 1998. Their objection was based on the 
release of the Hollywood movie A Civil Action! (CLW 2996--2999) 
It would appear (CLW 2995) that they had partial success in 
their efforts when they got the beginning of the survey kicked 
back by one month. In reality, the survey never started until 
October of 1999 when the USMC posted the ``Camp Lejeune Area 
Water Survey'' information sheet on their official USMC Web 
site. (CLW 3161) This document which cited the dates 1968-1985 
carried on the lies; it only referred to Tarawa Terrace and 
Hospital Point housing areas as being affected by the 
contamination. It also continued the lie about Tarawa Terrace 
base family housing area being provided drinking water from the 
Holcomb Blvd. system since 1985. These people delayed the very 
mechanism (the study) that I was looking to for an answer to a 
question that had nagged at me for 15 years by this point. I 
wanted to know what caused my daughter's illness and her 
subsequent death. I still do not have that answer, but I do 
have a very good idea. To have discovered that this answer got 
delayed for another 9 months because of the release of a 
Hollywood movie was, to say the least, infuriating! DoD 
agencies never fully cooperated with the ATSDR's study efforts 
until the September/October 2000 time frame. This is when the 
ATSDR announced that they were going to execute a nationwide 
media blitz to locate enough (80 percent) of the estimated 
16,500 pregnancies in order to validate Phase No. 1 of their 
study. It was at this point that the USMC finally somewhat 
relented. They (USMC) did not want the ATSDR to pursue this 
media campaign without their involvement. (It would make the 
USMC look bad.) On 1 November 2000, a joint Pentagon Press 
conference took place which included Marine Corps and ATSDR 
representatives. It is quite obvious by reviewing the packet of 
documents that I printed from the Internet in November 2000, 
that the USMC was starting to correct some of their lies, but 
it is quite obvious from the conflicting information on 
different documents that they (USMC) were having a difficult 
time conveying the truth. CLW 1194 Procedures for operating the 
new well at Tarawa Terrace really makes me wonder if these 
people (USMC) ever really did stop using this well. 
Mysteriously, most of the water treatment plant log book 
entries concerning water levels and booster pump operation for 
Tarawa Terrace ceased in May 1985. It is my suspicion that the 
contaminated TT new well (TT-23) continued to be operated until 
March 1987 when the Tarawa Terrace water treatment plant was 
closed. What other explanation is there for this document (CLW 
1194) to have been generated?
    There have been numerous federal agencies who have looked 
into the Camp Lejeune water contamination incident and they 
have issued reports, the most recent being the GAO. In February 
2004, The Commandant of the Marine Corps named his Blue Ribbon 
panel to look into the issues surrounding the Camp Lejeune 
water contamination incident. This panel was appointed by the 
Commandant as a damage control tactic following the January 
2004 Washington Post article concerning the contamination. When 
they (USMC) named the members of this panel, I knew that this 
was going to be one more white wash attempt. Senator Elizabeth 
Dole (R,N.C.) even called the Marine Corps selection of panel 
members absurd. They named former Congressman Ronald Packard 
(R,CA.) as the chairman; it did not take me long to figure out 
Mr. Packard's connection to this situation. He had previously 
represented southern California 48th district whose largest 
industry was Marine Corps Base, Camp Pendleton. It just so 
happened that Camp Pendleton was where the Commandant (General 
Hagee) had done the majority of his command time as a General 
Officer. Secondly, he chose retired General Hearney, the former 
Assistant Commandant of the Marine Corps (ACMC) for the years 
of 1994-96. I am quite certain that General Hearney had 
Attended briefings during his tenure as (ACMC) concerning the 
CLNC water situation. Thirdly, he appointed Mr. Robert Piere, 
the former Assistant Secretary of the Navy for Installations 
and Environment. It was this man's office who turned down the 
ATSDR's request for funding of the Camp Lejeune Childhood 
Cancer study in October 1997! When these panel members were 
named, there was such an overwhelming outcry of foul that the 
Marine Corps was forced to name (2) additional independent 
members to this panel. They appointed Dr. Robert Tardiff and 
Dr. William Glaze to the panel. I quickly vetted both of these 
new additions and found the following. Dr. Robert Tardiff was 
the President /CEO of the Sapphire Group. This company was 
nothing more than environmental hired guns; they performed risk 
assessments on chemicals and products for the highest bidder. 
Dr. William Blaze was the only member of this panel that could 
truly be considered objective and non-biased. The first meeting 
of this panel took place at Camp Lejeune in April / May time 
frame. After their meeting aboard the base, the panel members 
attended a press conference / meeting at the Jacksonville, N.C. 
U.S.O. This took place on a Friday and Dr. Glaze did not appear 
at the press interview the following Monday. His resignation 
from the panel was announced by the Chairman, Ron Packard. Mr. 
Packard stated that because Dr. Glaze was on the E.P.A.'s 
science advisory board, he (Dr. Glaze) feared that those duties 
might be a conflict of interest if they (EPA Science Advisory 
Board) were called upon to review the findings of the 
Commandant's Panel! No, Dr. Glaze who cherished his position in 
the world of academia saw the handwriting on the wall after he 
attended the first meeting at Camp Lejeune. If he wanted to 
retain his high standing that he had attained in academia and 
the scientific Community, he needed to distance himself from 
this fiasco. Then when the Commandant revealed his charter for 
this panel, I knew that is was a hoax. The charter charged the 
panel to review only the circumstances surrounding this 
situation from 1980-85. I knew right then that his entire panel 
was nothing more than a farce. It was akin to placing a band-
aid over a sucking chest wound; too little, too late! This 
panel completed their charter and filed their report and while 
they found some fault with the actions of some departments the 
end result was no harm, no foul. This was what I predicted; 
this is what we got.
    The EPA Inspector General's office did a small 
investigation into some of the complaints pertaining to this 
situation. It was very small; they interviewed me once in 
person and then they issued their report. I was not even aware 
that they had issued a report until it was cited by the GAO.
    The EPA Criminal Investigation Division conducted a 
criminal investigation into the circumstances surrounding the 
Camp Lejeune water contamination. I went to a briefing on the 
findings of this investigation on 25 August 2005 at the 
Department of Justice in Washington, D.C. At the briefing, it 
was stated that there were no crimes committed by DoD personnel 
or their representatives. In a recent telephone conversation 
with Special Agent Tyler Amon, the agent in charge of the Camp 
Lejeune investigation, he stated that he had recommended 
charges against personnel involved in this investigation. It 
was the judgment of the Department of Justice prosecutors that 
they could not successfully prosecute those charges in Federal 
Court. The GAO cited the EPA, CID investigation in their 
report. They wrote that the EPA, CID investigator reported that 
the Marine Corps admitted that if failed to adequately address 
concerns and data requests from the public and ATSDR. Failed to 
address data requests from the ATSDR? Is this not a violation 
of federal law? The fact that Marine Corps officials knew that 
the ATSDR had incorrect water system data for Camp Lejeune 
(provided by them) and they did nothing to correct it; is this 
not a violation of federal law? The fact that Marine Corps 
officials changed the answers to an interview for the media 
from the truth to a lie; is that not a violation of federal 
laws? I can assure you that had I pulled some of these very 
same stunts while on active duty, I would probably still be in 
Fort Leavenworth Federal prison. The fact that Mr. Townsend and 
I were only provided an abbreviated version of the 
investigation report, we still have some very valid questions 
that have not been answered. Was the DoD main-frame computers 
and servers searched for all e-mails pertaining to this matter? 
I can assure you, the number of e-mails that we now possess are 
only a fraction of the ones that were generated on this 
subject. The e-mails that currently exist were captured from 
personal computers or files that someone had printed off. If we 
are ever going to find the truth in this situation, it is my 
belief that it is lying in the servers of DoD and the CDC.
    Most recently, (May 2007) the GAO published a report on a 
study that they had conducted on the circumstances surrounding 
the Camp Lejeune water contamination incident. First, I would 
like to point out that since the beginning of the GAO's efforts 
related to this situation, their principle investigator changed 
no less than (4) times. When this study began, Mr. John Oh was 
the principle. He left and his responsibilities were assumed by 
a Ms. Bonnie Anderson. When Ms. Anderson left a Ms. Danielle 
Organek took over and then she was finally replaced by a Ms. 
Karen Doran. It is no wonder that this report is so full of 
errors, omissions, and half-truths. How do you conduct a valid 
study into a situation that spans nearly thirty years and is as 
sorted and twisted as the Camp Lejeune situation without at 
least maintaining continuity? Furthermore, this report was 
written n consolatory language that wreaks of cover-up. There 
are too many areas in this report that are erroneous for me to 
list in this testimony. I am, instead, providing you with my 
own copy of the GAO report which I have thoroughly highlighted 
and annotated.
    The Agency for Toxic Substances and Disease Registry 
(ATSDR) has been a bitter sweet experience for me. It is my 
opinion that the ATSDR's Department of Health Assessments and 
Consultations (DEHAC) has become an excuse mechanism for 
polluters and the chemical production industry. All anyone need 
do is review several of their Public Health Assessments and you 
will notice the trend. While they have become very skilled at 
changing their wording, the end result is always the same. No 
harm, no foul! They constantly state that there are too few 
studies available for them to draw any firm conclusions from. 
Then they recommend that no further studies are required for 
these exposures! How are they ever going to increase the 
scientific knowledge on the effects these chemicals have on 
humans if they do not recommend studies? The only reason that a 
further study was recommended at Camp Lejeune was Nancy 
Sonnenfeld who was working with the ATSDR while pursuing her 
PHD performed the Small for Gestatonal Age and Adverse 
Pregnancy Outcome study as her dissertation and her findings 
were apparently very profound. This is when the ATSDR 
recommended the Childhood Cancer / Birth Defects in utero study 
at Camp Lejeune. This all mainly happened because of a 
dissertation! It really makes me wonder how many other N.P.L. 
sites that have been played down by one of ATSDR's Public 
Health Assessments (PHA) that truly deserved further studies.
     The recent GAO report cites ATSDR officials as saying that 
their work at Camp Lejeune has not been delayed because of 
either a lack of cooperation from DoD entities or funding. If 
this is true, why is it that the exposure information in the 
Camp Lejeune final PHA is incorrect? If the DoD representatives 
who provided ATSDR this data were not at fault, I would assume 
that ATSDR staff incompetency was responsible. The fact is that 
the adverse pregnancy study overlooked 1,500 plus births in the 
Holcomb Blvd. service area. There is an unknown number of 
births at Tarawa Terrace that have been overlooked. Was this 
not because DoD representatives provided ATSDR staff with 
erroneous data? If it was not DoD's fault, then it must again 
be related to the incompetency of ATSDR staff. We know that the 
survey (Phase 1) was scheduled to start in January 1999, but it 
never started until late September of that year. We have also 
seen the e-mails recommending the delay of that survey because 
of the release of the movie A Civil Action. This delay was not 
requested by DoD entities? We know that the study covered the 
years of 1968-1985 and we now know that the Tarawa Terrace 
water system continued to operate until March 1987. Previously, 
we were told that it ceased operation in 1985. The ATSDR missed 
fifteen months worth of births at this base housing area. Since 
DoD entities have not done anything to hinder ATSDR's efforts 
at Camp Lejeune, then once again, this can only be attributed 
to the incompetence of ATSDR staff. How does the ATSDR explain 
all of the letters that have been written by them complaining 
about the lack of cooperation of DoD entities in the Camp 
Lejeune situation? They were cooperating, but the ATSDR just 
decided to write letters of complaint? The Agency for Toxic 
Substances and Disease Registry is, in my opinion, seriously 
deficient of an extremely important requirement, Intestinal 
Fortitude (GUTS). I realize that there is a need for 
cooperation between Federal agencies and departments. I also 
understand that every precaution should be taken to nurture and 
preserve a good working relationship between one another. The 
ATSDR needs to understand that respect is a two way street; 
there should be a limit to the evident lack of respect and 
cooperation that the ATSDR accepts from the DoD! I travel 
through rural North Carolina every day. During my travels, I 
pass through many poor, underprivileged, and under educated 
neighborhoods. Many of these people do not even have a grasp of 
the English language. God forbid that something like what 
happened at Camp Lejeune would happen to one of these 
neighborhoods. Who would be their champion? Who would stand up 
and fight for them? The ATSDR? They will not even make a stand 
to defend themselves! Would our EPA be there to defend these 
people? Evidently not. We had a panel of expert scientists 
recommend in their report last summer that our EPA should lower 
the protective standard for trichloroethylene (TCE) in drinking 
water without any further delay. It has been almost a year 
since that report was released. We still do not have a new 
standard. No, I am afraid that if an incident such as the 
contaminated water at Camp Lejeune happened in one of the afore 
mentioned neighborhoods, it would be dead and buried along with 
their family members. It is my honest opinion that the citizens 
of our country would be better served if our Congress dissolved 
the ATSDR. Why pay for the up-keep of an agency that is quite 
obviously not accomplishing the mission for which they were 
created? I believe that our citizens and our environment would 
be better served if we contracted universities to perform the 
assessments at our NPL sites. I truly believe that we would get 
a more honest and thorough assessment than what we are getting 
now! Lastly, the ATSDR can not even produce the references 
(supporting documents) for their PHA of Camp Lejeune. (See my 
letter of April 16, 20007 to ATSDR and their response dated May 
4, 2007.) The ATSDR stated in their 4 May 2007 letter to me 
that the references for the Camp Lejeune PHA had been destroyed 
by a private contractor. I would like to remind you that the 
GAO cited the EPA, CID investigation report which stated the 
documents had not been destroyed. It would appear Mr. Chairman 
that we have several Federal agencies involved in this fiasco 
who can not seem to get their answers straight!
    In closing, I would like to say that the last 10 years have 
been a real experience for me. For an organization that 
supposedly prides itself on honor and integrity, the United 
States Marine Corps has certainly turned a blind eye to the 
documented misconduct and incompetence exhibited by their 
civilian employees and officers in this situation. The fact 
that these people are still on their payroll or in their ranks 
is a silent nod of approval of their actions by headquarters. 
In fact, most of these individuals, with the exception of one, 
have been promoted and given more responsibility and authority. 
This is a scary scenerio; do you not agree?
     My daughter, Janey, fought valiantly against her illness, 
but the malignancy was too strong. Janey succumbed to her 
disease at 3:35pm, Tuesday, 24 September 1985. She was only 9 
years old.
                              ----------                              

    Mr. Stupak. With consent of the committee, I'm going to ask 
Mr. Dingell, would you like to make an opening statement? Mr. 
Dingell is chairman of the full committee.
    Chairman Dingell. Mr. Chairman, the opening statement I 
have is an excellent one. I would like to have it inserted in 
the record, please.
    Mr. Stupak. without objection.
    Chairman Dingell. Mr. Chairman, thank you for providing 
accommodations for this hearing. Mr. Ensminger, welcome. I am 
pleased we are seeing you again. How long ago was it that we 
first met, you and I?
    Mr. Ensminger. Spring of 2004, sir.
    Chairman Dingell. Well, I told you at that time we would 
approach this matter, and we will. I want to say that we will 
pursue it, not only for you and your loved ones but also for 
all of the others.
    I find myself somewhat troubled that the military--and I 
was an infantry man in World War II--doesn't adhere to the 
maxim that the Marine Corps has, and that is that the Marines 
take care of their own. When I was in the infantry we also 
tried to take care of our own, too.
    I would make the observation that we're not only going to 
pursue the situation with regard to the Defense Department, but 
we're also going to pursue the situation with regard now to EPA 
where there is some curious behavior going on which involves 
lack of enthusiasm for pursuing this matter.
    CID agents being used as drivers and personal bodyguards 
for the Administrator rather than investigating important 
environmental crimes, which they would do, interestingly 
enough, under legislation that came out of this committee, of 
which I was one of the principal authors.
    I want to say, we will find out why the Navy balked at 
funding health impact studies, why the Marine Corps delayed in 
initiating these studies, and why the Marine Corps has failed 
to properly produce documents on many occasions necessary for 
health impact studies. And also why the Navy failed for years 
to close down a contaminated drinking water system despite 
knowledge of such contamination and the risk that it imposed to 
our military personnel.
    Bad enough to have our people shot at over there in Iraq 
without having the Department for which they work engage in the 
kind of practices which we see here, which have the kind of 
brutal impact upon military personnel and patriotic Americans 
and their families who are trying to serve their country.
    So, Mr. Chairman, I commend you for what you are doing. I 
welcome our witnesses, and I would just make the observation, 
we've had some comments from some of the departments, 
particularly the EPA. They might not be as cooperative as we 
would like, and I'm going to remind them, Mr. Chairman, as we 
always choose to, that they can cooperate two ways: One is 
pleasantly, and one is painfully. And we're going to leave the 
choice to them, and I would urge them to take the more pleasant 
choice.
    Mr. Chairman, thank you.
    [The prepared statement of Mr. Dingell follows:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

     Mr. Chairman, thank you for holding this critically 
important hearing. The sorry treatment of the wounded at Walter 
Reed Hospital was a national scandal and so is the treatment of 
the Marine casualties of Camp Lejeune's poisoned water.
     Although the drinking water contamination, which is the 
subject of this hearing, happened decades ago--the victims of 
that contamination continue to suffer both physically and 
emotionally.
     They suffer the ill effects of exposure to the toxic 
water; they suffer watching their babies get sick and die; they 
suffer waiting decades for scientific studies; and they suffer 
from the apparent mean spirit, penny-pinching, and indifference 
of their formerly revered commands, the U.S. Marine Corps and 
Department of Navy.
     It is hard to believe, also, that to this day, former 
Marines and their families have not been notified that the 
water they drank at Camp Lejeune was carcinogenic--a fact that 
our Government has known for decades.
     Indeed, the members of our first panel--retired Master 
Gunnery Sergeant Jerry Ensminger, Dr. Michael Gros, and Mr. 
Jeff Byron--each served at Camp Lejeune and, along with their 
families, consumed the poisoned water for years, but they did 
not learn of the contamination until 1997, 1999, and 2000, 
respectively. Each has a story of tragedy and courage to share 
with us, and I deeply appreciate their appearance before us 
today.
     I welcome also agency representatives from the 
Environmental Protection Agency and the Agency for Toxic 
Substances and Disease Registry who will help answer some of 
the tough questions about what may be one of the largest 
contaminated water cases in our country's history.
     In particular, I want to welcome Special Agent Tyler Amon 
of the EPA's Criminal Investigations Division who single-
handedly conducted an extensive criminal investigation of this 
matter. His work offers insight into this tragedy and 
exemplifies the excellent work CID can do if allowed to do its 
job.
     Almost 20 years ago, I sponsored the legislation that 
provided EPA criminal investigators with law enforcement powers 
so they could more effectively carry out their duties. 
Unfortunately, in the course of conducting our inquiry, we have 
learned that CID may not have the resources or leadership to do 
its job. As you recall, the Pollution Prosecution Act of 1990 
required a dramatic increase in the number of EPA agents 
assigned to CID. A dozen years after this requirement took 
effect; EPA still has not met this requirement.
     In addition, I am concerned that of those CID agents who 
are supposed to be conducting important environmental crimes 
investigations, a large number of them are being used as 
drivers and personal bodyguards for the Administrator or 
assigned to do homeland security work that appears duplicative 
of what the FBI is already doing.
     These are but a few of the things we are hearing, Mr. 
Chairman, and I hope you will consider looking further into 
this matter. Otherwise, this may be the last time we see such 
excellent work coming from agents such as Mr. Amon.
     Finally, I welcome our distinguished Department of Navy 
and Marine Corps officials. I sincerely hope these officials 
can explain some of the very troubling evidence that this 
committee has reviewed:

    <bullet>  Evidence that the Navy balked at funding health 
impact studies--despite statutory requirements that Department 
of Defense fund such studies;
    <bullet>  Evidence that the Marine Corps delayed initiating 
these studies over concerns about bad publicity;
    <bullet>  Evidence that the Marine Corps repeatedly failed 
to produce documents necessary for the health impact studies; 
and
    <bullet>  Evidence that the Navy failed for years to close 
down a contaminated drinking water system despite knowledge of 
contamination.

     The Marine Corps takes great pride in its maxim, ``Marines 
take care of their own.'' But if this principle is to be 
anything but an empty slogan, the Corps needs to do more to 
notify all former Lejeune residents of their possible exposure 
and provide prompt and adequate medical coverage to them and 
their families.
     Mr. Chairman, I thank you for your recognition.

    Mr. Stupak. Thank you, Mr. Dingell. Ms. Solis, opening 
statement.
    Ms. Solis. Thank you, Mr. Chairman, for giving me the 
opportunity to be here with you. I want to commend you for 
having this hearing. I recall very vividly the last time we had 
our witnesses that are here today speak to us. And at that 
time, I felt it was a very compelling argument for us as a 
committee to delve into why it is that DoD and EPA have not 
really been held accountable and been more transparent in their 
deliberations. And thank goodness that we have a new direction 
now, and we are trying to take hold of this discussion and 
debate and trying to get to the real facts about what is 
happening.
    I have a bill that's looking at perchlorate water 
contamination, which is due to rocket fuel, a little different 
from what you are discussing here today, but nevertheless again 
the DoD has failed to work in cooperation with EPA to really 
get at why this is happening, to provide cleanup funds, and to 
make sure that families, first and foremost, are taken care of. 
I know that you have very compelling information that we have 
heard before and that you have restated here, and I just thank 
you for being here. And as our chairman of our committee says, 
Mr. Dingell, we will get to the bottom of this. So thank you.
    Mr. Stupak. Mr. Inslee, I take it you are waiving your 
open?
    Mr. Inslee. Yes, thank you, Mr. Chairman.
    Mr. Stupak. I thank all members, and I realize we will go 
back and forth. We will begin questioning of 5 minutes each. I 
will begin the questioning. Mr. Ensminger, in your written 
testimony, you state that a Special Agent Tyler Amon informed 
you that he had recommended charges against certain individuals 
based on the EPA's criminal investigation regarding water 
contamination at Camp Lejeune. Can you elaborate further on 
that?
    Mr. Ensminger. It was during a telephone conversation with 
the agent several weeks ago. And I asked him about these 
certain instances that we have discovered in these documents 
where either these people had identified the fact that ATSDR 
had been provided this incorrect data and had never done 
anything to correct it. If this had been an accident, I asked 
him, then why didn't they voluntarily correct it? Why did they 
continue to just allow this to go on? What these people did, 
the Marine Corps, they have a Web site, and they have a 
chronology on that Web site. What they did was very quietly 
make a new entry on their chronology which corrected the error 
and never notified the investigating agency, which was ATSDR. 
And I asked the agent about that. And then I found e-mails from 
1999, where a local media outlet in eastern North Carolina, 
channel 12, was doing a story, a three-part story covering the 
water contamination on the base.
    The public affairs officer, a Major Scott Jack, made the 
reporter submit his questions in writing. There was five of 
them. And then the major worked up answers for those questions 
and then he shotgunned them around to several different people 
aboard the base that were involved in this. One of them was a 
Mr. Scott Brewer, who worked at Camp Lejeune's environmental 
management department. The major sent these questions with his 
answers around at 7:09 a.m. in the morning. By 12-something 
p.m. he received an e-mail back from Mr. Scott Brewer, which 
took the answer to question No. 3 which the public affairs 
officer had the truthful answer to, where he stated that the 
Tarawa Terrace water system remained in operation until March 
1987. Mr. Brewer completely changed his answer and said that 
two contaminated wells at Tarawa Terrace were taken off line, 
and since that time, Tarawa Terrace has been provided their 
drinking water from the Holcomb Boulevard water system.
    And I asked the agent, I said this was no accident. I said 
this was deliberate. This man took the truth and turned it into 
a lie. I said and that's not a crime? And he said, hey, Jerry, 
he said, I didn't say I didn't recommend any criminal charges. 
And he said but it was deemed by the Department of Justice that 
the charges that I did recommend could not be successfully 
prosecuted in Federal court, so they were dropped.
    Mr. Stupak. Did you ever receive any notification from the 
Marine Corps about the water at Tarawa Terrace? That is where 
you were living, right?
    Mr. Ensminger. Sir?
    Mr. Stupak. You were living at Tarawa Terrace?
    Mr. Ensminger. Yes, sir.
    Mr. Stupak. I think Dr. Gros said 1999, Mr. Byron said 
2000. Did you ever receive any notification?
    Mr. Ensminger. No, sir. I was not there at that time. I was 
gone.
    Mr. Stupak. But after that, they didn't follow you? You 
were in the Marine Corps for 24 years, Right?
    Mr. Ensminger. Yes, sir. No. I never got anything.
    Dr. Gros. I don't recall ever receiving anything.
    Mr. Stupak. You never received anything? Your son was part 
of a study in 1999?
    Dr. Gros. I was notified in 1999, but we lived there from 
'88 through, yes.
    Mr. Stupak. Notified of your son being the subject of the 
study?
    Dr. Gros. Correct.
    Mr. Stupak. No information that place you lived in at Camp 
Lejeune was being investigated for contamination?
    Dr. Gros. That was the first time I heard of that.
    Mr. Stupak. Mr. Byron, yours was 2000?
    Mr. Byron. Sir, I was there until June 1985, and supposedly 
a letter had come out from the base commander----
    Mr. Stupak. In 1985?
    Mr. Byron. Yes, sir, to the residents of Tarawa Terrace. 
But my daughter was being born with multiple birth defects at 
the exact same time, so I don't remember getting that. The way 
I found out about that document was through the Freedom of 
Information Act. And that was after 2000. That is the first 
time.
    Mr. Stupak. So 2000?
    Mr. Byron. 2000 was the first time.
    Mr. Stupak. Dr. Gros, your disability is based upon your 
service to the military?
    Dr. Gros. Based upon my military service and my disease.
    Mr. Stupak. But yet you are not included in any study?
    Dr. Gros. No.
    Mr. Stupak. So that they will put you on a disability based 
upon drinking the water at Camp Lejeune, but they won't include 
you in the study determining the health effects of the water at 
Camp Lejeune?
    Dr. Gros. That seems correct.
    Mr. Stupak. OK. My time is up. We may come back for another 
round of questioning. I turn to Mr. Whitfield for questioning.
    Mr. Whitfield. I want to thank all three of you for taking 
time to be with us today on this important issue. And your 
testimony was certainly quite moving. And I noticed that in the 
2003 report, the ATSDR stated that they determined that 
exposure to volatile organic compounds in on-base drinking 
water was unlikely to result in cancer and non-cancer health 
effects in adults. Now Dr. Gros, of course you went to medical 
school. And are you familiar with that 2003 report of ATSDR?
    Dr. Gros. I recall reading that, and at the time I could 
not believe that when I read that sentence.
    Mr. Whitfield. And Mr. Byron, had you read that report?
    Mr. Byron. Yes, I have read that report, sir.
    Mr. Whitfield. And Mr. Ensminger, you read that as well?
    Mr. Ensminger. Yes, sir. ATSDR, the people at the 
Department of Health Assessments and Consultations, if the 
committee would just take some time and pull a bunch of the 
Public Health Assessments that have been done by ATSDR where 
these very same chemicals were identified, it is the same 
wording every time. Only it is changed around, modified a 
little bit. But it always has the same meaning. No harm, no 
foul. And the way these people act, you would think they would 
be serving this stuff on the drink bar at McDonald's.
    Mr. Whitfield. Yes. Mr. Ensminger, in your testimony you 
had mentioned specifically that DoD had been notified by three 
separate laboratories of the problems with the drinking water 
at Camp Lejeune. Do you remember the time frame of those lab 
reports that were given to DoD?
    Mr. Ensminger. LANTDIV, which is the Atlantic Division of 
the Naval Facilities Engineers out of Norfolk, came down and 
did a composite water sample on 1 October 1980. The composite 
water sample was water from eight different systems combined 
into one sample. And they sent that off to an analytical 
laboratory. The results of those samples, with six clean 
systems included in it, exceeded the standards for today for 
some of the VOCs. That was one. Second, the U.S. Army's 
Environmental Hygiene Team had been brought to Camp Lejeune to 
start testing the water for the TTHMs, which had come into 
effect, the standards for them.
    They identified multiple times and told Camp Lejeune how to 
test for this stuff, which was with the gas chronometer, mass 
spectrometer system, the GCMS, told them repeatedly they needed 
to test for organic hydrocarbons, chlorinated hydrocarbons. 
Finally, the laboratory chief wrote it in parentheses, 
solvents, with exclamation points. And then in 1982 Grainger 
Laboratories from Raleigh, North Carolina, a State-certified 
laboratory, the very same people that wrote the letter on 10 
August 1982 to the commanding general, stating that this stuff 
was more important from a health standpoint than what they had 
sent the water in to be tested for. They did nothing. And on 
the Marine Corps chronology these people say, well, we knew we 
had NACIP, which was a program to identify contaminants. They 
said, well, since we knew they were coming, we pondered this 
thing for a year-and-a-half, mind you, how we were going to 
take care of this.
    Mr. Whitfield. OK. So it has been documented that there 
were at least three labs that gave them specific information 
about a problem with the drinking water. And the first one was 
October 1, 1980, and then the last was 1982, and then somewhere 
in-between?
    Mr. Ensminger. Well, the Grainger Laboratory, there are 
multiple analytical results after 1982 all the way through, up 
through 1984 that identify these chemicals and the presence in 
the water, and each time they found them they annotated it.
    Mr. Whitfield. My point is as early as 1980 they were aware 
or should have been aware.
    Mr. Ensminger. Yes, sir.
    Mr. Whitfield. And what years did you live at Camp Lejeune.
    Mr. Ensminger. I lived at Camp Lejeune multiple times, sir.
    Mr. Whitfield. When Janey was born.
    Mr. Ensminger. From 1973 through 1975 my wife spent her 
first trimester of the pregnancy with Janey at Tarawa Terrace. 
And then I was at the time in drill instructor school at Parris 
Island. When I finished DI School, I was transferred, and we 
left there December 20, 1975.
    Mr. Whitfield. And Dr. Gros, what years were you there?
    Dr. Gros. July 1980 to July 1983.
    Mr. Whitfield. And Mr. Byron?
    Mr. Byron. I was there approximately February 1982 to June 
1985.
    Mr. Whitfield. OK. And you had mentioned, Mr. Byron, in 
your testimony that, at page 29, that the GAO did not present 
the document in its entirety.
    Mr. Byron. Yes, sir. I have the document right here.
    Mr. Whitfield. Which document is that?
    Mr. Byron. That is the notice to residents of Tarawa 
Terrace. It is kind of fuzzy, but it is definitely dated April 
1985. It looks like April 30. My daughter was born April 27, 
with birth defects, that same year.
    Mr. Whitfield. OK. And what was lacking in this 
notification?
    Mr. Byron. The actual what was missing was the body of the 
information that should have been provided to the residents. 
And what they were more concerned with, like I said, I can read 
it to you. It says, until, however, daily use consumption must 
be reduced significantly. You are the only ones who can make 
this happen.
    I solicit your cooperation and assistance and 
implementation of the following water use restrictions. Reduce 
domestic water use. Don't let water run while washing, shaving, 
brushing teeth, et cetera. Wash clothes only when you have a 
full load. Flush toilets only for sanitation purposes. And this 
is the one that I really am concerned with, store cold water in 
refrigeration or for drinking. So they want me to store 
poisoned water for my children to drink. But they don't spell 
out that--No. 1, it says that these are--they found minute 
trace amounts of several organic chemicals. 1,580 parts per 
billion is not minute or trace.
     I take offense to that personally, because I lived there 
at the time, and GAO tried to represent that it's 158 parts per 
billion versus 1,580. And once I corrected that they also put 
that in their appendix still at 158 parts per billion. They 
didn't do their homework.
    Mr. Stupak. Mr. Byron, if I may, I am going to have one of 
our clerks grab that document from you, and we will make a copy 
so we have it for our committee.
    Mr. Whitfield. And my time has expired. Thank you.
    Mr. Stupak. Mr. Inslee for questions?
    Mr. Inslee. Thank you. Mr. Byron, what was the document, 
what was the date of the document you were just reading?
    Mr. Byron. The document it looked to me----
    The Clerk. April 30, 1985.
    Mr. Stupak. April 30, 1985.
    Mr. Inslee. In your view, speaking from your position, what 
would you suggest should be a requirement for notification for 
people in those circumstances? Now you have told us essentially 
they described this as quote, trace amounts, in the document 
they gave a resident.
    Mr. Byron. Yes, sir. They also called it organic chemicals 
instead of saying volatile organic chemicals. The word volatile 
would have clued me in immediately if that document had showed 
up at my home. And it probably would have clued me anyway, just 
the fact that it said chemicals.
    Mr. Inslee. So what do you think should be our standards 
either in the Marine Corps or Environmental Protection Agency 
or any other----
    Mr. Byron. The standard at present is 5 parts per billion. 
So if it exceeds 5 parts per billion, I believe governmental 
officials, military and civilian, should be held responsible 
for not notifying individuals. They went 15 years before a 
letter came to my house, which looked like junk mail by the 
way. I have it here. The front of this letter, this document it 
says nothing official from the Government on it.
    Mr. Inslee. What does it say?
    Mr. Byron. It says NORC, University of Chicago National 
Opinion Research Center, 3050 Finley Road, Downers Grove, IL, 
60515. Please forward. Address correction requested.
     I only lived two places the whole time. It doesn't say 
anything about being an official document from the Government.
    Mr. Inslee. It seems to me that under these circumstances, 
the Government ought to have some protocol of language it uses 
so that a person will understand that there is an enhanced 
health risk associated with this, something like either a 
higher health risk or danger or toxic information enclosed or 
something to that effect.
    Mr. Byron. That would have helped.
    Mr. Inslee. Would that make sense to you?
    Mr. Byron. Yes, sir, it does. And that would have helped.
    Mr. Inslee. I hope that we are going to try to find the 
right mechanism of doing that to have this not happen again. I 
have to tell you this is so disturbing, after the Tillman 
incident to have this continued failure is very disturbing. 
Yes.
    Mr. Ensminger. Yes, Congressman, I have found discussions, 
internal e-mails at Camp Lejeune between Camp Lejeune and 
Headquarters Marine Corps where they systematically changed the 
wording about these chemicals to volatile organic compounds to 
make it sound better. They have been playing a game. I mean it 
was a game of minimization.
    Mr. Inslee. Dr. Gros, you said that your disability is 
associated with this, but you are not included in any of the 
studies. I just can't comprehend how that could happen. Do you 
have any explanation for it? Is it a glitch or is this 
programmatic failure or what?
    Dr. Gros. Well, when we were facing the enormity, the 
financial enormity of the transplant, losing my practice, we 
were looking at every possible source of help we could find. I 
visited with my representative, Representative Kevin Brady at 
the time, and went with a toxicologist and my wife. And we had 
prepared a dossier and gave a presentation of what had 
happened. And he was impressed that this was a problem. He also 
saw the ATSDR documents, which had shown that they were 
admitting that the water was highly contaminated. And he 
immediately expedited my trip to the VA in Houston. And after 
that, I was declared 100 percent service-connected disabled. I 
don't know how that process comes about. But I was certainly 
happy to have some help. And it has been very useful for 
pharmacy items. However, some of the more expensive things, the 
bone marrow transplant was refused by the VA. And some of the 
more expensive items like photopheresis and hemodialysis, I had 
to be dialized for 6 months for temporary renal failure, and I 
still have chronic renal failure. That funding for that has 
been very difficult to obtain. There is a real problem over 
there with----
    Mr. Inslee. But with a medical background, how could you 
explain not being included in any of the screens, any of these 
studies?
    Dr. Gros. That is a good question, Congressman. That's why 
I said when I saw that initial document, the health assessment 
in 1997, I just said oh, come on. I said this is a joke. I said 
just because you have thousands of people here that are going 
to be a little hard to find doesn't mean they shouldn't be 
studied.
    Mr. Inslee. I saw in one of your testimonies I was reading 
you made reference to a movie, A Civil Action, another one was 
Erin Brockovich, that came out about some similarities to this 
situation.
    Dr. Gros. Right.
    Mr. Inslee. Do you have a concern that a concern about 
claims has led to some poor judgments here along the way by the 
various Government agencies or not?
    Dr. Gros. Well, I definitely think so. It would seem that 
way. When you inquire about this, apparently there is a lot of 
defensiveness. I know Jerry has done a lot more of this inquiry 
than I have. I have been busy being sick and trying to get 
well. I don't have any time to work on the Base Commission at 
Camp Lejeune, and I don't live there, so Jerry could probably 
answer that question better than I can.
    Mr. Ensminger. There are several e-mails, internal e-mails 
where they are discussing liability. And it was if not the No. 
1 driving force behind the deceit----
    Mr. Inslee. We just hope these agencies will be more 
concerned about your health than the claims prospects. We hope 
that will start. And we will try to do what we can. Gentlemen, 
thank you for your continued service to the country. You are 
doing it today. And we thank you for your many years of 
service. Thank you.
    Mr. Stupak. Thank the gentleman. Do you have that chart 
back up there, Jerry? Mr. Inslee, I don't know if you were here 
when we introduced it earlier in the opening testimony there. 
It shows the different levels. You mentioned Woburn and Erin 
Brockovich. It is 267. It is 18,000 at some point at Camp----
    Mr. Byron. May I make a statement there?
    Mr. Stupak. Sure.
    Mr. Byron. According to the GAO report, on table 3, where 
they are listing the levels of toxicity at Hadnot Point, I 
don't see 18,000 there. And that says February 7. And these 
readings are from the 4th and the 8th of February of the same 
year.
    So I can't understand why GAO is reluctantly--by the way, 
this is the same table that they had 1,580 parts was listed at 
158 during the draft report. So I gave them a copy of the 
document that shows the levels of toxicity, and 18,000 is not 
on there I see. And here is another thing concerning the GAO 
report. I don't understand why it wasn't possible to scan the 
original documents and show them in their true form so that 
members of Congress can make their own judgment, instead of 
having GAO try to convince them that there was some low levels 
of toxicity.
    There are several places where footnotes are stated that 
the detection limit for the instrument used to analyze the 
samples was 10 parts per billion. Well, sir, that is not on 
that document. And every table that they show says that. And I 
challenge them to show me, other than one document, the 
Jennings document, which by the way they took out the detection 
limit column to where you could tell whether or not on your own 
and didn't need them to tell you how to read it, but this 
concerns me that they did not show the original documents in 
their original form.
    And all these documents that I have in front of me were 
from Marine Corps Base Camp Lejeune and indicate high levels of 
toxicity. Yet when GAO shows their report, they are only 
interested in showing you those documents that show lower 
levels. And they even have levels of toxicity missing in their 
tables. So my personal opinion is that the Marine Corps 
Headquarters, whoever gave them the information, has tried to 
perpetrate a fraud here. And that, in my estimation, is 
criminal, because the American taxpayer is paying for the money 
for this report to Congress, and it should be accurate and 
concise, and not full of conjecture with legal ramblings on it 
looks to me to be a document that they might present in a legal 
matter later. And that is how it has been presented.
    Mr. Stupak. Mr. Byron, if I may, the document we noticed to 
residents of Tarawa Terrace----
    Mr. Byron. Yes, sir.
    Mr. Stupak. On the bottom there is handwriting. We want to 
put it in as hard part of the record. But at the bottom here, 
there is handwriting that says ``suggested no adverse effect. 
Recommended levels.'' is that your handwriting?
    Mr. Byron. No, sir, that is not, but I do have a document 
that refers to that.
    Mr. Stupak. I know. I just wanted to know if it was your 
handwriting.
    Mr. Byron. That is not my handwriting, sir.
    Mr. Stupak. Without objection, we will have this document 
of April 30th, 1985, be made part of the record. Thank you. I 
have to go to Mr. Walden here, and we can come back. Mr. Walden 
for questions.
    Mr. Walden. Thank you, Mr. Chairman I want to thank our 
witnesses today, and all of you for coming forward. I know it 
is difficult from every perspective. I can't imagine, begin to 
imagine what you all have been through. But it is our job to 
make sure it doesn't happen again to anybody else. And those 
who are going through this elsewhere we need to help as well. 
My understanding, Mr. Byron, and we will get at this issue you 
have raised, because I have some datapoint issues of my own, is 
that the Marines did give the GAO all the information. Whether 
GAO chose to use it or not is a question we are going to get 
to. And that that 18,000 figure actually was apparently a 
sample taken after the well was closed. So we will get into all 
that, because I am concerned about some of the data as well.
    Our staff followed up on some of the lists, and maybe we 
can put that chart up for a moment. There is an attachment that 
goes through various readings at the various facilities over 
the years. And when we probed to find out which were the worst 
cases we got this response back, indicating that of the top 
five that we were looking at. We came back and said, well, 
actually three of the datapoint sets were wrong for various 
reasons and two are correct. So it brings into, at least for 
this member of Congress, that the ATSDR's database may have 
bigger flaws than what we were looking at originally. I am 
concerned, too. They are doing a epidemiological study here, 
right? What happened at Camp Lejeune?
    Dr. Gros. Just in utero.
    Mr. Byron. Children in utero.
    Mr. Walden. OK. And in stereo apparently there. And I guess 
the question I am going to have for the military later is given 
the extraordinary and awful circumstances you all have been 
through with yourselves and your children, are they doing 
epidemiological studies elsewhere?
    Mr. Ensminger. Where?
    Mr. Walden. At sites with contamination?
    Mr. Ensminger. You mean at other sites?
    Mr. Walden. Yes.
    Mr. Ensminger. Not on adults, sir.
    Mr. Walden. Adults or children. On anybody. Do any of you 
know?
    Mr. Ensminger. As far as I know, and like I said before, 
every Public Health Assessment that I have seen come out of the 
Department of Health Assessments and Consultations at ATSDR, 
the wording is different, but it always means the same. No 
harm, no foul.
    They don't hurt adults.
    Mr. Walden. They do the health assessments, but I am 
talking about the epidemiological.
    Mr. Ensminger. Sir, if DHAC kills the thing in the Public 
Health Assessment no studies get done. It is a dead issue at 
that point.
    Mr. Walden. Literally.
    Mr. Ensminger. Literally.
    Mr. Walden. How does that make you feel?
    Mr. Ensminger. Well, they constantly make the claim in 
there that there is not enough studies to relate to--based on 
exposures to these chemicals, but then in the next sentence 
they say, well, we don't recommend any study on this exposure 
either.
    Mr. Walden. Dr. Gros?
    Dr. Gros. Congressman, if I can make a statement, I am not 
an epidemiologist, but it would seem to me that with the number 
of people involved in this one incident that we could probably 
do a pretty darn good study if the will is there to do it. But 
that is the problem. As you had this incredible number of 
people that have been exposed over these years, they dispersed 
because of the nature of military personnel. When they retired 
they leave, they go all over the country and the world. But 
they still have Social Security numbers, they still pay taxes, 
I assume. They still are as findable as I was. When they wanted 
to do the in-utero study on my child they had no problem 
finding me. I was a phone call out of the blue. I was amazed. 
So they have a way of finding you.
    Mr. Walden. Sure they do.
    Dr. Gros. So I don't buy the argument that these people 
cannot be found to do a look back study or to examine.
    Mr. Walden. You think a look back given your professional.
    Dr. Gros. At least to get some sort of information 
certainly.
    Mr. Walden. One of the things that deeply concerns me is 
that at Wurtsmith Air Force Base in October 1977, they first 
detected TCE in the drinking water. And I am told that 
officials immediately took steps to identify the contaminated 
wells, and within 1 month began closing the contaminated wells. 
So by November 1977, they were closing the wells. Now contrast 
that with Camp Lejeune, where significant drinking water 
contamination was discovered in 1980 and 1982, but officials 
waited years before they identified the contaminated wells, and 
then closed them down in 1985.
    Any of you, in all of your research, and obviously Mr. 
Ensminger, you have done incredible research, and we appreciate 
you bringing that to us and to the public, can you explain why 
the Air Force acted in a matter of a month and the Navy----
    Mr. Ensminger. Sir, even the Department of the Navy did the 
same thing at another site. There was Warminster Naval Air 
Development Center outside of Philadelphia, Pennsylvania. 1979 
they identified these same chemicals in water supply wells at 
that facility. They took them off line immediately. But we must 
have two different Departments of Navy and two different 
standards somewhere in the mix here.
    Mr. Walden. What was the EPA standard at that time for 
these chemicals in drinking water? What did they say was safe 
or unsafe?
    Mr. Ensminger. They had SNARL, sir.
    Mr. Walden. Which means----
    Mr. Ensminger. The GAO report stated that Camp Lejeune 
officials stated that the contaminant levels in the drinking 
water at the main part of the base had not exceeded the SNARLs 
at that time. They did, however, exceed the SNARLs at Tarawa 
Terrace for PCE. The GAO said they never exceeded the SNARLs. I 
have a memorandum written in August 1982 by the base quality 
control chemist, Ms. Elizabeth Betz, that states right there in 
paragraph 8.
    Mr. Walden. Yes, sir.
    Mr. Ensminger. Well 651 tested 3,400 parts per billion of 
TCE in the samples that were pulled on 16 January 1985. They 
didn't get them back until 4 February. And the 4 February 
sample--when they closed the well on the 4th of February, they 
pulled another sample that day, and the well was running, and 
it tested--they got the results back for that on the 7th of 
February. And it was 18,900 parts per billion of TCE, 8,070 per 
billion of DCE, 400 parts per billion of PCE, and 633 parts per 
billion of vinyl chloride. And, sir, this one well caused the 
levels of finished drinking water on that base, where they were 
pulling samples because of the fuel that had gotten in there, 
to exceed 1,000 parts per billion at the tap at an elementary 
school. One well. They had already pulled seven wells off line 
previously.
    Only God knows what levels were in that water when three or 
four of these contaminated wells were pumping at the same time 
in conjunction with well 651. The highest recorded levels that 
had been found were 1,400 parts per billion.
    Mr. Byron. May I make a statement? I have the document that 
Jerry has alluded to, August, 1982. And on paragraph 5 if says 
tetrachloroethylene at high doses----
    Mr. Stupak. Exhibit No. 6 in that book, if anyone cares to 
look. It is exhibit No. 6.
    Mr. Byron. Tetrachloroethylene in high doses has been 
reported to produce liver and kidney damage and central nervous 
system disturbances in human beings. EPA SNARLs for 
tetrachloroethylene is 2,300 parts per billion for one day, 175 
parts per billion for 10 days, and 20 parts per billion for 
long-term exposure. Where I was living was 1,580 parts per 
billion PCE exposure at the time. And they tried to say through 
the GAO report that the individuals and environmental 
department at Marine Corps Base Camp Lejeune were not educated 
enough and were not informed enough by LANTDIV and NACIP. And I 
consider this a fraud. I don't believe that. I believe they 
were well notified. This document from the chemist at Marine 
Corps Base Camp Lejeune shows that they were well notified. And 
I think the GAO, like I said, is biased.
    Mr. Stupak. No other questions?
    Mr. Walden. My time has expired.
    Mr. Stupak. Your time has expired, but go ahead.
    Mr. Ensminger. You had asked earlier about standards and 
different standards. Sir, I found the BMID instruction, which 
is dated 25 August, 1972. And the subject is standards for 
potable water. I would like to point out to the Congressman 
subparagraph E of paragraph 5, where it outlines pollution. Now 
this is the Navy's own standard. As pollution as used in these 
standards means the presence of any foreign substance. And then 
in parentheses it says organic, inorganic, radiological or 
biological in water which tends to degrade its quality so as to 
constitute a hazard or impair the usefulness of the water. That 
was in 1972.
    Mr. Stupak. That is document No. 20 in the book, Mr. Gros, 
if you are looking for it. Let me ask this question, if I may. 
Mr. Byron, any of your children apply for disability?
    Mr. Byron. Through the VA, sir?
    Mr. Stupak. Yes.
    Mr. Byron. No, sir.
    Mr. Stupak. Any suggestions----
    Mr. Byron. On previous trips to Washington I have been to 
the Veterans Administration and spoke to Assistant Director 
Mark Brown, and he had advised me that before the Veterans 
Administration could get involved that it would have to go 
through the Armed Services Committee, and be basically giving 
them permission to take care of these individuals. And I am 
aware of no legislation at present that allows for that.
    Mr. Stupak. There are 853 claims, I believe, being made. 
Are your children involved in any of those claims?
    Mr. Byron. My children are involved in those claims, yes, 
sir.
    Mr. Stupak. They are?
    Mr. Byron. Yes, sir. Because I feel that the Marine Corps 
is negligent and responsible.
    Mr. Stupak. OK. You said in your testimony, your daughter 
went to 57 visits in 30 months?
    Mr. Byron. Yes, sir.
    Mr. Stupak. Did they ever refer her off base to a 
children's hospital or----
    Mr. Byron. No, sir, they didn't, but they did take blood 
tests. And after I was identified as a family--my one child to 
be part of the study--we got our medical records. And I had to 
ask for copies of my medical records before I left the Marine 
Corps, because my one daughter had been seen so many times.
    So I am a very fortunate one of very few that has their 
medical records, because the base has said that many of those 
records were destroyed in storage somehow. But she was seen 57 
times, and we were never recommended outside of base. But 
levels of her hemoglobin or whatever they check for were below 
the levels that were listed on the form. And no one notified us 
and no one took action. And 6 months later she came down with 
this bone marrow disease called aplastic anemia, which is the 
opposite of what Jerry's daughter has, but also to cure it 
requires a bone marrow transplant. Now she went into remission, 
so she never did require that, but our daughters also went 
through the bone testing that he is familiar with and that his 
daughter was crying in his ear about. And ours also experienced 
the same thing, where they took bone marrow samples from her 
hip.
    Mr. Stupak. When you say your daughter was below the level, 
you mean indicative of a problem?
    Mr. Byron. Of a problem, yes, sir.
    Mr. Stupak. Not within the normal range.
    Mr. Byron. Not within the normal range, yes.
    Mr. Stupak. Mr. Gros, you were a doctor there at the base. 
In looking back now, was there any increased number of 
miscarriages or anything that you noticed?
    Dr. Gros. That is a frequent question. But I don't know how 
to answer it, because we didn't have the big picture. We 
basically were working in the forest, surrounded with the 
trees. 240 deliveries a month, busy, busy clinic. We didn't 
have any inkling at the time that there may have been that type 
of a problem. I don't think that anyone ever brought that up as 
an issue. The pediatrics department certainly didn't alert us.
    Mr. Stupak. All the women there are basically child bearing 
years, right?
    Dr. Gros. Well, it is a very large population of young 
women, that is correct.
    Mr. Stupak. And generally a healthy population.
    Dr. Gros. Very healthy population. I would say that the 
incidence of abnormalities that you would frequently see with 
older moms, moms over the age of 35--they don't like to be 
called older moms anymore--but how should we say the more 
experienced mothers that have more kids, they tend to have a 
greater instance of genetic abnormalities. And we didn't see 
much of that in our population. I really don't think that it 
came out at the time. I think the pediatrics statistics would 
probably be more telling than what we saw as obstetricians.
    Mr. Stupak. But your medical records for these patients 
would document it if there was a miscarriage, would it not?
    Dr. Gros. Correct. There is a log kept. In labor and 
delivery, usually most of the patients would have a D&C under 
sedation, and just to make sure there weren't any 
complications, and then there was a record kept of that. So we 
should have that record. I would think so anyway.
    Mr. Stupak. One would hope so.
    Dr. Gros. Yes.
    Mr. Stupak. You had a question, Mr. Walden?
    Mr. Walden. No.
    Mr. Stupak. If not, I would like to thank this panel for 
their testimony. I know at times it has been very difficult. 
But without you, I don't think the story could get out about 
what we are trying to do here, not just Camp Lejeune, but any 
places throughout this country--DoD properties that have to be 
cleaned up. Mr. Ensminger?
    Mr. Ensminger. I would like to inform you of one other 
issue. Well 651, which was the highest contaminated well at 
Hadnot Point, was constructed in 1971 at the back corner of the 
base disposal yard. The back corner of the junk yard. And the 
Navy facilities engineers people did the site survey for the 
location and the construction of that well. And that lot had 
been in operation for some odd 30 years by that point.
    Mr. Byron. Sir, may I make one last comment also?
    Mr. Stupak. Sure.
    Mr. Byron. I was quite concerned by reading the GAO report 
to find out that for the in-utero study for the Agency for 
Toxic Substances Disease Registry they had found a comparison 
group of individuals at Marine Corps Base Camp Lejeune of 548 
children. It is my contention, and I believe everyone here, 
that those individuals were more than likely exposed because of 
their connection to the base. If they lived around the base and 
were military personnel, they went on base. If the women were 
pregnant at the time and drank from the water fountain, they 
were exposed in the first trimester. So birth defects and so 
forth might show up.
    What disturbs me is that after being on the Citizens 
Advisory Panel of the Agency for Toxic Substances for 2 years 
that I had no idea that they had a comparison group until I 
read the GAO report. I don't know why that has occurred, and I 
think that should be a question asked by individuals of the 
ATSDR. But it does not lend itself to transparency. And in this 
case that is the most important thing, that we be able to 
determine that what is being told to us is the truth. And the 
reason that we are here is to stop this from happening at any 
other bases in the future. So thank you very much.
    Mr. Stupak. Thank you. This panel is dismissed. Thank you, 
gentlemen.
     I will call up our next panel, Major General Robert 
Dickerson, Jr., Commanding General at Camp Lejeune; Ms. Kelly 
Dreyer, Environmental Restoration Program Manager at the U.S. 
Marine Corps Headquarters; Ms. Pat Leonard, Director of the 
Office of Judge Advocate General, Claims Investigation and Tort 
Litigation; Mr. Thomas Sinks, Deputy Director of the National 
Center of Environmental Health, Agency for Toxic Substances and 
Disease Registry, ATSDR; and Frank Bove, senior epidemiologist 
at ATSDR; and Morris Maslia, environmental engineer at ATSDR. 
Would you all come forward, please?
     As you know, it is the policy of the subcommittee to take 
all testimony under oath. Please be advised that witnesses have 
the right to be, under the rules of the House, to be advised by 
counsel during their testimony. Do any of you wish to be 
represented by counsel? If so, we need the name of your 
counsel. General? Anyone? No? Everyone's indicating no. So 
while you rise, I ask you to raise your right-hand, please.
    [Witnesses sworn.]
    Mr. Stupak. Let the record reflect everyone has answered 
affirmatively as to the oath. They are now under oath. And we 
will begin with opening statements. We will start to my left. 
General Dickerson, please.

 STATEMENT OF MAJOR GENERAL ROBERT DICKERSON, JR., COMMANDING 
                     GENERAL, CAMP LEJEUNE

    General Dickerson. Mr. Stupak and distinguished members of 
the subcommittee, thank you for the opportunity to appear 
before you and participate in this hearing regarding past 
contamination of two of Marine Corps Base Camp Lejeune's 
drinking water systems. We are here today because the health 
and welfare of our Marines and their families remains a top 
priority. We continue to support and fully cooperate with the 
Agency for Toxic Substance and Disease Registry to determine if 
contaminated water aboard our installation harmed Marines and 
their families. In 1982 and 1983, two of Camp Lejeune's eight 
public drinking water systems were determined to be 
contaminated by two chemicals, trichloroethylene, TCE, and 
perchloroethylene, PCE, also known as tetrachloroethylene, 
commonly found in degreasing agents and dry cleaning solvents.
    At the time, no environmental standards or regulations in 
regard to the use and disposal of TCE or PCE were in place. In 
fact, initial regulation of these volatile organic compounds 
under the Safe Drinking Water Act began in 1987 and 1991, 
respectively. Volatile organic compounds were first discovered 
in the Camp Lejeune drinking water in 1980, while a Navy 
contractor was conducting tests for trihalomethanes. It was 
determined that an interference chemical was present in the 
water at the treatment plant and tap. However, the type of 
chemical or source was unknown.
    Base personnel continued to sample the water over the next 
several years, utilizing various laboratories. Sampling results 
varied, calling into question the validity of the test. In 
1982, TCE and PCE were determined to be the interference 
chemicals, and in late 1984, the groundwater was determined to 
be the source. As data on individual wells was received, 
impacted wells were removed from service. In total, 10 drinking 
water wells aboard the installation were immediately removed 
from service. Subsequent investigation by the State of North 
Carolina revealed leaks from an off base dry cleaner had 
contaminated the wells near the Tarawa Terrace housing area, 
while on base sources contributed to the contamination of the 
Hadnot Point water systems. This unfortunate situation happened 
over 20 years ago. And while there are still large gaps of 
knowledge on potential health implications due to exposure to 
TCE or PCE today, these gaps were even greater back in the 
1980's. What the Nation accepted as environmental standards and 
regulations 20 years ago has drastically changed as a result of 
scientific knowledge and awareness. Camp Lejeune has been 
investigated by the Environmental Protection Agency's Criminal 
Investigative Division and the General Accountability Office. 
Both investigating agencies reported that Camp Lejeune's 
response to the contamination was appropriate at that time and 
consistent with existing environmental standards and 
regulations. Additionally, the Commandant of the Marine Corps 
chartered his own expert panel to look at past activities, 
which also concluded appropriate actions were taken based upon 
the guidance and information provided by Federal agencies. We 
have relied on the expertise of ATSDR to determine whether or 
not the past contaminated water on our installation harmed our 
Marines and their families.
    Although we are not part of the design or implementation of 
the ATSDR survey or study, we remain committed and fully 
support their efforts. Full access to personnel, 
infrastructure, installations and requested documentation was 
granted to ATSDR from the start and will be available for the 
duration of their study. Additionally, we act as a liaison with 
Federal and State agencies to insure ATSDR obtains all 
resources necessary to move forward with their work, ultimately 
bringing us one step closer to an answer.
    In order to educate and communicate with family members and 
Marines that may have been exposed to the contaminated water, a 
robust communications campaign was initiated to encourage 
participation in the ATSDR survey. An official Web site 
regarding the Camp Lejeune water was developed with frequently 
asked questions, maps, press releases and advisories, as well 
as contact numbers and links for additional information. This 
Web site is currently in the process of being updated. To help 
better understand public exposure to TCE and PCE from drinking 
water and any potential health effects, the Marine Corps is 
funding a new effort by the National Academy of Sciences to 
conduct a comprehensive review and evaluation of all medical 
and scientific information available on the link between TCE 
and PCE exposure via drinking water and adverse health effects.
    Ultimately, everyone is here today for the same reason, to 
determine whether or not our Marines and their families were 
harmed in any way by contaminated water. We fully complied with 
environmental laws and regulations, and we remain committed to 
working with ATSDR and other Federal agencies involved with the 
study. We must rely on the experts for the answers. We are 
pleased to answer any questions you may have.
    Mr. Stupak. Thank you, General. Ms. Dreyer.

 STATEMENT OF KELLY DREYER, ENVIRONMENTAL RESTORATION PROGRAM 
            MANAGER, U.S. MARINE CORPS HEADQUARTERS

    Ms. Dreyer. Chairman Stupak, Congressman Whitfield, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you and participate in this 
hearing regarding past contamination in two of Marine Corps 
Base Camp Lejeune's drinking water systems. My name is Kelly 
Dreyer, and I am an environmental engineer, and the 
Installation Restoration Program Manager At Headquarters Marine 
Corps. As the Installation Restoration Program Manager, my job 
is to establish Marine Corps policy and guidance on cleanup 
issues across the Marine Corps. In addition, I serve as a 
liaison between the Marine Corps and the Naval Facilities 
Engineering Command, which executes the cleanup program for the 
Navy and the Marine Corps, as well as other agencies involved 
in the cleanup program, particularly when issues cannot be 
resolved at an installation level. As General Dickerson stated, 
the health and welfare of our Marines and their families is 
very important to the Marine Corps. As part of the cleanup 
program, all military installations on the National Priorities 
List of Hazardous Waste Sites, including Camp Lejeune, which 
was listed in 1989, undergo a Public Health Assessment 
conducted by the Agency For Toxic Substances and Disease 
Registry, ATSDR, to determine if there are any current or past 
health concerns resulting from past practices.
    My significant involvement in the Camp Lejeune past water 
issue began in 1997, when the Public Health Assessment for Camp 
Lejeune was being completed by ATSDR. The Public Health 
Assessment concluded that adverse health effects as a result of 
the impacted water were unlikely in adults, but recommended a 
follow on study of children in the womb, the most susceptible 
population to the potential chemical impacts. At that time I 
participated in meetings between health scientists and the 
Department of Navy and ATSDR about how such a study might be 
designed. In 1999, the health study began as a survey to 
determine whether or not a statistically significant study 
population could be reached for a case control study.
    In 2000, ATSDR requested assistance from the Marine Corps 
to reach additional participants for the survey. At that time, 
the number of participants was approximately 6,500. ATSDR 
needed over 12,000 for a statistically valid study. Over the 
next year, I worked with our Headquarters Marine Corps and 
Department of Defense offices to develop and implement a 
communications strategy, which included two administrative 
messages to all Marines, press releases to over 3,500 media 
outlets, searches of Marine Corps databases, and working with 
the Department of Defense Privacy Office to enable the release 
of manpower information to ATSDR. As a result of this effort, 
ATSDR closed the survey in January 2002, after reaching 12,598 
participants. Since that time, I have been working with Marine 
Corps Base Camp Lejeune to provide information requested by 
ATSDR for their water model and study activities. Although 
ATSDR has had full access to all information, sometimes such 
information is difficult to locate due to the fact that the 
records requested are over 20 years old and may have been 
destroyed or because offices have moved around the base.
    The Marine Corps recently hired a contractor to perform a 
comprehensive search of Camp Lejeune to provide a better 
confidence level that all relevant documents have been found. 
ATSDR has been provided access to all documents that were found 
during this search. In addition, we have been working with 
agencies outside of the Marine Corps to ask them to provide 
information that is under their control. I have personally 
spoken with numerous people who feel they may have been harmed 
by the impacted water. Their stories are emotionally 
compelling. That is one of the reasons why we continue to 
support and fully cooperate with ATSDR. We have funded the 
National Academies of Sciences study because we all have a 
common goal, to determine if the Camp Lejeune drinking water 
harmed any of our Marines or their families. I am also pleased 
to answer any questions you may have.
    [The prepared statement of General Dickerson and Ms. Dreyer 
follows:]

      Statement of Major General Robert Dickerson and Kelly Dreyer

    Chairman Stupak, Congressman Whitfield, distinguished 
members of the subcommittee; thank you for the opportunity to 
appear before you and participate in this hearing regarding 
past contamination of two of Marine Corps Base Camp Lejeune's 
drinking water systems. We are here today because the health 
and welfare of our Marines and their families remains a top 
priority. We continue to support and fully cooperate with the 
Agency for Toxic Substance and Disease Registry to determine if 
contaminated water aboard our installation harmed Marines and 
our families.
    In 1982 and 1983, two of Camp Lejeune's eight public 
drinking water systems were determined to be contaminated by 
two chemicals--trichloroethylene (TCE) and perchlorethylene 
(PCE; also known as tetrachloroethylene)--commonly found in 
degreasing agents and dry cleaning solvents. At the time, no 
environmental standards or regulations in regards to the use 
and disposal of TCE or PCE were in place. In fact, initial 
regulation of these volatile organic compounds under the Safe 
Drinking Water Act began in 1987 and 1991 respectively.
    Volatile Organic Compounds were first discovered in the 
Camp Lejeune drinking water in 1980, while a Navy contractor 
was conducting tests for trihalomethanes. It was determined 
that an interference chemical was present in the water at the 
treatment plant and tap; however, the type of chemical or 
source was unknown. Base personnel continued to sample the 
water over the next several years, utilizing various 
laboratories; sampling results varied, calling into question 
the validity of the tests. In 1982, TCE and PCE were determined 
to be the interference chemicals, and in late 1984, the 
groundwater was determined to be the source. As data on 
individual wells was received, impacted wells were removed from 
service. In total, 10 drinking water wells aboard the 
installation were immediately removed from service. Subsequent 
investigation by the State of North Carolina revealed leaks 
from an off-base dry cleaner had contaminated the wells near 
the Tarawa Terrace housing area, while on-base sources 
contributed to contamination of the Hadnot Point water system.
    This unfortunate situation happened over 20 years ago and 
while there are still large gaps of knowledge on potential 
health implications due to exposure to TCE or PCE today, these 
gaps were even greater back in the 1980s. What the Nation 
accepted as environmental standards and regulations 20 years 
ago has drastically changed as a result of scientific knowledge 
and awareness.
    Camp Lejeune has been investigated by the Environmental 
Protection Agency's Criminal Investigation Division and the 
General Accountability Office. Both investigating agencies 
reported that Camp Lejeune's response to the contamination was 
appropriate at that time and consistent with existing 
environmental standards and regulations. Additionally, the 
Commandant of the Marine Corps chartered his own expert panel 
to look at past activities which also concluded appropriate 
actions were taken based on the guidance and information 
provided by Federal agencies.
    We have relied on the expertise of ATSDR to determine 
whether or not the past contaminated water on our installation 
harmed our Marines and their families. Although we are not part 
of the design or implementation of the ATSDR survey or study, 
we remain committed and fully support their efforts. Full 
access to personnel, infrastructure, installations and 
requested documentation was granted to ATSDR from the start and 
will be available for the duration of their study. 
Additionally, we act as a liaison with Federal and state 
agencies to ensure ATSDR obtains all resources necessary to 
move forward with their work, ultimately bringing us one step 
closer to an answer.
    In order to educate and communicate with family members and 
Marines that may have been exposed to the contaminated water, a 
robust communications campaign was initiated to encourage 
participation in the ATSDR survey. An official Web site 
regarding the Camp Lejeune Water was developed with frequently 
asked questions, maps, press releases and advisories, as well 
as contact numbers and links for additional information. This 
Web site is currently in the process of being updated.
    To help better understand public exposure to TCE and PCE 
from drinking water and any potential health effects, the 
Marine Corps is funding a new effort by the National Academy of 
Sciences to conduct a comprehensive review and evaluation of 
all medical and scientific information available on the link 
between TCE/PCE exposure via drinking water and adverse health 
effects.
    Ultimately, everyone is here today for the same reason: to 
determine whether or not our Marines and their families were 
harmed in any way by contaminated water. We fully comply with 
environmental laws and regulations and we remain committed to 
working with ATSDR and other Federal agencies involved with the 
study. We must all rely on the experts for the answers.
    We are pleased to answer any questions you may have.

    Mr. Stupak. OK. Ms. Dreyer, I didn't think you were going 
to do an opening because you never submitted it to this 
committee. That is fine, but I would like your opening 
statement. And I want to make copies, so we have a chance to 
look at it, because I am glad you did make an opening, because 
we have many questions for you.
     Ms. Leonard, you want to give your opening statement?

 STATEMENT OF PAT LEONARD, DIRECTOR, OFFICE OF JUDGE ADVOCATE 
      GENERAL, CLAIMS, INVESTIGATION, AND TORT LITIGATION

    Ms. Leonard. Good morning. I am Pat Leonard, and I am the 
director of the Claims and Tort Litigation Division at the 
Office of the Judge Advocate General of the Navy. I am here to 
answer your questions about the administrative claims process 
under the Federal Tort Claims Act and how it relates to these 
claims. I know you have a copy of my statement. I am not going 
to read that to you, but I would like to offer some additional 
information for your consideration. As of this date, we have 
received a total of 853 claims that allege either personal 
injury or death as a result of exposure to contaminated 
drinking water while living or working on board Marine Corps 
Base Camp Lejeune. The majority of the claims are from family 
members of former service members stationed at Camp Lejeune.
    Included in that total number are 115 claims from civilian 
employees who worked on board the base. My written statement 
describes the administrative claims process in more detail, but 
I would just like to add that these claims involve some very 
complex scientific and medical issues. It is the Navy's 
intention to wait for the ATSDR study to be completed in order 
to insure that we have the best scientific research available 
so we may thoroughly evaluate each and every claim on its own 
merits. We truly believe this approach is in the best interests 
of both the claimants and the Department of the Navy.
    Mr. Stupak. That is your conclusion? OK.
    Ms. Leonard. Yes, sir.
    [The prepared statement of Ms. Leonard follows:]

                        Statement of Pat Leonard

     The Department of the Navy, Office of the Judge Advocate 
General, Claims and Tort Litigation Division (OJAG Code 15), 
has been designated by the Secretary of the Navy as the office 
responsible for the adjudication of claims against the Navy and 
Marine Corps filed under the Federal Tort Claims Act (FTCA), as 
well as various other claims statutes. OJAG Code 15 also 
provides support to the Department of Justice (DoJ) and United 
States Attorneys for claims that result in litigation.
    All claims alleging personal injury or death caused by 
contaminated drinking water at Marine Corps Base Camp Lejeune 
must be evaluated under the legal requirements of the FTCA. The 
FTCA is a limited waiver of sovereign immunity for claims 
against the Federal Government for personal injury, property 
damage, or death caused by the negligence of a Federal employee 
acting within the scope of his or her employment.
    Administratively, the FTCA requires that a claimant first 
present a claim to the Federal agency alleged to have caused 
the injury before he or she may file a lawsuit against the 
United States.

    <bullet> The claim must be presented in writing within 2 
years after the claim ``accrues'' (i.e., knew or should 
reasonably have known they were injured as a result of 
government negligence) or the claim is forever barred.
    <bullet> The claimant must allow the Federal agency at 
least six months to adjudicate the claim.
    <bullet> If the Federal agency does not pay or deny the 
claim within six months, the claimant may file suit against the 
United States. Alternatively, the claimant may also choose not 
to file suit and wait for the Federal agency to adjudicate the 
claim.
    <bullet> If the claim is denied by the Federal agency, the 
claimant must file suit within 6 months after the date of 
denial, or the suit is forever barred.

     The Agency for Toxic Substances and Disease Registry 
(ATSDR), part of the Public Health Service, performed a Public 
Health Assessment pursuant to the requirements of CERCLA in 
1997. ATSDR also conducted an Adverse Pregnancy Outcome Health 
Study in 1998. Although this research indicated that no health 
problems would be expected for adults, ATSDR could not rule out 
the possibility of an association between exposure to volatile 
organic compounds (VOCs) in drinking water at Camp Lejeune and 
adverse pregnancy outcomes. ATSDR has continued its study of 
former Camp Lejeune residents and is currently conducting an 
epidemiological study of children focusing on childhood cancer 
and birth defects. We have been informed this study is on-track 
to be completed in 2008.
     To fairly adjudicate all claims based on available and 
appropriate objective information, we have decided not to 
adjudicate the claims until the ATSDR completes its study. Once 
completed, each claim will be independently adjudicated under 
the legal requirements of the FTCA to determine its merit.
     In the meantime, while the scientific study is being 
conducted, we have been compiling information as claims are 
submitted. Each claimant receives a letter requesting specific 
information, including their medical records, as well as a 
survey to help ensure that we have all the information 
necessary for final adjudication.
     The Navy's FTCA settlement authority is $200,000 per 
claim. However, when there are multiple claims arising from a 
single incident and payment will likely exceed the Navy's 
settlement authority of $200,000 in the aggregate, the 
Department of Justice must approve all settlements arising from 
the single incident. Therefore, once the claims are 
adjudicated, the DoJ must approve any payment if recommended by 
the Navy.
     Again, it is very important to us, as well as the 
claimants, that we thoroughly analyze each and every claim 
utilizing the best scientific research available in order to 
fairly adjudicate them.

    Mr. Stupak. Dr. Sinks, your opening statement, please.

STATEMENT OF THOMAS SINKS, DEPUTY DIRECTOR, NATIONAL CENTER OF 
 ENVIRONMENTAL HEALTH, AGENCY FOR TOXIC SUBSTANCES AND DISEASE 
      REGISTRY, ATSDR, ACCOMPANIED BY FRANK BOVE, SENIOR 
    EPIDEMIOLOGIST, ATSDR, AND MORRIS MASLIA, ENVIRONMENTAL 
                        ENGINEER, ATSDR

    Mr. Sinks. Good morning, Mr. Chairman, and members of the 
subcommittee. I am Tom Sinks, Deputy Director of the Agency For 
Toxic Substances and Disease Registry, or ATSDR. Dr. Frank 
Bove, our senior epidemiologist on the Camp Lejeune 
investigation, is sitting text to me. And next to him is Morris 
Maslia, our senior water system modeler. As a father of three 
young children, even though I am 56, I have a 13-year old and 
11-year old and a 4-year old, I just wanted to comment on the 
moving and compelling testimony of the earlier panel. And as 
someone who has seen their own daughter go through medical 
procedures, I certainly understand some of the pain and 
powerlessness you feel when your child is affected. Our current 
work at Camp Lejeune concerns selected birth defects and 
childhood cancers, and we are also exploring the feasibility of 
additional studies, including adults.
    Effective today, former Camp Lejeune Marines and their 
families can find out their exposure levels to PCE by visiting 
the ATSDR Web site and entering the dates they lived in Tarawa 
Terrace housing. ATSDR is examining two Camp Lejeune drinking 
water systems that served family housing and were contaminated 
with PCE or TCE between 1968 and 1985. A third system was not 
contaminated. The contaminated wells were shut down by 1985, 
several years before the current EPA maximum contaminant levels 
were established. Dr. Maslia's models--from his models we are 
confident that finished water from the Tarawa Terrace system 
was contaminated with PCE for roughly 30 years, beginning in 
1957 and into 1987. The maximum simulated PCE concentrations in 
finished water exceeded 180 parts per billion, or 36 times the 
1992 MCL established by EPA.
    There were approximately 83,000 people exposed to this 
water from 1958 through 1985. Dr. Maslia has not finished his 
work on the Hadnot Point system, which was contaminated 
primarily with TCE. One tap water sample there measured 1,400 
parts per billion, but we know that levels in finished water 
ranged substantially. There were approximately a thousand 
people exposed to Hadnot Point water from 1958 through 1985 who 
lived there. The third system supplied uncontaminated drinking 
water to families living at Holcomb Boulevard. We now know that 
housing in Holcomb Boulevard was built several years before the 
Holcomb Boulevard water system came on line in June 1972.
    As a result, approximately one-fifth of the 56,000 people 
living in Holcomb Boulevard from 1968 through 1985 were likely 
exposed to TCE from Hadnot Point water. This discovery will 
not, and I repeat, not, adversely impact the current study, nor 
will it cause us to fail to include in the study any of the 
families or children who we collected information on. It does 
require us to reanalyze the completed study that has previously 
been published on adverse reproductive outcomes. That 
reanalysis will not begin until the current study is completed. 
In the meantime, we have placed an erratum notice on the ATSDR 
Web site and notified the journal that published the study of 
the error.
    Camp Lejeune is unique for conducting a epidemiologic study 
of this type. The concentrations of TCE and PCE in the finished 
drinking water are extremely high. Thousands of people living 
in family housing were exposed to high levels of TCE or PCE. 
And importantly, thousands of others were unexposed. Our 
studies were intended to focus on the most vulnerable 
population, the unborn child. And we also had computerized 
birth certificates of over 12,000 live births on base. Finally, 
housing records were available that linked each family to TCE 
or PCE. We have contacted the parents of over 12,000 children 
who reported if their child was born with a birth defect or 
developed a childhood cancer of interest. Our team has 
confirmed the diagnosis of 57 of the 106 children who reported 
to us with conditions of interest. 42 additional children were 
either confirmed not to have the condition, parents refused to 
participate, or no medical records were available. This work is 
difficult. We are trying to accurately reconstruct systems and 
events as far back as 39 years ago. Nobody involved at the time 
could have foreseen the work we are doing today. Our work 
requires close collaboration with the affected families and 
individuals and agencies across DoD. I believe there is a 
shared commitment to accomplish this difficult task. Thank you.
    [The prepared statement of Mr. Sinks follows:]

                       Statement of Thomas Sinks

    Mr. Chairman and members of the subcommittee, I am pleased 
to provide testimony on behalf of the Agency for Toxic 
Substances and Disease Registry (ATSDR) regarding our 
activities at U.S. Marine Corps Base Camp Lejeune (Camp 
Lejeune) in North Carolina. I am Dr. Thomas Sinks, Deputy 
Director of ATSDR and of the National Center for Environmental 
Health (NCEH) at the Centers for Disease Control and Prevention 
(CDC).
    I will briefly summarize ATSDR's mission and general 
experience in addressing trichloroethylene (TCE) and 
tetrachloroethylene (PCE) at Superfund sites, including 
contamination of drinking water sources and supplies. I then 
will focus on ATSDR's scientific activities in evaluating 
potential health effects of exposures to PCE and TCE 
contaminated drinking water at Camp Lejeune, including 
conducting health assessments and epidemiologic research, and 
convening panels to obtain input from experts outside the 
Agency and from other persons concerned about potential health 
effects of exposures at Camp Lejeune.
    I must preface my remarks with an important point: Since 
ATSDR has not completed its current epidemiologic study, we 
have not yet determined whether there is an association between 
exposure to contaminated water and certain birth defects and 
cancers among children born between 1968 and 1985 to women who 
lived at Camp Lejeune during some portion of their pregnancy. 
However, I will discuss findings that were released earlier 
today concerning contamination of the drinking water supply at 
one of the three areas of family housing at the Base.

                               Background

    ATSDR is a statutorily created Operating Division within 
the Department of Health and Human Services (HHS). Created by 
the Comprehensive Environmental Response, Compensation and 
Liability Act of 1980 (CERCLA), more commonly known as 
Superfund, ATSDR's role complements those of the Environmental 
Protection Agency (EPA) and other Federal agencies under 
Superfund, by focusing on the health of people and the 
communities in which they live. Our work is framed into four 
functional areas: protecting the public from hazardous 
exposures, increasing knowledge about toxic chemicals, 
delivering health education about toxic chemicals, and 
maintaining health registries.
    ATSDR is required by law to conduct a public health 
assessment (PHA) or its equivalent at each site proposed or 
listed on EPA's National Priorities List of hazardous waste 
sites. In a PHA, ATSDR evaluates releases of hazardous 
substances into the environment to determine if people are 
being or have been exposed to hazardous substances and, if they 
are being exposed, whether those exposures are at levels likely 
to be a health hazard. The PHAs also provide recommendations 
for eliminating or reducing harmful exposures. A PHA may also 
identify factual or scientific data gaps and make 
recommendations for additional actions such as health 
education, epidemiological health studies, disease registries, 
surveillance studies, or research on specific hazardous 
substances.
    Under the 1986 Superfund Amendments and Reauthorization 
Act, HHS and the Department of Defense (DoD) are required to 
enter into a memorandum of understanding (MOU) regarding the 
manner in which ATSDR will carry out its responsibilities at 
DoD sites, and to establish a manner to transfer funds from DoD 
to ATSDR to fund these activities. Under the MOU, ATSDR sends 
an Annual Plan of Work to DoD each year, identifying planned 
work and funding needed for that work for the coming year.
    ATSDR's primary health concern at Camp Lejeune involves 
potential exposure to drinking-water supplies contaminated with 
two common volatile organic compounds (VOCs): TCE and PCE. TCE 
is a colorless liquid which is used as a solvent for cleaning 
metal parts. Occupational exposure to TCE may cause nervous 
system effects, kidney, liver and lung damage, abnormal 
heartbeat, coma, and possibly death. Occupational exposure to 
TCE also has been associated with adult cancers such as kidney 
cancer, liver and biliary cancer, and non-Hodgkin's lymphoma. 
TCE in drinking water has been associated with childhood 
leukemia in two studies and with specific birth defects such as 
neural tube defects and oral clefts in one study.
    PCE is a manufactured chemical used for dry cleaning and 
metal degreasing. Occupational exposure to PCE can cause 
dizziness, headaches, sleepiness, confusion, nausea, difficulty 
in speaking and walking, unconsciousness, and death. Exposure 
to PCE-contaminated drinking water has been linked with adult 
cancers such as non-Hodgkin's lymphoma, leukemia, bladder 
cancer, and breast cancer.
    Inhalation and ingestion are important routes of exposure 
for both TCE and PCE. Both chemicals are listed in the 11th 
Report on Carcinogens from the National Toxicology Program as 
reasonably anticipated to be human carcinogens. The United 
States Environmental Protection Agency (EPA) established 
Maximum Contaminant Levels for drinking water of 5 parts per 
billion (ppb) for PCE in 1991 and for TCE in 1987.
    ATSDR has extensive experience related to TCE and PCE. The 
Agency has published Toxicological Profiles on both chemicals, 
and our Profile on TCE is included in our Case Studies for 
Environmental Medicine, a series of self-instructional 
publications designed to increase primary care providers--
knowledge of hazardous substances in the environment and to aid 
in the evaluation of potentially exposed patients.

                              Camp Lejeune

    Public Health Assessments: In 1989, the EPA placed U.S. 
Marine Corps Base Camp Lejeune and ABC One-Hour Cleaners, which 
is located very close to the Base, on its National Priorities 
List. Releases of chemicals from both the ABC One-Hour Cleaners 
and activities at Camp Lejeune contributed to contamination of 
the water supply system serving certain areas of housing at the 
Base. In August 1990, ATSDR completed a PHA addressing 
contamination from the ABC One-Hour Cleaners. This assessment 
found that PCE, detected in on-site and off-site wells, was the 
primary contaminant of concern. In 1997, ATSDR completed a PHA 
for contamination from the Camp Lejeune Base.
    In these PHAs ATSDR determined that current conditions at 
the site did not present a current health hazard because the 
contaminated wells were no longer in use. However, ATSDR did 
identify three past public health hazards. Of those, the one we 
are focused on currently is the contamination of drinking water 
systems serving several areas of family housing on Base, 
referred to as Tarawa Terrace, Hadnot Point, and Holcomb 
Boulevard. Tarawa Terrace was contaminated primarily by PCE and 
Hadnot Point was contaminated primarily by TCE. ATSDR also 
reported that Holcomb Boulevard, the third major system, was 
not contaminated, except for during a two-week period in late 
January and early February 1985 when the Holcomb Boulevard 
system was down for repairs and the area was served by the 
Hadnot Point system.
    In 1997, ATSDR concluded that likely exposures to PCE and 
TCE were significantly below levels shown to cause adverse 
health effects in animal and adult human studies and therefore 
not expected to result in cancer or other health effects in 
adults. However, because scientific data relating to the 
harmful effects of VOCs on a child or a fetus were limited, 
ATSDR recommended conducting an epidemiological study to assess 
risk to infants and children from maternal exposure during 
pregnancy to the VOC-contaminated drinking water.
    Health Studies: Following up on the recommendations in the 
PHA, ATSDR has undertaken two related epidemiologic studies, 
both of which focused on the health of children born from 1968 
through 1985 whose mothers were exposed to contaminated 
drinking water at Camp Lejeune during their pregnancies. These 
dates were selected because 1968 is the first year for which 
computerized birth certificates from North Carolina are 
available, and in early 1985 contaminated water-supply wells 
were removed from regular and continuous service.
    First Study: ATSDR's first study, completed in 1998, was 
based on information collected from the birth certificates of 
12,493 live births on base. Housing records for families who 
lived on base were used to determine mother's residence during 
pregnancy and to assign VOC exposure categories based on our 
knowledge of contamination across the three drinking water 
systems. We identified an association between women who drank 
PCE-contaminated drinking water from Tarawa Terrace during 
pregnancy and their babies being born small for gestational 
age. This association was limited to those mothers older than 
35 years of age or who had experienced two or more fetal 
losses. An additional finding was that baby boys born to 
mothers who drank TCE-contaminated water from Hadnot Point were 
also more likely than unexposed babies to be born small for 
gestational age.
    Second Study: In its PHA ATSDR also identified as a 
priority the need to study the relationship between maternal 
exposures to TCE and PCE and the occurrence of several birth 
defects and childhood cancers, which would require information 
beyond that available in birth certificates. The current study 
began in the late 1990's and is ongoing. The study protocol for 
the study has been subjected to peer review by scientific 
experts outside of the Agency. The two primary components of 
the current study are to identify and confirm particular birth 
defects and cancers and to conduct water modeling to determine 
which housing units received contaminated water during what 
time period and the level or concentration of the contaminated 
water.
    The study initially focused on neural tube defects (i.e., 
spina bifida and anencephaly), cleft lip and cleft palate, 
major heart defects, choanal atresia, and two forms of 
childhood cancers (all leukemias and non-Hodgkin's lymphoma). 
ATSDR contacted the parents of 12,598 children born during the 
period 1968-1985 to mothers who resided at the base anytime 
during their pregnancy to confirm mother's residence and 
determine if the child had one of the health conditions that 
are focused on in the study. Parents reported 35 children with 
neural tube defects, 42 with cleft lip and/or palate, 29 with 
leukemia or lymphoma, no children with choanal atresia, and 3 
with a major heart defect (this condition was dropped because 
of the small number of possible case-children).
    Since the initial phone interview, ATSDR has collected 
medical records to confirm the diagnoses of the reported cases. 
Fifty-seven children confirmed as having a condition of 
interest include 17 children with a neural tube defect, 24 
children with a cleft lip or palate, and 16 children with 
leukemia or non-Hodgkin's lymphoma. An additional 42 possible 
case children were either confirmed not to have the 
condition,--refused to participate, or had no available medical 
records. The status for an--additional 7 children is still 
pending. As noted earlier, the information on birth defects and 
cancer does not, by itself, tell us whether these conditions 
are associated with exposure to contaminated water.
    To obtain estimates of historical concentrations of PCE at 
Tarawa Terrace and TCE at Hadnot Point, ATSDR is using water-
modeling techniques and the process referred to as historical 
reconstruction. ATSDR began these analyses in 2003. The 
historical reconstruction process for Tarawa Terrace is 
complete. Water modeling activities for the other water system, 
the Hadnot Point system, are expected to be completed later 
this year.
    ATSDR's goal is to estimate monthly levels of contaminants 
in these drinking water systems from the early 1950's until the 
contaminated wells were shut down in 1985. The effort involves 
extensive information gathering (e.g., geohydrology, sources of 
contamination, drinking water well locations and pumping rates, 
contaminant transport and degradation byproducts, and water 
distribution system). The modeling effort also requires 
simulating the fate and transport of the contaminants from the 
pollution sources through the soil and into the ground water, 
to the drinking water wells, and finally to the water treatment 
plant and water distribution system that provides the water to 
the family housing units. After the historical reconstruction 
of both water systems is complete, the information on birth 
defects and cancers will be linked to the information 
concerning which housing units received contaminated water 
during what timeframes.
    The historical reconstruction of the Tarawa Terrace system 
is summarized in an Executive Summary report we released 
earlier today. The results indicate that PCE-contaminated 
drinking water distributed to family housing units at Tarawa 
Terrace exceeded 5ppb, which in 1991 was established as the 
Maximum Contaminant Level, for the first time during the period 
October 1957-August 1958, with the most likely date of first 
exceedance being November 1957. The maximum PCE concentration 
in drinking water delivered to family housing units was 
estimated at 183 ppb in March 1984. During the period November 
1957-January 1985, PCE levels in the finished water at the 
water treatment plant exceeded 5 ppb for every month except 
when the most contaminated well was off-line twice for repairs 
(a total of 4 months). The contaminated wells were removed from 
regular service in February 1985. Effective today, former Camp 
Lejeune Marines and their families can find out their estimated 
exposure levels to PCE and PCE degradation by-products, 
calculated through modeling, by visiting the ATSDR Web site 
www.atsdr.cdc.gov/sites/lejeune and entering the dates they 
lived in Tarawa Terrace housing. The executive summary of the 
analyses also is available at this Web site.
    Once the historical reconstruction of both the Tarawa 
Terrace system and the Hadnot Point system have been completed, 
the monthly quantitative estimates of contaminant 
concentrations in each of these drinking water systems will be 
linked with the case-control interview data on birth defects 
and childhood cancers. ATSDR will analyze the data to determine 
if exposures to the drinking water contaminants are associated 
with neural tube defects, cleft lip/cleft palate, or childhood 
leukemia/non-Hodgkin's lymphoma.
    Update of First Study: During the work conducted for the 
historical exposure reconstruction, ATSDR discovered an error 
in the exposure classifications used in its first Camp Lejeune 
study, the 1998 study of adverse birth outcomes. This may have 
affected the results of this study. The error was the result of 
a lack of information on the date the Holcomb Boulevard 
Treatment Plant began operation. The study assumed that the 
plant was operating during the entire period of the study, 
1968-1985. However, as a result of the historical exposure 
reconstruction, the Agency has learned that the Holcomb 
Boulevard Treatment Plant did not begin operation until June 
1972. Prior to June 1972, the Hadnot Point system provided 
drinking water to the Holcomb Boulevard service area. This 
means that many of the births during the period, January 1968-
May 1972 that were classified as unexposed in the 1998 study 
were actually exposed in utero to drinking water contaminated 
with TCE and other solvents. ATSDR regrets the error that was 
made in the 1998 study, and plans to reanalyze the 1998 study 
using the monthly contaminant estimates from the historical 
exposure reconstruction. Utilizing the more detailed estimates 
will considerably improve the quality of the 1998 study.
    Community and Expert Input: In response to public concerns 
that ATSDR's study was too narrowly focused since drinking 
water contamination may have caused adult cancers as well as 
non-cancer diseases among children and adults, ATSDR convened a 
scientific panel in February, 2005, to provide advice on 
whether additional epidemiological studies on the health 
effects of exposures to contaminated water at Camp Lejeune 
should be conducted. ATSDR accepted panel recommendations, 
including recommendations to establish a Community Assistance 
Panel for Camp Lejeune, and to assess the feasibility of 
conducting a mortality and cancer incidence study and 
additional potential studies by evaluating DoD databases.
    ATSDR also convened a panel on its approach to historical 
reconstruction of groundwater and finished water contamination 
at the Base. On March 28-29, 2005, ATSDR held an ``Expert Peer 
Review Panel on Water Modeling'' to assess and review water 
modeling approaches and activities at Tarawa Terrace, Hadnot 
Point, and Holcomb Boulevard. Panel members approved ATSDR's 
approach but made additional recommendations, which we adopted. 
They were unanimous in their recommendation that ATSDR conduct 
additional extensive data discovery to obtain all the 
information necessary to fully understand the historical 
operations of the water-supply systems. Panel members also 
recommended that the Agency undertake a rigorous uncertainty or 
probabilistic analysis and consider modeling PCE degradation 
by-products. Lastly, the panel recommended that a more 
simplified approach to water-distribution system modeling could 
be used (i.e., simple mixing model), unless we could 
definitively prove--using historical information and data--that 
there were lengthy periods (exceeding several months) when the 
Tarawa Terrace water-distribution system was interconnected 
with the Holcomb Boulevard water-distribution system. These 
recommendations were accepted by the Agency and were 
implemented.

                               Conclusion

    In summary, ATSDR has an essential role in providing public 
health support to people and communities impacted by hazardous 
substances. ATSDR expects the study on the association between 
health effects and exposure to the drinking water contaminants 
to be completed in 2008. Our assessment of the feasibility of 
additional work is expected to be completed this year. On a 
personal note, my staff and I have truly enjoyed interacting 
with the former Marines who lived at Camp Lejeune. As an 
Agency, we take very seriously the trust placed in our 
organization by members of the public like these former 
Marines.
    At this time, I am happy to answer any questions you may 
have.

              Answers to Submitted Questions by Mr. Green

    Question:  Mr. Sinks, in your testimony, it states that the 
Agency for Toxic Substances Disease Registry (ATSDR) has 
conducted studies on children that may have been exposed to 
trichloroethylene (TCE) and tetrachloroethylene (PCE) at Camp 
Lejeune. Has ATSDR considered studying adults who may have been 
exposed to TCE and PCE at Camp Lejeune?

    Answer: ATSDR's current and previous epidemiological 
studies at U.S. Marine Corps Base, Camp Lejeune have focused on 
the health effects to the fetus and child from maternal 
exposures to drinking water contamination because the fetus is 
the most vulnerable to these exposures and because there are 
only a very few studies that have evaluated the effects on the 
fetus of trichloroethylene (TCE) and tetrachloroethylene (PCE) 
exposures. Because of this gap in our scientific knowledge, and 
because the fetus is the most vulnerable to these exposures, 
ATSDR studied specific health effects in children that may be 
associated with maternal exposures to these drinking water 
contaminants. ATSDR is currently evaluating the feasibility of 
conducting a study of adult mortality and cancers among a 
cohort of Marines who were stationed at the base during the 
period when the drinking water was contaminated with TCE and 
PCE. The assessment of the feasibility of such a study will be 
completed by the end of 2007.

    Question: In the studies that ATSDR has conducted, you have 
contacted the parents of children that have been exposed to TCE 
and PCE at Camp Lejeune. If you can contact those people to ask 
them to participate in a study and create a registry, then why 
not notify everyone who may have been exposed to water 
contamination at Camp Lejeune?

    Answer:  ATSDR does not have access to data on everyone who 
may have been exposed to water contamination at Camp Lejeune. 
The Department of Defense is the agency that may have data on 
this population. For the study ATSDR is conducting, we have 
been able to contact many of the parents of children whose 
mothers were on base during pregnancy. This sub-population does 
not cover the entire population of those who may have been 
exposed, but ATSDR does plan to provide study participants with 
the results of our findings.
    Another aspect of the agency's work is conducting water 
modeling to determine which housing units at Camp Lejeune 
received contaminated water during what time period and the 
level or concentration of the contaminated water. ATSDR has 
posted to its Web site a summary of the findings from its 
historical exposure reconstruction work and also the full 
technical findings. These are available at www.atsdr.cdc.gov/
sites/lejeune/watermodeling.html
    We have publicized the availability of these data by 
issuing a press release, and we are working closely with the 
Community Assistance Panel to identify other methods of 
effective outreach to the affected community concerning ATSDR 
work. Similar outreach efforts will be undertaken for the study 
results when they are available.

    Mr. Stupak. Dr. Bove, were you going to have an opening 
statement? Dr. Maslia?
    Mr. Maslia. No.
    Mr. Stupak. All right. Then we are going to move to 10-
minute questions then. On this panel, we are going to do 10 
minutes. I will begin. Dr. Sinks, did you say you are going to 
do an adult study? That's in the planning works for Camp 
Lejeune?
    Mr. Sinks. Yes. Thank you. We have not committed to do an 
adult study. A decision was made to do the childhood study 
because the data gaps were greatest in that area. We wanted to 
look more closely at the most vulnerable population, and we had 
records to do that.
    Mr. Stupak. I thought you said in your opening----
    Mr. Sinks. We are doing a feasibility study right now.
    Mr. Stupak. Feasibility study to do determine if there 
should be a study?
    Mr. Sinks. To determine if we should or should not move 
ahead to do a study of adults. That is correct.
    Mr. Stupak. And when you do your studies areas you are 
looking at what? From what year, 1968 to 1985?
    Mr. Sinks. We define the study beginning date as 1968. Now 
that is for the children. And that was decided on the basis of 
the availability of computerized birth certificate records, so 
we wouldn't have to go back and contact all of the families 
before 1968 in order to determine who there might have been.
     We cut the study off in 1985 because the information we 
had at that time was exposure had stopped in 1985.
    Mr. Stupak. You are aware that these wells were used 
through 1987?
    Mr. Sinks. Dr. Maslia's work with Tarawa Terrace shows us 
that there may have been some much lower contamination in the 
finished water from 1985 through 1987. I think you have a chart 
that shows that. It may be a little difficult to read, but the 
levels are significantly lower. These are not sampled.
    Mr. Stupak. More than 5 parts per billion?
    Mr. Sinks. A little more than 5. Possibly somewhere between 
5 and 10, but certainly nowhere approaching the levels of 180 
which we saw prior to 1985.
    Mr. Stupak. So you don't dispute the fact that the wells 
were used up through 1987? But you are cutting the study off in 
1987.
    Mr. Sinks. Well I am not an expert. There were some wells 
used. The two primarily contaminated wells were shut off. I 
think one of them may have been used in a mixture for a short 
period of time.
    Morris, if you want to answer that.
    Mr. Maslia. Yes. The two primary contaminated wells known 
as TT-26 and TT-23 were shut down from continuous use.
    Mr. Stupak. But used periodically after----
    Mr. Maslia. If they have to obtain a water sample, you have 
to turn the wells on, so they would turn them on. There was a 
period in April that they turned TT-23 on for 7 hours, for 7 
different hours but they were not used continuously. Those two 
wells were not used continuously. All the wells were shut down 
when the treatment plant was shut down in March 1987.
    Mr. Stupak. OK. Dr. Sinks, I asked Dr. Gros about 
miscarriages. Have you looked at miscarriages during that 
period of time from 1968 to 1985?
    Mr. Sinks. We did use adverse reproductive outcomes using 
birth certificates, so we limited that first study to a study 
using available vital statistics.
    Mr. Stupak. So the answer is no, you didn't look at 
miscarriages?
    Mr. Bove. We did look at fetal deaths. Using fetal death 
certificates we found 83 fetal deaths during that period. We 
expected, based on the ratio of fetal deaths to live births, 
about three times more than that. So the fetal death 
certificates from North Carolina were seriously underestimating 
or under-ascertaining the fetal deaths occurring in that 
population. I don't know why that was the case. That would be 
something for North Carolina to answer.
    Mr. Stupak. How many fetal deaths versus how many women did 
you look at?
    Mr. Bove. We decided not to pursue the fetal deaths because 
we saw that we were under-ascertaining them by a factor of I 
think 3. We didn't know why we were seeing so few fetal deaths 
in this population, OK, so if we did a study we would have to 
figure out why, for example, the fetal death rate was so slow.
    Mr. Sinks. Based on a proportion of live births?
    Mr. Bove. That is based on a proportion of fetal deaths to 
live births. You expect a certain portion of fetal deaths given 
the number of live births in a population.
    Mr. Stupak. Looking for a number of fetal births compared 
to the rest of the country, not necessarily when you have a 
large concentration in a population, why wouldn't you look at 
another part of the country?
    Mr. Bove. In the study, they look at adverse reproductive 
outcomes, and in the current study too. They are looking at 
comparing those exposed at the base to those unexposed at the 
base. That's the idea. We want to see if contamination levels 
are associated with these outcomes. So if you compare it to 
some other base, we'd have to get birth certificates and fetal 
deaths from another base. It's not clear--we would have to 
figure out whether there were exposures occurring at another 
base. It made sense to limit the studies to Camp Lejeune.
    Mr. Stupak. How about the 12,598 children that were born 
between 1968 and 1985? Did you take into consideration if those 
children died?
    Mr. Bove. Did we take into consideration the children died?
    Mr. Stupak. Right. You said you looked for birth defects 
and that, from 1968 to 1985.
    Mr. Bove. Right. Some of those children did die.
    Mr. Stupak. What percentage?
    Mr. Bove. I will have to get back to you on that one.
    Mr. Stupak. More than the national standard?
    Mr. Bove. No. We didn't look at that.
    Mr. Stupak. In your study when you make these comparisons, 
these conclusions, you are comparing against different DoD 
bases?
    Mr. Bove. No. We're comparing exposed--mothers exposed at 
Camp Lejeune to mothers unexposed at Camp Lejeune. What you 
want to do in an epidemiologic study is to have two comparable 
groups, an exposed and an unexposed, so they are similar in all 
respects, if you can, except for the exposure.
    Mr. Stupak. The only way you determine whether exposed or 
unexposed is whether they had water from these wells.
    Mr. Bove. Right.
    Mr. Stupak. So if they are swimming at the Tarawa Terrace 
swimming pool but they didn't drink the water there, then you 
are unexposed?
    Mr. Bove. Right.
    Mr. Stupak. But if you are a pregnant lady, you certainly 
could be exposing your child while you are in that swimming 
pool, is that right?
    Mr. Bove. There are other exposures too. You pump gas. 
There are all kinds of exposures. What you try to do is compare 
two populations that are similar, OK, and the population in 
Tarawa Terrace and the population of Holcomb Boulevard----
    Mr. Stupak. Why don't you just----
    Mr. Bove. Can I finish?
    Mr. Stupak. Sure. But you don't get 10 minutes to answer 
because that's all I have to question.
    Mr. Bove. One second. The populations there are similar, we 
hope. And this is how epidemiologic studies are done. We hope 
they are similar in all other risk factors except for the 
exposure of interest.
    Mr. Stupak. What's the percentage of birth defects at Camp 
Lejeune of those 12,598 compared to the rest of the country?
    Mr. Bove. We don't have the data on all birth defects at 
Camp Lejeune. We just focused on those birth defects we were 
interested in based on previous studies.
    Mr. Stupak. So if someone says birth defects are 15 times 
greater than the rest of the Nation, you have no way to dispute 
that.
    Mr. Sinks. May I just interject here on a couple of things? 
We do have information on the numbers of children who reported 
to us with birth defects from those 12,000, because in fact we 
went out and interviewed all of those parents. We collected 
that information. We did have priorities in terms of which were 
the conditions we were most interested in because of previously 
published scientific studies. Those were the ones we focused 
on.
    We did find there were a couple conditions we were 
interested in where we had insufficient numbers of children who 
were born with those birth defects; and in fact, one of those 
conditions we actually saw less than we would have expected 
based on national data.
    What Frank was saying regarding fetal deaths as a 
proportion of total live births is not a comparison internal to 
Camp Lejeune. That's a comparison based on what nationally----
    Mr. Stupak. I realize that. I guess what I'm trying to say, 
if you are at Camp Lejeune, how can you sit here and say this 
person was exposed, this person was not exposed? They go over 
to someone's house and not have a drink of water?
    Mr. Sinks. Let me just say this. There is no question that 
there are other folks at Camp Lejeune we're not studying who 
were exposed. And if your question is essentially one of have 
we included in our studies everybody who was potentially 
exposed, the answer is no.
    But part of that answer has to do with how do we do 
epidemiologic studies? How do we do it in a timely way? Because 
I don't think you want us to be here in 5 years and----
    Mr. Stupak. You are telling us you won't have that report 
done until next year now, right?
    Mr. Sinks. We will probably have it done, I'm hoping, early 
2008. It is a difficult thing to do. The water modeling is a 
particularly difficult thing to do, and the Hadnot Point system 
is what we have to do.
    Mr. Stupak. Of these 12,598 children born between 1968 and 
1985, you've talked to all these parents?
    Mr. Sinks. Well, I haven't personally. But the people 
working for us have interviewed--was it the total? Was that 
12,000?
    Mr. Stupak. So someone talked to Mr. Gros, then, who was in 
the first panel?
    Mr. Sinks. I believe all three of them had been contacted 
by us. Let me just point out, that's why they found out about 
the issue.
    Mr. Stupak. All right.
    General Dickerson, I assume your opening statement that DoD 
refused to fund between 1998 and 2000, that's our activities at 
Camp Lejeune. Why was that, do you know? You have to use your 
mike, please, sir.
    General Dickerson. I'm sorry sir. The 1998 funding for 
ATSDR activity provided by the Department of the Navy was 
handled by the Navy because it goes to the Secretariat level 
for the defense environmental restoration program moneys. After 
that was not funded--and the Marine Corps has stepped up and 
it's funded it out of our accounts right now--we are not at the 
Secretarial level.
    Mr. Stupak. So you have no idea what happened between 1998 
and 2000?
    General Dickerson. No, sir. I do not.
    Mr. Stupak. Do we have to get the Secretary of the Navy in 
here to answer that question then?
    General Dickerson. His staff has the background on how that 
was appropriated. Yes, sir.
    Mr. Stupak. OK, we can do that. My time has expired.
    Mr. Whitfield for 10 minutes. I think we'll be coming back.
    Mr. Whitfield. Well, thank you for your testimony.
     Dr. Sinks or Ms. Leonard, either one. On the earlier panel 
I referred to the 2003 study of ATSDR in which it said that 
ATSDR has determined that exposures to volatile organic 
compounds in on-base drinking water is unlikely to result in 
cancer and noncancer health effects in adults.
    Now, how do you all come to that conclusion?
    Mr. Sinks. I think this one's for me. This was the 1997 
health consultation that we published on Camp Lejeune, and it 
basically characterized what our health assessors saw in terms 
of exposure levels, potential pathways, and tried to look at 
the duration of exposure, the concentration of exposure, and 
compare that with existing scientific literature that was out 
there. Those individuals who were doing that made a conclusion 
that they did not expect to see cancers in adults.
    However, I will tell you that as a carcinogen, there is no 
threshold dose to where we would or wouldn't know a cancer had 
occurred. And we wouldn't conclude that no cancers would have 
occurred on the basis of that.
    I'm sorry. I kind of lost my train of thought there. But we 
did make the decision to go ahead and study it in adults 
because we had previously--you showed some data on Woburn--that 
was a study that we were involved in, and that did indicate 
some risks to childhood cancers, and we wanted to follow up 
with that, and we felt that this was the proper place to do 
that.
    Mr. Whitfield. It's a little bit surprising, I guess, to 
hear that sort of determination, saying that it is unlikely to 
result in cancer, particularly since these wells--and water was 
coming from these wells from 1968.
    Mr. Sinks. Mr. Whitfield, let me say that what hasn't been 
mentioned is that the health consultation does indicate that a 
past public health hazard had occurred, and that we clearly 
stated this was a past public health hazard. Now the 
individuals were looking, then, at would we have expected to 
see certain health outcomes, and they made the conclusion they 
didn't expect to. But they clearly did indicate that there was 
a past public health hazard presented by this exposure.
    Mr. Whitfield. OK. You are saying there was a health 
hazard. But it's unlikely that it would have caused cancer?
    Mr. Sinks. That was their conclusion at the time. But I 
will say that as a carcinogen with no threshold dose, we 
probably should be cautious about concluding that no cancers 
did occur. There may have been some cancers. I can't tell you 
if there were or there were not. But I'd also tell you that 
epidemiology would not be able to tell you if any individual's 
cancer was due to this----
    Mr. Whitfield. If I'm a plaintiff's lawyer, I'm sure that I 
can come forth with scientific evidence and would make the 
argument that it did cause cancer. I mean that wouldn't be 
surprising to you that we would be able to find evidence to 
that effect, would it?
    Mr. Sinks. Well, I think these chemicals are reasonably 
anticipated to be human carcinogens. That's well documented. 
The issue becomes one of duration and dose, and at what dose we 
see that. And I think the human epidemiology at the time was 
mostly focused on adults in occupational settings where their 
exposures are much greater.
    Mr. Whitfield. We were talking about 2003, and you made the 
statement that in 2003 there was a position, and you've sort of 
made me think that maybe you are rethinking that. But in this 
report that was issued today, the Executive Summary, it says on 
page ES-3, thus ATSDR determined that exposure to VOCs in on-
base drinking water was unlikely to result in cancer and 
noncancer health effects in adults.
    Mr. Sinks. Well, that's quoting our 1997 public health 
hazard. Those were the conclusions of the people doing that 
health assessment. And again I want to repeat, while we use the 
word ``unlikely,'' which is low probability, it doesn't mean 
they would not could not have occurred. We would not be able to 
exclude that possibility.
    Mr. Whitfield. Well, Ms. Leonard, you are in charge of 
administering the 850-some claims filed by personnel at Camp 
Lejeune who are seeking damages, and in your testimony you 
state you are waiting for ATSDR to complete its study before 
you take action on the claims.
    Ms. Leonard. Yes, sir.
    Mr. Whitfield. It seems to me they're taking the position 
here that there's no correlation here. Is that what you think?
    Ms. Leonard. Are you speaking only about the adults?
    Mr. Whitfield. Yes.
    Ms. Leonard. Yes. It does sound like that. We are waiting 
particularly for the water modeling part of the scientific 
study so that we can figure out what doses, during what time 
periods, at what housing areas, what levels, and when the 
medical piece comes through, we'll draw the correlation between 
specific illnesses or injuries at that point.
    Mr. Whitfield. Have you filed any medical claims on behalf 
of children?
    Ms. Leonard. We have not at this point.
    Mr. Whitfield. When do you expect that some decisions will 
be made on children's issues?
    Ms. Leonard. As soon as we get the water modeling. I 
believe part of that was just released. I have not seen that 
nor have I been briefed on it. When the entire modeling is 
released and then the medical evidence tying particular 
illnesses or injuries to those levels of exposure, at that time 
we will adjudicate that group of claimants that are claiming 
about those particular illnesses.
    Mr. Whitfield. What would you say of the time line on all 
of this would be? Or maybe Dr. Sinks could help or someone 
could help.
    Mr. Sinks. The Tarawa Terrace study is complete and it's 
out today. The Hadnot Point piece is not completed. Mr. Maslia 
believes it will be done later this summer or in the fall, and 
the ``epi'' study which will be connecting the childhood 
conditions with these exposures would be sometime I hope in the 
spring.
    Mr. Whitfield. Now these are being followed under the 
Federal Tort Claims Act?
    Ms. Leonard. Yes, sir, they are.
    Mr. Whitfield. And you all make the initial administrative 
decision?
    Ms. Leonard. Yes, sir. Once a claim is filed, the law 
requires that the claimant allow the agency 6 months to 
adjudicate the claim. And when the 6-month time period expires, 
at that time they are able to go into Federal District Court to 
go sue the United States of America.
    Mr. Whitfield. So you would make a decision then, and they 
would go to Federal court and contest that decision?
    Ms. Leonard. They could go now if they wanted to, because 
the 6 months has expired since the claims were filed, the 
majority of them. So they could go now if they wanted to. The 
claimant always has the right to allow the agency more time to 
adjudicate the claim, as in this case, it's been more than 6 
months. It's been years on many of them. So we are waiting for 
the further evidence to adjudicate those claims.
    Mr. Whitfield. All right. Dr. Sinks, not too long ago, 
Ranking Member Barton and I sent a letter to you all talking 
about other military bases. And in some of the data that you 
provided back to us as answers--could you all put on the 
monitor this table regarding the HazDat Databases on Nebraska 
Ordnance Plant, Mather Air Force Base. It's hard to read that. 
But tab 21.
    Mr. Sinks. This is what we sent you yesterday.
    Mr. Whitfield. Yes. On tab 21, we specifically talked about 
five bases: Nebraska Ordnance Plant, the Mather Air Force Base, 
the Air Force plant No. 4, McClellan Air Force Base, and 
Wurtsmith Air Force Base. And your response, according to the 
documentation that we have, was wrong in three out of five of 
those facilities. The data in the HazDat Database was wrong in 
three out of five. Were you aware of that?
    Mr. Sinks. We spoke with your staff yesterday about this. 
Let me say that your request came to us late Friday afternoon. 
It was a list of many bases, and asking us to respond to you in 
detail, I believe, around the 26th. We were asked to look at 
the five specific bases, and we did find that some of the 
numbers in there may not have fit a category that certainly I 
would have expected them to fit. I will not tell you that means 
they are necessarily wrong.
    The system that you are describing, HazDat, was a system 
designed in 1991. It was specifically designed not for us to 
use to identify places where we would do human health research, 
but it was designed as a tool to provide individuals and 
communities information that they might readily access through 
the Internet about a site of interest. What we have is a list 
that you've come up with of several bases. I don't know how 
many--20, 30.
    Mr. Whitfield. Well I think we want to get with you after 
this hearing, because the evidence shows quite clearly that the 
response was wrong, your response was wrong.
    Mr. Sinks. Let me say there very well may be some errors in 
some of the data in HazDat, which contains hundreds of 
thousands of data bits and thousands of sites over 20 years of 
ATSDR involvement. The issue of how do we identify those sites 
where TCE is exposing large numbers of people where we might 
want to do health studies is not one where we would necessarily 
rely on using that interbase tool.
    So yes, there are things we should be doing with HazDat to 
correct it. We have been trying to put it on a new platform and 
to correct some of those things. But it does not surprise me 
that we could find one or two errors in there, or more, or the 
interpretation of them.
    Mr. Whitfield. Well, I think the thing is, we're focusing 
on Camp Lejeune today. But we know that there are at least 22 
other military bases around the country with some contaminated 
water. And in this--just taking the Nebraska ordnance plant, it 
says 630,000 parts per billion of TCE in municipal public 
groundwater contamination. And in the response it says that 
there was less than 700 parts per billion.
    Mr. Sinks. Well let's split the difference here between 
what may be inaccurate with HazDat and how we can identify 
other places to do research on TCE. There are two different 
issues. Let me say we have done human epidemiologic research on 
other areas involving TCE, several of them non-DoD sites. So 
the work that was done in Woburn involved that. We've been 
involved in any number of human health studies. This particular 
error that you are looking at was apparently a transpositional 
error by an abstracter who looked at a value of PCBs--no TNT in 
soil at this ordnance plant and somehow put it in as TCE.
    Mr. Whitfield. Well, I mean, you all are called to a high 
duty of responsibility and accuracy here, because when we have 
military men and women serving our country and they have their 
families with them, they expect, certainly, safe water to 
drink. And I think what's happened at Camp Lejeune is a real 
blight on all of us, and the fact that 22 other military bases 
have been identified with problems as well calls this to a very 
high standard. And I think that's what these hearings are all 
about.
    And I want to commend the Chairman once again for holding 
the hearing and it's something we will continue to look at. And 
I think my time has expired.
    Mr. Stupak. Mr. Walden, please.
    Mr. Walden. Thank you, Mr. Chairman. I am going to yield 2 
minutes to my colleague from Texas who has some specific 
questions involving Texas, and then I will have some questions.
    Mr. Burgess. I thank my friend for yielding. I apologize 
for having missed part of this hearing. We have several 
hearings going on at the same time.
    Dr. Sinks, on the list of 20 that Ranking Member Whitfield 
was just referring to, the top of that list is the General 
Dynamics plant in Fort Worth, Texas, with a reported 
contamination with trichloroethylene of 11,000 micrograms per 
liter. If I do the math right, that's 11 milligrams per liter. 
That's a strikingly large amount. Can I just ask what is being 
done currently? Is this the current situation that exists at 
these other installations?
    Mr. Sinks. That report, I believe, particularly identified 
that level, but not at tap water where people were drinking. I 
believe that we did not indicate a public health hazard from 
TCE exposures at that site. Most of these sites I think, were 
involved where these levels exist. There is not ongoing 
exposure because they've documented the exposure and they've 
taken corrective action.
    Mr. Burgess. Not to interrupt, but that's my biggest 
concern. We're doing something presently to keep ongoing 
exposure from happening, particularly at these wells or these 
sites that seem to have alarmingly astonishingly high levels.
    Mr. Sinks. Absolutely.
    Mr. Burgess. And are we also in the process of notification 
of individuals who might have been exposed? Because this is 
likely something that's been going on for some time.
    Mr. Sinks. Our agency makes it a very specific practice to 
make sure our information is available. When we have a 
community that is currently there, we work very directly with 
the community to educate them on what we've found and provide 
them that information. We would have difficulty having to go 
back to people who were essentially in a military base and then 
left that base in terms of tracking them down and providing 
them that information on a one-by-one basis. We do make our 
information readily available publicly, but it's on the Web and 
that type of----
    Mr. Burgess. General Dickerson, I realize this is the Air 
Force and not the Marine Corps. But would the military have the 
ability to access those records and be able to participate in 
information dissemination if that appeared to be necessary?
    General Dickerson. Sir, I couldn't answer for the Air 
Force. But I would hope that OSD and the other services have 
these records available for review, but I cannot testify to 
this committee that those records are available.
    Mr. Burgess. Well, Dr. Sinks, I will just echo what Mr. 
Whitfield said. I encourage you to get that information to the 
committee so we can make an informed judgment about that. And I 
thank Mr. Walden for yielding. I will yield back my time.
    Mr. Walden. Thank you, Dr. Burgess. I appreciate your 
participation in the committee.
    Dr. Sinks, I want to ask you, if you had been on these 
bases, especially Camp Lejeune, at the time that these other 
gentlemen were there, would you have felt--and known about the 
contamination--would you have felt comfortable drinking that 
water?
    Mr. Sinks. Well, I think that I personally would have been 
using different water and I think that I would have been 
recommending that an alternative water source was used at that 
time.
    Mr. Walden. And I think most of us--all of us--I don't know 
anybody that would say the opposite of that. The question then 
becomes: Where the database indicates that there were similar 
higher levels or different levels around the country and that 
we had men and women in uniform on bases consuming that water, 
doesn't it make sense then to look at those folks and do an 
epidemiological study?
    Mr. Sinks. Thank you for the question. For us to do an 
epidemiologic study there needs to be a number of things 
available to us. One, we wouldn't do an epidemiologic study 
unless we were convinced there was a completed pathway of 
exposure and there were people actually exposed. Usually in 
environmental epidemiology this issue of trying to determine 
who was exposed, who wasn't exposed, is, frankly, the most 
difficult thing to determine.
    Mr. Walden. If I can just interrupt you a second, because I 
don't do what you do.
    Mr. Sinks. And I don't do what you do.
    Mr. Walden. Well, you may be better off then. In Fort 
Riley, there are 2,550 people that have been identified, 
estimated exposed population at 330 parts per billion BCE and 
96 parts per billion of TCE. Does anybody know who those 2,550 
people are?
    Mr. Sinks. I would not know.
    Mr. Walden. Does anybody in your agency know?
    Mr. Sinks. We would not generally collect personal 
identifying information unless we were going ahead to do an 
epidemiologic study, and then we have a burden to very closely 
protect that information in confidentiality.
    Mr. Walden. I understand. I guess what I'm trying to get 
at, how do we take care of the people who may have been 
exposed? How do we determine if there's a connection here and 
how do we get them help if there is? And it sounds like you 
can't do that. Is that correct?
    Mr. Sinks. There are things that I can do.
    Mr. Walden. What can you do?
    Mr. Sinks. I can do a health consultation and determine if 
there was a completed pathway.
    Mr. Walden. What does that mean, completed pathway?
    Mr. Sinks. Well, that simply is reviewing the available 
information to determine if a contaminant in air, water, soil, 
food, was at a level that would have constituted a health risk 
and people actually consumed it or inhaled it.
    Mr. Walden. Sure. And I understand that. But at 330 parts 
per billion of BCE, does that constitute that pathway if one of 
these----
    Mr. Sinks. It would if it's in our drinking water at the 
tap. Now, let me point out that there are other issues for when 
you would do a study. You would do a study if you had 
sufficient numbers to study and you know who they are, and you 
have the ability to track them, and you can identify specific 
health outcomes that they may have had. And that can be a very 
difficult thing when we're going back 10, 20 years to try to 
reconstruct that history.
    Mr. Walden. All right. I'm sure it is.
    Mr. Sinks. Let me give you one example. If we did find a 
very high level in a well off base that was exposing a family, 
our recommendation would be to get them alternative water.
    Mr. Walden. Right.
    Mr. Sinks. Our recommendation would not be to do an 
epidemiologic study. We would not do a study of a single 
family, or even 20 families, because we wouldn't have enough 
people to study.
    Mr. Walden. OK. With 2,550 families or individuals?
    Mr. Sinks. It could be, if we also had an appropriate 
control group who were unexposed and we were able to identify 
who those people were, and we knew what the health outcomes we 
were looking for were, and we had the availability to get 
information on that.
    Mr. Walden. I guess what I'm struggling with--and I'm 
probably not alone--it seems like we would err on the side of 
the men and women in uniform, that we would be doing everything 
possible to contact every person who was on these bases and to 
find out if there is this connection.
    And I may be not hearing you correctly, but I get the sense 
that we're not making that effort; that there aren't enough 
people, there aren't enough people sick, we don't know about a 
pathway yet. We have this database that shows pretty high 
levels of concentration of these chemicals in the water. Am I 
missing something here?
    Mr. Sinks. Let me separate out this issue of why you are 
wanting to go back and contact those individuals.
    Mr. Walden. Right.
    Mr. Sinks. For a specific reason.
    Mr. Walden. Right.
    Mr. Sinks. Versus needing to do an epidemiologic study. The 
study we're doing at Camp Lejeune right now looking at these 
birth defects should be very sufficient to tell us whether or 
not levels of exposure in this range are associated with risk, 
with these conditions, and we wouldn't make a recommendation to 
go out and look at every single instance when that occurs. We 
want to inform the science. We want to learn from it.
    Mr. Walden. So you would use the science from that study 
and apply it across----
    Mr. Sinks. Right.
    Mr. Walden. Are there already epidemiologic studies, 
already done outside of the military application, involving 
these chemicals in drinking water?
    Mr. Sinks. Yes, there are.
    Mr. Walden. What did they show?
    Mr. Sinks. Actually, let me ask Frank to talk about Woburn 
and the other studies that he's done.
    Mr. Walden. Did they show a connection and the pathway that 
Dr. Sinks----
    Mr. Bove. There have been two studies that looked at 
childhood leukemia and these chemicals specifically: Woburn, 
which we funded; and a northern New Jersey study which I 
participated in, and was funded also by ATSDR. In both studies, 
trichloroethylene was associated with childhood leukemia. The 
only wrinkle here is that in Woburn most of the cases were 
males, and in the New Jersey study, the excess was--it was 
entirely in females. So we don't understand what that is all 
about.
    But there's also been a study done of birth defects and TCE 
and PCE. That's a study I did in northern New Jersey. That was 
also funded by ATSDR and I found associations there between 
trichloroethylene and neural--two defects and oral clefts. 
That's why we're studying them at Camp Lejeune. As for PCE, it 
was much fuzzier and not clear, but there seemed to be an 
association with oral clefts, cleft lip and cleft palates, so 
that's another reason we are looking at those end points there.
    Mr. Walden. So from the studies you've done or the science 
you've studied, the information you've seen from perhaps other 
studies, would it be reasonable for somebody like me to 
conclude that if there are certain levels of these chemicals in 
the water that was consumed by men and women in uniform, or 
anybody anywhere, that that's a likelihood they could come down 
with the diseases, or their kids could, that we heard about 
from the first panel?
    Mr. Bove. The problem here is that both the New Jersey 
study that I worked on, both studies, and the Woburn study are 
still in dispute of what they show. There are, of course, 
industry people that will say that they are not sufficient to 
show anything. So there is this dispute and controversy in the 
scientific community.
    Mr. Walden. Should there be other studies done?
    Mr. Bove. Absolutely.
    Mr. Walden. Would you recommend that studies be done on 
people from these other bases?
    Mr. Bove. We want to do credible studies, though, because 
if we don't do a credible study, a strong study, they won't 
provide the evidence we want. We have to pick exposure, those 
situations where there's good exposure data, and there also has 
to be a large enough number.
    Now, if you remember, there are 12,000 or so births we 
looked at at Camp Lejeune. And at the end of the day, we have 
relatively small numbers of cancers and birth defects to look 
at, and that's because these are rare outcomes. So if we want 
to do more of these kinds of studies--in northern New Jersey, I 
looked at 80,000 births. I still had small outcomes at the end. 
So that's how difficult these studies are.
    You cannot recommend doing these studies anywhere and 
everywhere. You have to have good outcome data. You have to 
have good exposure data. You have to have large numbers of 
people in order to have a strong enough study to make a dent in 
the controversies around these chemicals.
    Mr. Walden. All right. So then are you suggesting that, 
given the testimony we heard in the first panel and the data on 
water quality we've seen, that there isn't enough there to do 
more studies?
    Mr. Bove. No. I'm always looking for an opportunity to do a 
study. My frustration has always been that the States 
oftentimes do not have this kind of data available in the 
drinking water in their municipalities so we could do studies. 
I would love to repeat the New Jersey studies I did back in the 
early 1990's. I would love to do that all across the country.
    The problem appears to be that there's not enough data on 
drinking water contamination in this country to be able to do 
these studies. The other side also is that you need good 
registries, you need cancer registries, you need birth defect 
registries. In North Carolina they didn't have a birth defect 
registry until 1996, and a statewide cancer registry until 
1990.
    Other States are in somewhat similar state. New Jersey was 
fortunate. We had both in place early enough and good drinking 
water data so I could do these studies.
    Mr. Walden. Weren't there medical records on the base that 
you would be able to search back through, or the individual 
service members' records.
    Mr. Bove. We were able to use the medical records to verify 
the cases in the current study, although we have some cases 
where there are no medical records available. Medical records 
do not stay at the Naval Hospital. They get shipped to another 
location for storage. I'm not sure exactly when I can get back 
to you on that. But they are stored. They're not destroyed.
    Mr. Walden. So they do exist?
    Mr. Bove. But they're not easy to access and they are not 
filed in any way that would be very easy to link the population 
with the outcome.
    Mr. Walden. My time has expired. Thank you, Mr. Chairman.
    Mr. Stupak. We're going to go another round. I will let you 
go over because I know you gave some time to Mr. Burgess.
    After you do your study, and Ms. Leonard, you are going to 
pay your claims based upon the study; right?
    Ms. Leonard. Yes, sir. When we have the information, we 
will adjudicate the cases at that time, yes.
    Mr. Stupak. So if their study shows there's a connection 
between childhood birth defects, you are just going to pay 
these claims for the childhood defects?
    Ms. Leonard. Well, there's a little more that goes into it 
besides that. We have to take all of the information and 
analyze each case on a case-by-case basis, the facts.
    Mr. Stupak. Even if they do their study, you are still 
going to look at this case by case? You may not do anything 
with these claims?
    Ms. Leonard. Absolutely. We have to adjudicate each case on 
its own merits.
    Mr. Stupak. Why are we spending all this money on studies? 
It seems like we're just delaying here. Delay, delay, delay.
    Mr. Sinks. The reason that we do the studies is to add to 
the science base to inform groups like----
    Mr. Stupak. I understand that. But I want to know about the 
victims at Camp Lejeune. How are these studies helping them? 
Because it doesn't look like it's helped them at all.
    I will take that back. You did point out today that through 
your investigation based on this report, you did today on page 
ES-10 from 19 January 1955--I will take it back--first exceeded 
the minimum content level was October 1957. So the pollution at 
Tarawa Terrace has been going on since 1957. Your study has 
only gone on from 1968 forward. Can you go back to 1957 and 
take a look at this? If you take a look at it from 1957 on, 
according to your chart, you are way above the minimum content 
level.
    Mr. Sinks. Let me point out that the purpose of our study 
is not to identify individuals who were affected for 
compensation. That is not the purpose of our study. The purpose 
of our study is to do the most credible work we can do from a 
scientific point of view.
    Mr. Stupak. On TCE and PCEs, right?
    Mr. Sinks. TCE and PCE contamination at Camp Lejeune. We 
made a decision to start in 1968, not because that's when 
pollution started, but because that's when we could identify 
the cohort of births that we wanted to look at in order to do 
our study.
     It was really an issue of efficiency.
    Mr. Stupak. So you are saying the information is not 
available between 1957 and 1968 for the births?
    Mr. Sinks. It may be available. We do not have it.
    Mr. Stupak. Wouldn't you want to go back to 1957 now and 
move forward?
    Mr. Sinks. I don't think so. We have more than 12,000 
births. We have terrific information, particularly on Tarawa 
Terrace on the exposure, and we believe that the size of the 
group we've collected will be sufficient to answer the 
questions that we've posed. The issue of going back has to do 
with whether or not our study is sufficient to answer those 
questions.
    Mr. Stupak. All right.
    Mr. Sinks. Now, I will also say that, unfortunately, 
epidemiology is not the right tool to identify whether an 
individual has developed a disease from a specific cause.
    Mr. Stupak. I agree. That's where Ms. Leonard can still 
dispute it, right?
    Mr. Sinks. Well, Ms. Leonard will have to decide what she 
decides. That's not in our court.
    Mr. Stupak. Ms. Leonard, this committee has asked for the 
litigation report. I understand it's 400-and-some pages. When 
can we expect that report?
    Ms. Leonard. Sir, I turned that over to the legislative 
counsel at DoD yesterday, and they will be responding to your 
request. I'm not the person that would be producing that.
    Mr. Stupak. When?
    Ms. Leonard. I don't have that information. There is a 
legal review ongoing right now.
    Mr. Stupak. All right. I still get the impression from the 
first panel----
    And General Dickerson, let me ask you this. Why has DoD not 
notified those residents at Camp Lejeune who were there during 
the time these wells were in use, that they may have been 
exposed to TCE or PCE?
    General Dickerson. Sir, there have been numerous 
communications from the commanding general at the time, from 
Headquarters Marine Corps, through media surveys, contacted 
over 3,500 media outlets, whether that be weekly publications, 
daily publications.
    Mr. Stupak. I realize that. The people who were there, you 
can't tell me the Marine Corps doesn't know who was at Camp 
Lejeune from 1965 to 2007.
    General Dickerson. We could probably get the data who was 
stationed at Camp Lejeune. Would it be 100 percent complete? 
I'm not sure. We've made every attempt to get the information 
out and work with ATSDR to make sure----
    Mr. Stupak. Right. I mean military--don't you think you 
have a responsibility to let these people know they may have 
been exposed?
    General Dickerson. Yes, sir.
    Mr. Stupak. Why don't you do it?
    General Dickerson. We are doing everything we possibly can 
to get the media out.
    Mr. Stupak. Not the media.
    General Dickerson. Message.
    Mr. Stupak. Not the media, not the message. I'm talking 
about notice those individuals who lived there. Why not contact 
them?
    General Dickerson. Some people, we haven't got an address 
to get to. Some of the records are not complete on everybody 
that was stationed there.
    Mr. Stupak. Have you made an effort?
    General Dickerson. We have made every effort to get the 
word out. That is why the Web site was set up.
    Mr. Stupak. No no, not the word out. Notice directly these 
people. If you can track down Dr. Gros who is down in Beaumont, 
Texas, for his son, I would think the military could do it if 
they wanted to; don't you think?
    General Dickerson. We have a media campaign to go out, 
based on the study----
    Mr. Stupak. As an officer, wouldn't you expect your Marine 
Corps would tell you? Were you at Camp Lejeune during this 
time?
    General Dickerson. The Marine Corps, sir, has tried----
    Mr. Stupak. Were you at Camp Lejeune during this time?
    General Dickerson. Yes, sir, I was. I was stationed there 
from 1974 to 1978, from 1983 to 1986.
    Mr. Stupak. Would you expect to be notified?
    General Dickerson. I was. Yes, sir.
    Mr. Stupak. How would you notified?
    General Dickerson. By letter, by communications, and base 
papers.
    Mr. Stupak. Don't you think everybody, then, should get a 
letter?
    General Dickerson. Yes, sir. To my knowledge, everybody who 
was in affected areas had a letter.
    Mr. Stupak. That's not what the first panel said.
    General Dickerson. I understand what the first panel said. 
Yes, sir.
    Mr. Stupak. Dr. Sinks, have you been told by DoD why they 
didn't fund your study from 1998 to 2000? Have you been told?
    Mr. Sinks. No, I have not. I was not with ATSDR at that 
time.
    Mr. Stupak. Do you have any reason? Have you drawn any 
conclusions why they did not fund you?
    Mr. Sinks. I can't draw any conclusions about that. I can 
tell you that we did not stop our work and that we went ahead 
and funded it with our CERCLA dollars to ramp up to begin the 
study.
    Mr. Stupak. OK. Has the Marine Corps promptly and fully 
disclosed to you all information pertaining to the 
contamination so that accurate studies of adverse health 
effects could be conducted?
    Mr. Sinks. Since I have been involved in this, which is 
about the past 3 years, every time I have made a request they 
have made the information available, and most of this 
information Mr. Maslia has been involved with, and I believe 
he's gotten very good cooperation.
    Morris, do you want to add anything?
    Mr. Maslia. Yes, sir. We have received the information that 
we have requested. Some of the issues involved is identifying 
who may have the information, and in our vernacular or our 
jargon, from a modeling standpoint, an epidemiologist 
identifying it so the people on base understand exactly the 
type of information we're looking for.
    Mr. Stupak. OK.
    Dr. Sinks, of these 57 children with confirmed illnesses or 
children of interest, as you call them, how many of these 57 
are still alive?
    Mr. Sinks. I'm going to defer that to Dr. Bove. He may know 
that. I don't have the information.
    Mr. Bove. I don't have the information in front of me. I 
will have to get back to you.
    Let me say one thing though; that the neural tube defects, 
including in particular anencephaly, they die pretty much right 
after birth, so those would definitely be dead. Some of the 
spina bifida cases would be dead because the leukemias would be 
dead. So I would--but I will get back to you.
    Mr. Stupak. It doesn't sound like very many would be alive, 
then.
    Mr. Bove. The majority are still alive, as of the survey 
which is the last time we checked on their vital status. The 
majority are alive, but I don't have the exact number, and I'll 
get back to you with it. But whether they're alive or dead, 
they were in our study, and they stay in our study.
    Mr. Stupak. OK.
    Dr. Sinks, do you want to say something?
    Mr. Sinks. I was just going to add that most of the clefts, 
cleft palate, cleft lip, would not be fatal. We've had a 
tremendous success in treating childhood cancers over the past 
15-20 years, so I would think that a significant number of the 
kids with leukemia would have survived. And the neural tube 
defects, most of the spina bifidas, probably would still be 
alive.
    Mr. Stupak. If the Marine Corps provided you all the names 
of all the people who are living in Tarawa Terrace from; 1957 
until 1997, would that help you?
    Mr. Sinks. In terms of this childhood study or additional 
studies?
    Mr. Stupak. The information you need.
    Mr. Sinks. Well, we have the information we need.
    Mr. Stupak. I get the feeling you would study this thing to 
death if we let you. I am trying to bring this to some kind of 
end here.
    Mr. Sinks. We would be pleased with the opportunity to use 
our skills in environmental measurements in epidemiology to do 
more work. There's no question about it.
    Mr. Stupak. My time's just about up. You keep talking about 
water modeling, OK. That's TCE, PCEs, in the water, how much at 
certain times; like that, right?
    Mr. Sinks. It's more detailed than that. We have just a few 
data points that were collected between 1982 and 1985.
    Mr. Stupak. But there's no doubt in this area we're talking 
about Tarawa Terrace, Hadnot Point, people were exposed to TCE 
and PCE.
    Mr. Sinks. Well, certainly our water modeling----
    Mr. Stupak. You don't know if it's one glass of water that 
would trigger childhood leukemia or if it's 3 years of drinking 
the water, do you?
    Mr. Sinks. I wouldn't know how much it is.
    Mr. Stupak. Right. So why is water modeling so important 
when you have statistics like you show here, off the charts?
    Mr. Sinks. Because we don't rely simply on saying there's 
an association because somebody drank one glass and someone 
drank no glasses.
    Mr. Stupak. That's right. And you don't ask them how many 
glasses they drank. From a scientific point, they're exposed or 
they're not exposed.
    Mr. Sinks. No, that's not the point. The point is the risk 
increases with the amount somebody took. We do look for a dose 
response. It's very important for looking at causal 
relationships, and without it----
    Mr. Stupak. So what's the minimum you look for for exposure 
here at Camp Lejeune?
    Mr. Sinks. What do you mean by ``minimum?''
    Mr. Stupak. What's minimum exposure?
    Mr. Sinks. Minimum concentration?
    Mr. Stupak. No. What's the exposure? How many days do I 
have to be exposed before I would be included in your study? 
The question is, is are we categorizing people in an exposed 
category for having been in this area 1 day, 30 days, 60 days?
    Mr. Bove. We do everything on the month, not by the day.
    Mr. Stupak. How many months do I have to be exposed?
    Mr. Bove. For neural tube defects and for oral clefts, the 
timing of the dose would be first trimester. After the first 
trimester, no matter what you are exposed to, will not cause 
those outcomes. OK? They are caused early in the pregnancies. 
It's part of the difficulty of studying them. For the neural 
tube, it's day 20 of gestation to day 27.
    Mr. Stupak. So a 3-month period.
    Mr. Bove. Well, in that case, the third to fourth week of 
pregnancy, when the person doesn't even know they're pregnant 
oftentimes, is when the dose would cause that neural tube 
defect. OK. So it depends on the outcome. For childhood 
leukemia from the Woburn study, we get the idea that the 
exposures during pregnancy are more important--the exposures 
during gestation are more important than the exposures after 
birth, although there's still some controversy about that in 
the literature.
    Mr. Stupak. How long did it take you to do the Woburn 
study?
    Mr. Bove. There were two Woburn studies.
    Mr. Stupak. How long did it take to do two of them? Because 
we're on 10 years here.
    Mr. Bove. The first Woburn study started in 1982 and 
finished in 1987.
    Mr. Stupak. Five years.
    Mr. Bove. The second one started in the early 1990's and 
didn't finish until the late 1990's. The difference between 
Woburn and the Camp Lejeune study, there are several. First, 
they did not do groundwater transport. They just used the one 
sample they had, 267 parts per billion, and modeled the 
drinking water system.
    We're doing much more than that in terms of modeling. In 
order to determine when the contamination started, we don't 
know that without the modeling. The 1957 day you keep 
mentioning, we would have no idea without the modeling. We 
would have no idea what the levels were before 1980 because 
there are no data before 1980. In fact, we wouldn't know the 
levels pretty much until 1982 when we start getting some 
specific numbers for the particular VOCs.
    But we know that the exposures happened before that. The 
only way to know that is through modeling. There's no other way 
to do it. It takes a long time to do this kind of modeling. 
This is cutting-edge technology here we're talking about. 
There's no other study that's done this. I just want to get 
that across.
    Mr. Stupak. It would be a lot more--I won't even go there. 
Any other questions from this side?
    Mr. Whitfield. Just one more.
    General Dickerson, I would like to ask you a question. TCE 
was first detected in drinking water at the Wurtsmith Air Base 
up in Michigan in October 1977. And the Air Force officials 
immediately took steps to identify those wells, and within 1 
month they basically closed those wells down. Now, you were not 
the commanding general certainly at Wurtsmith which is an Air 
Force Base, and you were not commanding general at Lejeune. But 
in Lejeune, the first notice was in 1980 and then in 1982, and 
they didn't close these wells down until 1985. So a period of 3 
to 5 years at Lejeune for them to make that decision. From your 
personal knowledge or your discussion with other people 
involved, what was the difference in the speed of closing down 
Wurtsmith and Lejeune? Why was there that kind of discrepancy?
    General Dickerson. Sir, I can't speak for the Air Force on 
what they did. But I can say everybody at Camp Lejeune reached 
out to the State environmental, to the EPA, to everybody, to 
find out what was the causes of the VOCs in the water at the 
time, to find out what the impact was. They did not know. They 
didn't find out the source of the contamination until 1984 when 
they found the contaminated wells; and as soon as they found 
they were contaminated, they shut them down.
    There were no standards. That's part of the complicating 
factor here on what to expect. There were snarls that had been 
put out, but there was never any consistent data when they did 
sample the water. Now, I'm talking finished water to come up 
with the conclusion of what the impact was going to be on the 
consumption, once it was discovered that the wells were 
contaminated they shut the wells down.
    Mr. Stupak. Can I jump in?
    Mr. Whitfield. Sure.
    Mr. Stupak. The big black binder there, go to exhibit No. 
20, General. Because, man, when I read it as early as 1972, the 
Navy regulations regulated your water, what contaminants could 
be in. What could that be in, 1972? So all this stuff about 
standards in the 1980's doesn't make sense.
    When you look at exhibit No. 20, it says Navy regulations 
required regular drinking water testing, and although TCE and 
PCE are not specifically mentioned, these regulations set 
limits for chlorinated hydrocarbons at 3 parts per billion. 
That's lower than the 5 parts per billion EPA has right now. 
That's 1972.
    So in answer to Mr. Whitfield's question, I don't think 
that would be quite right, according to the exhibit from the 
Navy.
    General Dickerson. Sir, I am not familiar with this 
BUMEDINST description. But I can say the water was tested. All 
finished products were tested.
    Mr. Stupak. Based upon 1972 standards, right, sir?
    General Dickerson. I can't say that.
    Mr. Stupak. Read it. It says right there, 1972.
    General Dickerson. I see this. Yes sir.
    Mr. Stupak. So it's 1972, right? You see that?
    General Dickerson. I would hope it was by this instruction.
    Mr. Stupak. OK. So there was a standard as early as 1972. 
So your answer to Mr. Whitfield would not be responsive or 
accurate.
    General Dickerson. It was tested, but I cannot say 
specifically if these standards were employed at that time.
    Mr. Stupak. Well, Marine Corps was required to follow Navy 
regulations, were they not?
    General Dickerson. Marine Corps does follow Navy 
regulations.
    Mr. Stupak. Is it a violation of your military code if you 
ignore the regulations?
    General Dickerson. No, sir. We do not ignore any 
regulations. We hold ourselves to the highest standard.
    Mr. Stupak. So then, 1972 for hydrocarbons, 3 parts per 
billion.
    General Dickerson. If that's what this instruction says, 
yes, sir.
    Mr. Stupak. Exactly what it says. So you had a standard in 
the 1980's. Someone chose to ignore it.
    Ms. Dreyer. Sir, if I can add a little to this. Also 
suggested no adverse response level values which ranged from 
2,000, 2,300 down to----
    Mr. Stupak. That's not what the document says. Navy 
regulations says 3 parts per billion. You are required to 
follow Navy regulations if you are in the military, and Camp 
Lejeune would be one of those installations under Navy control. 
Therefore you would expect they would follow 3 parts per 
billion, would you not?
    Ms. Dreyer. I'm not familiar with that document either, but 
you would expect it. Let me also say that the source of the 
chemicals, the TCE and PCE was in the well water. When Camp 
Lejeune figured out that the well water was the source of these 
chemicals, the day they sampled that well, they shut the well 
down. Yes, it did take a long time between 1982 and 1984 when 
they actually sampled the well. This is during the time when 
there were concerns about asbestos-coated piping as well. And 
they did do some research to try to determine what was the 
cause of these chemicals. Ultimately it was determined to be 
the wells.
    So it didn't take a month, once the well was sampled and 
the chemicals were identified. It was more in terms of days.
    Mr. Stupak. Are you telling me the military's response is--
even though we know we are extremely higher than 3 parts per 
billion, way over our Navy regulations, we would continue to 
expose people because we can't find the source? That's 
ludicrous. If you are concerned about the health and safety of 
the people you are dealing with, if they're being exposed to 
it, you would bring in potable water, you would take other 
action. Your CID, Criminal Investigation Division, basically 
the investigation found that they were not forthcoming in 
questions, were not diligent in providing expertise, coached in 
their answers, steered away from admitting knowledge of organic 
interference from solvents.
    It's been there since 1972. Your people were exposed to it, 
and you didn't do anything.
    General Dickerson. I wouldn't say that the Marine Corps, 
that Camp Lejeune didn't do anything at that time. I will say 
that they did work closely with the State of North Carolina 
environmental to detect and find out what was contaminating the 
water, see what the level of contaminants were and what the 
impact was. They didn't know. There were no standards for these 
contaminants at that point in time. I understand the view of 
what you have pointed out to us today.
    Mr. Stupak. I yield back. Sorry.
    Mr. Whitfield. Ms. Dreyer, you are responsible today for 
the environmental restoration program for the Marine Corps; is 
that correct?
    Ms. Dreyer. Yes, sir.
    Mr. Stupak. So all of the bases around the U.S.?
    Ms. Dreyer. Yes, sir.
    Mr. Stupak. And are there other bases that are being 
operated today that have water problems, water quality 
problems?
    Ms. Dreyer. We have other bases across the Marine Corps 
that have these chemicals in the soil and groundwater. But I'm 
not aware that any of these chemicals have entered into the 
drinking water system or have impacted drinking water, no.
    Mr. Whitfield. OK. I yield back the balance of my time.
    Mr. Stupak. Mr. Walden, any questions?
    Mr. Walden. I just want to go back to this document, see if 
I understand what you are saying here. This is the one on tab 
20 that deals--25 August, 1972, the BUMEDINST 6240.3C, where it 
limits the chlorinated hydrocarbons. First, I am not a chemist. 
Did these two chemicals that we are referencing today fall 
under this category of chlorinated hydrocarbons?
    General Dickerson. I would defer that to----
    Ms. Dreyer. I believe they did, yes.
    Mr. Walden. That is a yes then?
    General Dickerson. Yes, sir.
    Mr. Walden. OK. So then the level that is referenced here 
on page six of that document, the 0.003 to 0.1 concentrations 
in milligrams per million, that would have been way below what 
you were reading coming out of the tap; right?
    General Dickerson. Yes, sir.
    Ms. Dreyer. Yes, that is correct. Generally, at that time 
period, the method detection limit or the laboratory's 
capability of detecting chemicals in water was generally about 
10. If Camp Lejeune officials during that time got a reading of 
10, it could be reported as nondetect or otherwise not present 
in the sample. That is correct.
    Mr. Walden. And at that time, what were their readings?
    Ms. Dreyer. They varied. That was part of the problem. In 
many instances they would have nondetect. We have seen as high 
as 1,400 in tap water. I will point out that 18,000 figure is 
from a well sample. And that well would not have been provided 
directly to anybody to drink. It would have been transported to 
the water treatment plant and mixed with other wells that were 
pumping at that time. So the highest reading that I am aware of 
right now at the Hadnot Point system is 1,400 parts per 
million, which is well above today's standard.
    Mr. Walden. Was it above this standard from the 1972 
document?
    Ms. Dreyer. It would be, because this is three, and that 
would be five, and the only question I would have--and I am not 
a laboratory analyst, so I don't know what the method detection 
limit was. It could have been 5; it could have been 10. It 
varied depending upon the laboratory and their credentials.
    Mr. Walden. And who was in charge then at Camp Lejeune to 
make sure that these levels were being followed?
    General Dickerson. All of the officials, sir. All of the 
officials at Camp Lejeune would have been in charge, just like 
they are today, monitoring this, trying to detect what the 
levels of the particles are per----
    Mr. Walden. And General, have you gone back and looked to 
see if anybody who was in charge over the last 20 years did 
anything when a detection level exceeded the one listed here 
occurred? Is there any documentation that would indicate 
somebody said, wait a minute, we are over the limit?
    General Dickerson. I can say that there has been an EPA 
Criminal Investigative Division investigation, there has been a 
GAO investigation, and six separate studies, to include the 
Commandant's panel looking into the past to find if there was 
any wrongdoing. And everybody has come back and said there were 
no criminal intentions. Everybody did the best with the 
information they had at the time. Unfortunately, some of the 
levels on a day-to-day basis were above the acceptable levels 
for drinking water.
    Ms. Dreyer. If I can add to that, the base chemist at Camp 
Lejeune during the early 1980's did make handwritten notes on 
some analytical data suggesting that it was highly 
contaminated, and that is in the record. I will also note that 
the Navy, the chairman mentioned a quote about LANTDIV. LANTDIV 
is the Atlantic Field Division of the Navy Facilities 
Engineering Command. And during the early 1980's, I don't know 
when it transitioned to Camp Lejeune, but during the early 
1980's and possibly before that, the Navy was supporting the 
Marine Corps with some engineering services, including this 
water sampling. And that is part of trying to reconstruct the 
history and figure out, when did Camp Lejeune know? It is 
unclear to us even today. But we do have the information that, 
in the 1980's, we had interferences, and we do have analytical 
data in 1982.
    Mr. Walden. So then I just want to make sure I understand 
what you are saying, what did you say, the LAN----
    Ms. Dreyer. The Navy, one of the field divisions of the 
Navy.
    Mr. Walden. So they were maybe responsible for ensuring 
that these regulations were followed, water was----
    Ms. Dreyer. They were conducting the water sampling and 
analysis. And at that time, they were trying to comply with the 
future regulation of the disinfection byproduct process, TTHMs. 
And that is when this all came about, when they were gearing up 
to find out if those chemicals were in the water. And they were 
masked by these other chemicals when those came to light.
    Mr. Walden. I see. I guess what I am struggling with, and I 
imagine some of my colleagues are, is, if you were seeing this 
pollutant in the tap water, wouldn't it have made sense in less 
time than 4 years to go to the sources and see where it was 
coming from?
    Ms. Dreyer. Yes, it does.
    Mr. Walden. We are looking back, so we have got 20/20 
vision.
    Ms. Dreyer. That is correct. And through my research, 
through everyone's research, including the first panel, the 
second, all three panels, we have all been trying to figure out 
what happened. We are looking back 20 years, trying to put it 
into context, trying to figure out, could we have done things 
better? Should we do things better? But trying to reconstruct 
that is very, very difficult.
    Mr. Walden. Right. I am not trying to pit one branch 
against the other. My understanding is the Air Force took that 
action in a matter of what, a month's time or something when 
they discovered at Wurtsmith that the tap water was bad. They 
went right to the wells.
    Ms. Dreyer. Right.
    Mr. Walden. So why wouldn't that have occurred?
    Ms. Dreyer. I am not familiar with their water distribution 
systems. I really think it would be more appropriate if they 
were in the room to answer. But we could have different 
systems. I am not sure.
    Mr. Walden. General, did you have something?
    General Dickerson. Sir, I would just add, if this was to 
occur today and there were no levels that had been determined 
by the EPA, the water would be shut down until they could find 
the ingredient that is being introduced into the water. We have 
learned a lot from what happened back in the early 1980's.
    Mr. Walden. Yes.
    General Dickerson. We had to rely upon the science, the 
data that is coming out of ATSDR to find out what was the 
impact.
    Mr. Walden. And I hope you understand where we are coming 
from. We want to make sure it never happens again first. And 
that is our job on the oversight committee all the time is to 
figure out, what went wrong; why did it go wrong; and how do we 
prevent it from going wrong again on all these topics we take 
up. But second is, I think you hear the passion in our voices 
about taking care of those especially who have worn our 
Nation's uniform, who have been injured by this. And I realize 
you are doing the studies and all that, but these people are 
sick and dying along the way and fighting for benefits and help 
for illnesses that it looks to me like there is a pretty good 
relationship here. But I am not a scientist. But we need to 
take care of those people.
    General Dickerson. Our most precious resources are our 
Marines and families, and we are going to do everything 
possible to take care of them.
    Mr. Walden. I am sorry to interrupt you. I am going to run 
out of time here. I want to go to one other point you said, 
because you talked about, you got a letter notifying you of 
potential health risks from Camp Lejeune.
    General Dickerson. Yes, sir.
    Mr. Walden. Do you know how many of those letters went out?
    General Dickerson. It was my information and knowledge that 
everybody living on the base got one of those official letters. 
Now whether they were received or not I cannot testify to this 
committee.
    Mr. Walden. I understand, but this is everybody living on 
the base at the time you were living on the base?
    General Dickerson. Yes, sir.
    Mr. Walden. Not that they tracked down those who had lived 
on the base.
    General Dickerson. No, sir, at that point in time, from the 
commanding general, it was those who were living on the base.
    Mr. Walden. At that time?
    General Dickerson. Yes, sir.
    Mr. Walden. This would explain why some people in the room 
say I didn't get a letter, because they may have not been 
living on the base at that time. Is that correct?
    General Dickerson. To my knowledge, that is correct, yes, 
sir.
    Mr. Walden. So I think the other piece we are after here 
is, what would it take to reach out to anybody who had lived on 
the base? I am assuming somewhere in their military files that 
OSD has, or somebody, there is a chronology of where everybody 
was at any time, or Camp Lejeune probably has records that 
would indicate who lived there and who didn't. Is that correct?
    Ms. Dreyer. There is a lot of information out there about 
that. I will say that, upon conclusion of the ATSDR study, the 
Marine Corps is going to conduct full notification in 
conjunction with ATSDR to get the result, not only the 
potential exposure but the effects of that. What does it mean?
    Mr. Walden. Sure.
    Ms. Dreyer. Right now, the Marine Corps, ATSDR has just 
completed their water modeling, so they have their estimations 
of how much people may have been exposed to. They mentioned 
also that they have not yet completed the Hadnot Point water 
modeling system. So those people still don't have answers to 
these important questions. The third thing that they don't have 
yet is, what does this mean? And I think you are getting at 
that here. We know that people were exposed. We know there were 
chemicals in the water. What does that mean? A lot of people 
want to know that same question. I know ATSDR does. That is why 
we need to have the study completed. But one other thing, it is 
not as easy to contact people individually, especially prior to 
the early 1970's, when people did not have Social Security 
numbers, and they had service ID numbers in the military. So 
that would be a very difficult and laborious task. We could 
try. But I could never commit to finding 100 percent of people 
who may have been exposed that. It would be very difficult. The 
best way to reach them is probably through mass media and every 
alternative possible, being as broad as possible.
    Mr. Walden. We just don't want to leave anybody behind.
    Ms. Dreyer. I agree, sir.
    Mr. Whitfield. Mr. Chairman, I would just like to make a 
comment. All of us have the highest respect and admiration for 
our men and women serving in the military, and those who have 
served, but I think the bottom line of this incident at Camp 
Lejeune can be summarized in just a few comments from the EPA 
Criminal Investigation Division of the Naval Facilities 
Engineering Command Atlantic Division on this incident. And 
they said, in a number of different places, this investigation 
found the staff of the LANTDIV was not forthcoming when 
questioned about these issues. This investigation found that 
LANTDIV as a technical advisory organization to Camp Lejeune 
was not diligent in providing the technical expertise on this 
issue. LANTDIV personnel consistently steered away from 
admitting any knowledge of organic interference from solvents. 
The biggest area of concern were the seemingly rehearsed 
statements provided by the personnel of LANTDIV. The greatest 
concern lay in the fact that investigators found LANTDIV 
personnel to have been coached. Something I think there may not 
have been any criminal charges, but I think it is a sad day 
that the investigation shows quite clearly that people were not 
forthcoming. And like I said, we are very proud of our 
military, but I think, in this incident, the military 
leadership failed the men and women who serve this country and 
their families.
    General Dickerson. Sir, if I could comment on that, it 
would be beneficial if you could get representatives from 
LANTDIV to answer that question directly.
    Mr. Stupak. We plan on having them in. I just don't do one 
hearing and stop it. This thing is going to go on. LANTDIV is 
the Naval Facilities Engineering Command Atlantic Division. So 
the military certainly knew about it. And as Mr. Whitfield 
didn't say, he didn't go on and talk about even far more, that 
it wasn't until 1984 that the Natural Resources Environment 
Affairs Division at Camp Lejeune personnel ever sampled 
individual wells, as opposed to finished drinking water at the 
water treatment plants. Self-admittedly, this was the most 
significant lapse in judgment. Not only didn't do it until 
1984, but you actually had your Naval regulations in 1972, so 
for 12 years they did nothing because your Naval regulations 
under tab number 20 is very clear, the presence of the 
following substances in excess of the concentrations listed 
shall constitute grounds for rejection of supply--rejection of 
the water supply; 3 parts per billion. You were way over that. 
Way over that. Your own rules said you should have rejected it. 
And you didn't do anything. So that is why we are here.
    This, also, lack of notice; you can't notify people. When 
you take a look at the report, whether it is GAO, they tell you 
how many people were on base, how many people came on base. I 
can't believe the military cannot provide that information to 
either, whether it is Dr. Sinks' group or whatever, or they 
could get a letter, like you indicated. My chief of staff here 
sits here and says, man, I moved three times in the last few 
years, but still I get a recall notice on a car that I owned 
three moves ago. And if a private company can still notify you 
about your clunker, which is probably already no longer on the 
road, but can give you recall notices, I would think the 
military could contact people who were exposed. And I would go 
from 1957 until 1987, that 30-year period. I just can't believe 
you can't do that. That's inconceivable to me.
    Any further questions? We will dismiss this panel. Thank 
you.
    Dr. Sinks, you had something you wanted to add?
    Mr. Sinks. Yes, just to remind you that we are involved in 
the feasibility study. The feasibility study is looking at 
adults. It would look at cancer incidence and total mortality. 
We are working with the Department of Defense to identify 
records of individuals who were at Camp Lejeune during that 
time period. And we have had a good amount of cooperation from 
them to determine if we can get access to those records and 
construct the cohort of individuals you are suggesting.
    Mr. Stupak. I am sure if you are wanting all these studies 
done, I am sure if you just reach out to those people who were 
exposed to TCEs and PCEs from 1957 to 1987 in Camp Lejeune, 
sent them a letter and put it in their hot little hand, so 
there is no dispute whether or not they got notice, I am sure 
they would give you a waiver so you could get all the medical 
records you wanted. But until they get that letter, they have 
got to rely on media. And even though we have a little coverage 
of this hearing today, 99 percent of them will never hear about 
this hearing we had today. That's why it is so important to 
have direct contact with those individuals. And those people 
who were off base but worked on base, they certainly drank that 
water, too. Thank you.
    Mr. Stupak. All right. Our next panel, a third panel, as 
this panel vacates, I will ask the following witnesses to come 
forward for our third panel: Dr. Peter Murtha, Director of 
EPA's Office of Criminal Enforcement; Mr. Tyler Amon, Special 
Agent for EPA's Criminal Investigation Division; Mr. Frank 
Hill, Director of Superfund Division at EPA's Region 4 Office; 
and Dr. Marcia Crosse, Director of Public Health and Military 
Health Care issues in the Government Accountability Office, 
GAO.
    Mr. Amon, are you going to testify? OK. We got everybody at 
the table.
    As you know, it is the policy of this committee to take 
testimony under oath. Please be advised that, under the rules 
of the House, you have the right to be advised by counsel 
during your testimony.
    Any of you wish to be advised by counsel during your 
testimony? There are no indications. I think everyone does not 
wish to be represented by counsel. I am going to ask you to 
rise and raise your right-hand, please.
    [Witnesses sworn.]
    Mr. Stupak. I would like the record to reflect all 
witnesses answered in the affirmative. We will now begin with 
our 5-minute opening statements from our witnesses. We will 
start on the righthand side.
    Mr. Murtha.

  STATEMENT OF PETER J. MURTHA, DIRECTOR, OFFICE OF CRIMINAL 
ENFORCEMENT, FORENSICS AND TRAINING, OFFICE OF ENFORCEMENT AND 
   COMPLIANCE ASSURANCE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Murtha. Thank you, Mr. Chairman and members of the 
subcommittee, I am Peter J. Murtha, and have been Director of 
the Office of Criminal Enforcement, Forensics and Training, at 
U.S. EPA since November 2003. Previously, I spent over 16 years 
as a Federal prosecutor. Thank you for inviting me to appear 
today to discuss the agency's criminal investigation relating 
to contaminated drinking water at Camp Lejeune and the decision 
not to proceed with Federal criminal charges. Mr. Chairman and 
members of the subcommittee, EPA respects your oversight 
interests.
    I would like to acknowledge that Special Agent Amon is 
present here today at the committee's request. However, I would 
like to note for the record that EPA has objected to the 
subcommittee seeking the testimony of a field agent such as 
Special Agent Amon. We have outlined our reasons and offer of 
accommodation in a letter that we sent to the subcommittee. 
Nonetheless, given the unique and compelling circumstances 
surrounding this hearing, Special Agent Amon is available to 
testify if the subcommittee finds that necessary.
    In bringing this investigation, we were acutely aware of 
the anguish and deeply held feelings of the former military and 
civilian residents of Camp Lejeune who brought the allegations. 
And I can say that we were especially careful to conduct this 
investigation as comprehensively as possible. The criminal 
investigation was opened in October 2003. The investigation was 
conducted by a senior criminal investigator out of the CID's 
division in Charlotte, North Carolina. I have conferred 
extensively with that investigator for my testimony here today. 
The investigation was also closely monitored by CID 
headquarters in Washington. Close and ongoing consultation was 
maintained with both DoJ's Environmental Crimes Section and the 
U.S. Attorney's Office in Raleigh, North Carolina. 
Investigators examined events surrounding the generation of the 
1980 through 1982 water sampling results provided by the U.S. 
Army Environmental Hygiene Agency and by the Grainger 
Laboratory. The latter report definitively identified the 
presence of TCE and PCE in Camp Lejeune's drinking water in 
1982.
    The initial reaction to and decisions made by the military 
after having received these two sets of data was important 
background information for the investigation. CID investigators 
interviewed 26 individuals, including personnel from Camp 
Lejeune and the Navy Facilities Engineering Command Atlantic 
Division, or LANTDIV, which had oversight responsibility for 
environmental conditions at the base during this period; 
consulted extensively with an expert in public health and 
drinking water regulation; and reviewed thousands of pages of 
relevant documents during the course of this investigation. 
After about 18 months of investigation, and a thorough review 
of all the pertinent evidence, the agency and DoJ mutually 
agreed that criminal charges should not be sought in this 
matter. That decision was primarily based on the following 
findings.
    First, the Safe Drinking Water Act provided no enforceable 
limits on TCE and PCE at the time that military officials 
became aware of the presence of these chemicals in the water 
supply at the base. EPA did not pass enforceable regulations 
relating to these chemicals until 1989 and 1991, respectively.
    I should also mention, parenthetically, even if those 
standards had been in place, the Safe Drinking Water Act does 
not provide criminal penalties for knowingly providing drinking 
water which violates standards. Rather, the act only provides 
criminal penalties for introducing contaminants with specific 
intent to harm.
    Second, the statute of limitations for all substantive 
Federal crimes is 5 years. Thus, even had there been criminal 
conduct committed in the 1980's, it would not have been 
prosecutable in 2005 unless it formed a part of a criminal 
conspiracy that continued to a point within the limitations 
period. The investigation found no such ongoing conspiracy by 
any persons with a role providing drinking water at Camp 
Lejeune. The investigation concluded that there was no 
conspiracy to conceal records and prevent persons from talking 
with ATSDR regarding the congressionally mandated health study 
or to conceal FOIA records from the public. The investigation 
further determined that the Marine Corps did not make false 
statements to Federal investigators and that there was no basis 
on which to prosecute LANTDIV personnel for false statements or 
obstruction of the investigation.
    Finally, with regard to the allegations regarding the 
ATSDR, the investigation did not substantiate allegations of a 
conspiracy to improperly administer its health study or destroy 
ATSDR records.
    In summary, DoJ and EPA concluded that when all the 
available evidence was considered under the environmental 
requirements applicable at the time of the relevant activities 
in this case, the evidence did not support the bringing of 
Federal criminal charges. Harm occurred at Camp Lejeune and 
individuals suffered. However, after a thorough investigation, 
it was determined that the criminal enforcement process was not 
a viable means of addressing those wrongs. Thank you for the 
opportunity to testify here today, and I would be glad to 
answer any questions from the subcommittee.
    [The prepared statement of Mr. Murtha follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. OK. Thank you.
    Mr. Amon, you wish to say anything?
    Mr. Amon. I have no opening remarks.
    Mr. Stupak. OK. Dr. Crosse?

  STATEMENT OF MARCIA G. CROSSE, DIRECTOR, PUBLIC HEALTH AND 
  MILITARY HEALTH CARE ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Ms. Crosse. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today as you examine issues relating to 
drinking water contamination at Camp Lejeune. My remarks today 
are based on GAO's recent report on efforts to identify and 
address the past contamination; the provision of funding and 
information from DoD to ATSDR for its work; and an assessment 
by an independent panel of experts of the design of the current 
ATSDR health study.
    Efforts to identify and address past drinking water 
contamination at Camp Lejeune began when the Navy started water 
testing to prepare for upcoming drinking water regulations. In 
1980, volatile organic compounds, VOCs, were first detected 
during an analysis that combined treated water from all base 
water systems. During the same year, the Navy began monitoring 
Camp Lejeune's treated water for total trihalomethanes, TTHMs, 
contaminants that are a byproduct of the water treatment 
process. These tests reported interference from unidentified 
chemicals. In 1982 and 1983, additional testing identified two 
VOCs, trichloroethylene, TCE, a metal degreaser, and 
tetrachloroethylene, PCE, a dry cleaning solvent in the Hadnot 
Point and Tarawa Terrace water systems. Sampling results 
indicated that the levels of TCE and PCE found in the treated 
water varied.
    Former Camp Lejeune environmental officials told us that 
they did not take action to address the contamination because, 
at that time, they had little knowledge about TCE and PCE, and 
there were no drinking water regulations that gave enforceable 
limits for these chemicals. In addition, the variation in water 
testing results raised questions about the validity of the 
tests. Camp Lejeune officials told us that, in retrospect, it 
was likely that rotation of wells in these water systems 
contributed to the variation in results.
    Also, in 1982, a Navy environmental program began 
investigating potentially contaminated sites at many Marine 
Corps and Navy bases, including Camp Lejeune. Testing initiated 
under that program in 1984 and 1985 identified individual wells 
in the Hadnot Point and Tarawa Terrace water systems that were 
contaminated with TCE, PCE and other VOCs. Ten wells were 
subsequently removed from service in late 1984 and early 1985.
    Since 1991, ATSDR has been examining whether individuals 
who were exposed to the contaminated drinking water are likely 
to have adverse health effects. DoD is required to provide 
funding and data as necessary for ATSDR to carry out certain 
health-related activities, including Public Health Assessments. 
In conducting its Camp Lejeune related work, ATSDR has not 
always received requested DoD funding and has experienced 
delays in receiving information from DoD. For example, for 3 
out of the 16 fiscal years, no funding was provided by any DoD 
entity to ATSDR for its Camp Lejeune related work because the 
agencies could not reach agreement about the funding. ATSDR 
also had difficulties getting documents needed from Camp 
Lejeune while it was conducting a Public Health Assessment for 
the base. However, ATSDR officials told us that, while funding 
and access to records were probably slowed down and made more 
expensive by DoD, this did not significantly impede ATSDR's 
efforts. These officials also stated that situations such as 
limitations in access to data are normal during the course of a 
study.
    ATSDR's current study is examining whether individuals who 
were exposed in utero are more likely to have developed certain 
childhood cancers or birth defects. To review the design of 
this study, we contracted with the National Academy of Sciences 
to convene an expert panel. Panel members generally agreed that 
many parameters of the current study are appropriate, including 
the study population, the exposure time frame and the selected 
health effects. Some panel experts said that the projected 
December 2007 completion date appeared to be reasonable, while 
others said that the date might be optimistic.
    Finally, these experts said that the ATSDR study could be 
strengthened by expanding it to include an additional 
comparison population of individuals who were not exposed to 
the contamination but that this would likely extend the time 
needed to complete the study. They also noted that while the in 
utero population being studied was the most vulnerable to the 
contamination, other health conditions, such as adverse 
neurological or behavioral effects and pregnancy loss, could be 
related to this exposure.
    Mr. Chairman, this concludes my prepared remarks. I would 
be happy to respond to questions that you or other members of 
the subcommittee may have.
    [The prepared statement of Ms. Crosse follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you.
    Mr. Hill, you opening statement, please?

STATEMENT OF FRANKLIN HILL, DIRECTOR, SUPERFUND DIVISION, U.S. 
           ENVIRONMENTAL PROTECTION AGENCY, REGION 4

    Mr. Hill. Mr. Chairman and members of the subcommittee, I 
am Franklin Hill, Director of the Superfund Division for the 
U.S. Environmental Protection Agency in region 4 in Atlanta.
    The Superfund Division oversees cleanups of private and 
public property that is on the National Priorities List, a list 
of the country's most polluted sites. And we do that with a 
goal of protecting human health and the environment.
    Currently, there are 165 private sites and 19 Federal sites 
on the NPL in region 4. I appreciate the opportunity to provide 
you with an overview of EPA's involvement in the Superfund 
cleanup activities at Camp Lejeune Military Reservation and 
Marine Corps Base. During the 18 years that EPA has been 
involved in cleanup at Camp Lejeune, we have made significant 
progress in cleaning up contaminated soil and groundwater. To 
date, we have selected remedies at 30 sites within Camp Lejeune 
and anticipate selection of the last remedy in the year of 
2011. EPA region 4 received a letter dated April 25, 1986, from 
the Department of the Navy which provided sampling data from 
water samples taken from groundwater monitoring and drinking 
water wells at Camp Lejeune. The letter informed EPA that the 
Navy had shut down 10 drinking water wells at Camp Lejeune 
because 1985 sampling results showed contamination in those 
wells. The State of North Carolina, in a separate 
investigation, concluded that the likely source of 
contamination found in two of those wells was the ABC One-Hour 
Cleaners, a private business located outside the boundaries of 
Camp Lejeune. Subsequent investigations have revealed 
additional sources of groundwater contamination.
    The ABC One-Hour Cleaners: the ABC Cleaners site is located 
at 2127 Lejeune Boulevard Jacksonville, Onslow County, NC and 
encompasses an area of approximately 1 acre. In 1984, as part 
of a routine water quality evaluation, the Navy collected 
groundwater samples and determined that volatile organic 
compounds, including dichloroethylene, trichloroethylene and 
tetrachloroethylene, were present in 10 of 40 well samples. Two 
of the 10 wells were located within the Camp Lejeune Tarawa 
Terrace well field in the vicinity of the ABC Cleaners.
    In 1985, the Wilmington Regional Office of the Division of 
Environmental Management, North Carolina Department of Natural 
Resources and Community Development, conducted a groundwater 
pollution study to find the source of PCE in wells within the 
Tarawa Terrace well field. The study concluded that most likely 
the source of groundwater contamination was ABC Cleaners. The 
ABC One-Hour Cleaners was proposed to the National Priorities 
List by EPA on June 24, 1988, which became final on March 31, 
1989.
    A record of decision, as we refer to as a ROD, for 
contaminated groundwater was signed in 1993 and required 
remediation of VOC-contaminated groundwater by a treatment 
system. A second ROD was signed in 1994 to address soil 
contamination using soil vapor extraction. The SVE system has 
been operating since August 2000 to remove a source of 
groundwater contamination. ABC Cleaners site is a private 
Superfund lead site and is not part of the Camp Lejeune 
military base. However, contaminated groundwater from ABC 
Cleaners has migrated onto the base.
    The responsible parties have been identified by EPA as the 
ABC Cleaners owners and operators. On July 17, 2000, EPA 
entered into an Administrative Order of Consent with ABC 
Cleaners and its owners and operators for settlement. The AOC 
required that, if settling parties ever receive payment on an 
insurance claim, then 50 percent of any insurance proceeds must 
be paid to EPA. At this time, the terms of the settlement have 
been completed, and there is no evidence that the parties 
collected insurance money.
    Camp Lejeune: Under CERCLA, section 120, the EPA has 
evaluated releases at this Federal facility using its Hazard 
Ranking System criteria. The EPA conducted an initial 
investigation in 1988 and proposed Camp Lejeune for the NPL on 
June 24, 1988, which became final on October 4, 1989. The basis 
for the listing of Camp Lejeune on the NPL was pesticide-
contaminated soil at an area on the base where pesticides were 
mixed and application equipment were cleaned.
    Pursuant to CERCLA 120(e)(2), an interagency agreement, 
referred to as a Federal Facilities Agreement, was signed by 
EPA and the Navy and the State of North Carolina in February 
1991. The FFA requires, among other things, that the facility 
prepare a Site Management Plan for EPA approval that identifies 
all of the sites and operating units that require further 
investigation and/or response action by the Navy. The Navy's 
Installation Restoration Program is responsible for 
implementation of the CERCLA cleanup under the FFA. The Site 
Management Plan also includes a list of enforceable milestones 
related to CERCLA that are enforceable by EPA.
    Additional activities: 46 sites have been identified for 
cleanup at Camp Lejeune. The Navy and EPA have selected 
remedies for 30 of those sites, and the remaining 16 are under 
active investigation. The first ROD was signed in September 
1992 and addressed contamination of groundwater in the Hadnot 
Point area. Remedies to address groundwater contamination 
include groundwater pump and treatment systems, in situ 
chemical oxidation, and monitoring natural attenuation. Six 
pilot studies are under way to evaluate treatment options for 
remaining VOC-contaminated groundwater areas at Camp Lejeune. 
EPA prepared 5-year review reports in November 1999 and 
February 2005, which evaluated the protectiveness of selected 
remedies. Below is a summary of the cleanup. Eleven pilot 
studies have been completed or are under way to evaluate 
remediation techniques for volatile organic compounds. Removal 
actions have been completed at two sites, which resulted in 
disposal of 696 tons of PCB-contaminated soil and source 
treatment of 7,500 cubic yards of dense nonaqueous phase 
liquids. A removal action is under way to treat VOC-
contaminated groundwater of depths of 20 to 47 feet below 
ground surface. Two RODs were signed in 2006. One ROD required 
treatment of contaminated groundwater underneath a half acre of 
the base. This remedy is underway.
    The other ROD determined that no action was necessary. One 
Operable Unit has met its remediation goals and achieved site 
closure. Three sites have undergone site investigations, with 
two requiring no further action, and the remaining site 
requiring a soil removal. At this point in time, Camp Lejeune 
is scheduled to have the last remedy selected by 2011 and all 
remedies in place by 2014.
    In conclusion, in the 18 years since EPA listed Camp 
Lejeune on the NPL, 46 sites have been investigated. To date, 
there are 19 signed RODs, encompassing 30 sites at the Camp 
Lejeune base, which reflect a remedy selection rate greater 
than one ROD per year. The remaining 16 sites are undergoing 
active investigation. EPA anticipates that the last remedy will 
be in place by 2015. Thank you for this opportunity, and I am 
available to answer questions.
    [The prepared statement of Mr. Hill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stupak. Thank you.
    We will begin questioning. Mr. Hill, if I may start with 
you, you said you are going to finish in up by 2015?
    Mr. Hill. Well, in the Site Management Plan, that is the 
schedule to address getting the remedies in place. Now what I 
will tell you is that those remedies will go on for years after 
2015. Pump and treat is a complicated technology.
    Mr. Stupak. I am familiar with it.
    Mr. Hill. And it takes quite some time to get there.
    Mr. Stupak. Camp Lejeune was listed in 1989. That was when 
it was final, you said. Here we are 18 years later, and nothing 
has been cleaned up; has it?
    Mr. Hill. Well, we have a couple of sites that we have 
removed, or we have decided that they have reached their 
remedial goals. We have had some soil----
    Mr. Stupak. You are close?
    Mr. Hill. We have had a number of cleanups on the site. So 
the answer to your question, sir, is yes, there have been some 
cleanups.
    Mr. Stupak. Of the 46 sites, how many have been cleaned up?
    Mr. Hill. That is a good question. I don't want to guess at 
that, but I know that there are several removals that have been 
completed.
    Mr. Stupak. OK.
    Mr. Hill. I can get you those specifics, but I don't have 
the specific numbers.
    Mr. Stupak. You won't even get to your last ROD, I think 
your testimony said, until, what, 2014?
    Mr. Hill. Right.
    Mr. Stupak. Your Record of Decision; so that is 25 years 
after Camp Lejeune was named a Superfund site. What is causing 
the delay? Lack of money? Lack of resources? Why delay? Why 25 
years?
    Mr. Hill. Well, I think it is a combination of things. I 
think it is, resources, clearly, is one option or one issue.
    Mr. Stupak. Who should be providing the resources for this? 
EPA? DoD? Who should be providing the resources to clean up 
Camp Lejeune?
    Mr. Hill. DoD should be providing those resources.
    Mr. Stupak. OK. Has DoD been forthcoming in bringing 
resources to the table to help clean up Camp Lejeune?
    Mr. Hill. They have been. Of course, as all budgets, we are 
seeing those budgets start to diminish.
    Mr. Stupak. But the pollution at Camp Lejeune is not 
diminishing.
    Mr. Hill. I would say that it is. Based upon some of the 
monitoring data, those numbers are going down.
    Mr. Stupak. Based upon migrating over somewhere else or 
where?
    Mr. Hill. No. Actually, we have three pump and treat 
systems in place right now at the Hadnot Point area. And we can 
demonstrate from the monitoring data that those concentrations 
that were listed in the GAO report are now going down.
    Mr. Stupak. The part that bothers me a little bit, you 
mentioned ABC Cleaners, which is just on the outside of Camp 
Lejeune. The ROD was what, 1989, and it was cleaned up in 1994? 
It took about 5 years to do that. That is on an acre. And that 
was the contamination that drifted over to Tarawa Terrace. How 
come you got that one cleaned up in like 5 years, and yet we 
are 25 years and not even getting cleaned up?
    Mr. Hill. Chairman, let me correct you. First of all, ABC 
Cleaners is not cleaned up. We have a remedy in place, and it 
is construction complete. We have built a groundwater pump and 
treat system, and we have an SVE system addressing soils on-
site.
    Mr. Stupak. So it is still going?
    Mr. Hill. It is still going.
    Mr. Stupak. So the ROD was 5 years.
    Mr. Hill. Right.
    Mr. Stupak. And your last ROD still isn't done for Camp 
Lejeune. So there is a pumping station. How long will that go 
on, that pumping station at ABC Cleaners?
    Mr. Hill. It will go on until we achieve the remedial goals 
for that site. And right now, we are looking at North Carolina 
standards, which is about 2.8 parts per billion for TCE. So 
that is quite a conservative number. And it will take us some 
time to achieve that.
    Mr. Stupak. OK. Thank you.
    Mr. Amon, were you here for the first panel testifying? 
Were you in the room?
    Mr. Amon. Sir, I believe I walked in towards the end of 
that testimony.
    Mr. Stupak. All right. Are you familiar with Mr. Ensminger?
    Mr. Amon. I am.
    Mr. Stupak. OK. In his written testimony, he states you 
told him you recommended criminal charges against certain 
subjects. That was part of your investigation. Is that correct?
    Mr. Amon. That is not correct.
    Mr. Stupak. OK. You didn't make any recommendations?
    Mr. Amon. I just collect the facts, the evidence, and 
present that to my supervisors, and then, in this case, the 
Department of Justice, for consideration.
    Mr. Stupak. OK. Do you present that in writing or orally?
    Mr. Amon. Both.
    Mr. Stupak. OK. And you made no recommendations of any 
charges?
    Mr. Amon. That is correct.
    Mr. Stupak. OK. And why did you recommend no criminal 
charges?
    Mr. Amon. In this matter, based upon the evidence in all 
forms that I was able to review, I presented that to the 
Department of Justice, I presented that to my supervisors, and 
based upon that analysis, a determination was made that the 
statute did not call for Federal charges. And I concurred with 
that analysis.
    Mr. Stupak. OK. I realize, and testimony has been clear, 
that Justice Department decided not to prosecute because of a 
lack of EPA standards on TCE and PCE in drinking water in the 
early 1980's. But given the report that we reviewed, and I 
believe it is your report, that the evidence of witness 
coaching and witnesses not being forthcoming, shouldn't you 
have at least thought about obstruction of justice charges?
    Mr. Amon. And those charges were considered.
    Mr. Stupak. So criminal charges were considered on 
obstructing justice?
    Mr. Amon. That is correct, sir.
    Mr. Stupak. OK. And then who determined not to bring forth 
the charges?
    Mr. Amon. The Department of Justice ultimately makes 
decisions on what is charged.
    Mr. Stupak. Did you recommend that there would be 
obstruction of justice charges brought forth? Did you 
recommend?
    Mr. Amon. Did I personally, Tyler Amon?
    Mr. Stupak. Yes.
    Mr. Amon. In this matter, specifically as it pertains to 
the obstruction charges that you are indicating from, I 
believe, a report that I generated during the course of this 
case, I concurred with the Department of Justice's decision not 
to proceed with charges.
    Mr. Stupak. OK. But I am trying to ask you, did you 
recommend that obstruction charges be brought? Obstruction of 
justice charges.
    Mr. Amon. As a field agent, recommend is an action that is 
not----
    Mr. Stupak. OK. When you do your investigation, you send it 
to the prosecutor for action; right?
    Mr. Amon. That is correct.
    Mr. Stupak. And you indicated you submitted that written 
and orally; correct?
    Mr. Amon. That is correct.
    Mr. Stupak. So, in your oral discussions with Justice 
Department, did you ask for, did you seek obstruction of 
justice charges?
    Mr. Amon. In my report, which would be written, I do 
identify areas of concern related to obstruction of justice; 
that is correct.
    Mr. Stupak. Correct. OK. So did you ask for a warrant? Let 
me put it bluntly.
    Mr. Amon. No, I did not.
    Mr. Stupak. OK. How about the doctor who destroyed the 
records as to the telephone logs? Did you ask for obstruction 
of justice there?
    Mr. Amon. I am sorry, refresh my memory.
    Mr. Stupak. Page 56 of your report, if you have it there in 
front of you, unredacted report. You must have it with you 
there; right? It is on page 56.
    Mr. Amon. That is correct. I see that here. Could you 
repeat the question, please?
    Mr. Stupak. Sure. And if you go down there, that report, 
about third paragraph says, while it is not clear blank gave a 
direct order to destroy the records, it is clear that blank 
fully expected and specifically advised blank not to take any 
Camp Lejeune records from the Division of Health Studies. And 
you go down that those records never made it to the records, 
and they were destroyed. Did you recommend obstruction of 
justice charges there?
    Mr. Amon. Sir, in regard to the ATSDR records, those 
records actually never were destroyed.
    Mr. Stupak. OK. Not the ATSDR, but the individual's notes. 
And those notes are important because it identifies names, 
numbers and medical information that this individual had 
conducted over a year in their capacity. And those personal 
records were destroyed; not ATSDR, but those personal records, 
which would be useful, as you indicate, in this investigation.
    Mr. Amon. Sir, the records that you speak of that pertain 
to a doctor who was involved in the Camp Lejeune matter on 
behalf of ATSDR, had records that were kept in the course of 
that doctor's work at ATSDR. But I think, fairly, as you are 
indicating, they were records that were taken in booklets and 
whatnot that that doctor retained. I actually seized those 
records from that doctor and retained those in evidence in the 
criminal investigations file in Charlotte, North Carolina, 
until the conclusion of this case.
    Mr. Stupak. OK. Where are they now then?
    Mr. Amon. They are now at ATSDR.
    Mr. Stupak. OK. You indicate in your criminal investigation 
that the biggest area of concern were the seemingly rehearsed 
statements provided by personnel at LANTDIV. That is on page 
29. And you go on to page 30, greatest concern lay in the fact 
that investigators found LANTDIV personnel--that's Naval 
Facilities Engineering Command personnel--to have been coached. 
Is that true?
    Mr. Amon. That is correct.
    Mr. Stupak. And there were no violations of any laws there, 
obstruction of justice, there in all the coaching?
    Mr. Amon. Again, I provided those to the Department of 
Justice in my hierarchy for consideration. Those statements, 
those statements you see there in the report were a summary of 
what the evidence in this case, referring to both documentary 
and testimony evidence, that I was able to review. And based 
upon that, I wrote how I saw it.
    Mr. Stupak. Mr. Whitfield for questions.
    Mr. Whitfield. Thank you, Mr. Chairman.
    Mr. Murtha referred to a letter that he wrote to Mr. 
Dingell regarding this hearing. And if there is not any 
objection, we would just like to enter that into the record. I 
think you all have a copy of it as well.
    Mr. Stupak. Without objection, the letter of June 11, 2007, 
is entered in the record. And we should enter in the record my 
response is, Mr. Amon will be here and will testify.
    Mr. Whitfield. Great. Thank you. Now, Mr. Hill, ABC 
Cleaners, that was one of the primary sources of this 
contamination. Who was the owner of ABC Cleaners?
    Mr. Hill. I don't have the name. I just have a reference to 
the owner and operators.
    Mr. Whitfield. But, at that time, there was not any 
criminal activity or any criminal charges that could be brought 
against ABC Cleaners?
    Mr. Hill. No, sir.
    Mr. Whitfield. Because there were no laws on the books 
relating to contaminating groundwater and so forth?
    Mr. Hill. I wouldn't say that there were no laws on the 
books, that if there was criminal activity.
    Mr. Whitfield. It was probably negligent activity.
    Mr. Hill. I would possibly agree with that. But it was 
never investigated as a criminal act.
    Mr. Whitfield. So it was never investigated as a criminal 
act. Now, do you have any idea of what the dollar cost will be 
for the cleanup of Camp Lejeune, the total cleanup?
    Mr. Hill. I don't. And we were trying to get to some final 
dollar figures. We have estimated that we have already spent 
upwards of $100 million, but I don't have the detailed dollar 
amounts.
    Mr. Whitfield. $100 million has already been spent?
    Mr. Hill. That is an estimate on my part, just based upon 
some discussions I had this morning. We would have to talk to 
DoD to get those figures.
    Mr. Whitfield. And since there hasn't been very much of a 
cleanup, I am assuming that we can multiply that by a 
relatively large number.
    Mr. Hill. Well, again, we make reference that there has not 
been much of a cleanup. I just want to go back and reassure you 
that there has been a tremendous amount of work.
    Mr. Whitfield. OK.
    Mr. Hill. A lot of aggressive soil surface excavation work 
has been done. Groundwater pump and treatment systems are in 
place. Treatability studies in the field. So a lot of work has 
been done here.
    Mr. Whitfield. But the ultimate costs, would it be equal to 
a billion dollars? Would you say that is possible?
    Mr. Hill. I would hate to speculate on the costs, but I can 
get back with you on an estimate.
    Mr. Whitfield. OK. Of course, the dollar cost is very small 
considering the health costs that have been incurred and the 
deaths that have been incurred. But ultimately the taxpayers 
will be paying for this. Is that correct?
    Mr. Hill. Yes.
    Mr. Whitfield. You did indicate that you had reached an 
agreement or a settlement with ABC Cleaners. But I assume the 
only dollar amount you would get from them was from the 
insurance policy, and they never received any compensation. Is 
that correct?
    Mr. Hill. We actually have an ability-to-pay process where 
we looked at the owners and operators' capability to pay, and 
there was an amount that they were able to pay. And they came 
forward with that amount.
    Mr. Whitfield. They did?
    Mr. Hill. Yes.
    Mr. Whitfield. So they did pay something?
    Mr. Hill. They did pay something.
    Mr. Whitfield. And they are no longer in business?
    Mr. Hill. The individuals at that time I am not sure are 
still operating the business, but it is my understanding that 
it is now still a drop-off cleaners operation.
    Mr. Whitfield. Oh, it is? OK.
    Mr. Amon, do you work for the Department of Justice or EPA?
    Mr. Amon. I work for the Environmental Protection Agency.
    Mr. Whitfield. And you report to Mr. Murtha?
    Mr. Amon. Through a series of a hierarchy, yes.
    Mr. Whitfield. OK. But when you do criminal investigations 
for EPA, the Department of Justice, they actually bring any 
charges through their U.S. Attorneys if there are charges. Is 
that correct? Or do you all have the authority to bring charges 
as well?
    Mr. Murtha. No, sir, we work through the Department of 
Justice, both the U.S. Attorney's Offices and the Environmental 
Crimes Section of main Justice. Both were involved in this 
particular investigation.
    Mr. Whitfield. I know that--I am sure, Mr. Murtha, that you 
and Mr. Amon both sat in with the Department of Justice when 
you were considering the criminal charges in this case. And I 
am not defending Mr. Libby at all, Vice President Cheney's 
chief of staff who is now in prison for divulging--he is not in 
prison yet. He has been convicted. He has been sentenced. But 
for divulging the name of an undercover agent. And in this 
instance, we have many people who have died. We have had many 
people who have suffered significant health problems. We have 
huge environmental costs involving cleanup. And some of the 
phrases used regarding the Navy Engineering's testimony and how 
they were not forthcoming, how they had been coached, how they 
seemed to be concealing, and it seems sort of puzzling that 
there were not some sort of obstruction of justice charges 
levied in that case.
    Mr. Murtha. Sir, if I may respond to that?
    Mr. Whitfield. Yes.
    Mr. Murtha. I was not in fact involved in any of the 
discussions concerning whether or not charges would be brought 
in this case. I felt a lot of comfort in knowing that both the 
U.S. Attorney's Office and Environmental Crimes Section had 
assigned very experienced and talented prosecutors to this case 
to work along with Special Agent Amon. And I really felt that a 
very strong team had been put together in that connection and 
that they would be closest to the evidence and would be in the 
best position to assess whether or not charges would be 
advisable.
    I think one also has to bear in mind, although clearly 
there is some derogatory information in the investigation that 
we put together, that it is really a higher bar to bring 
criminal charges. Under the principles of Federal prosecution, 
the Department of Justice prosecutors need to make sure that 
they have a reasonable probability of succeeding on the charges 
that they bring. And I think the feeling must have been here 
that, even though there was evidence of not being forthcoming, 
that that evidence didn't quite reach the level where there 
could be a reasonable probability that convictions would be 
obtained.
    Mr. Whitfield. OK. Thank you.
    Ms. Crosse, the GAO spent a lot of time investigating this 
drinking water contamination at Camp Lejeune. And I would ask 
you, we know that there are some other military bases with 
similar problems, and would you have any recommendations on how 
the committee should proceed with a review of contamination at 
other military bases?
    Ms. Crosse. Sir, I'm not familiar with the circumstances of 
contamination at other installations. We were mandated by 
Congress in the Defense Authorization Act to undertake this 
review. I just don't have information to know about the level 
of documentation or the kinds of circumstances involved. 
Certainly GAO is available to review cases, individual cases, 
or to take a broader look at environmental contamination on 
military installations around the country.
    Mr. Whitfield. OK.
    Mr. Chairman, I don't have any other questions.
    Mr. Stupak. Just a few, if I may.
    Mr. Hill, where's the water source now for Camp Lejeune? 
Are they getting it from nearby cities? Have they drilled other 
wells?
    Mr. Hill. They're getting it from the Castle Hayne aquifer 
on the base.
    Mr. Stupak. Still wells then?
    Mr. Hill. Yes.
    Mr. Stupak. Are you monitoring at all to see if there's 
going to be migration of these contaminants into the other 
wells on the base?
    Mr. Hill. We do have monitoring wells throughout the base, 
and also the Drinking Water Program is monitoring the 
distribution of the drinking water for Camp Lejeune.
    Mr. Stupak. OK. Thanks.
    Mr. Amon, if I may, Mr. Whitfield asked some good questions 
about, whatever happened or why weren't obstruction of justice 
charges brought forth on this? When you did your report, who 
would you have had to have briefed within your own agency at 
EPA then in seeking these charges? Who would you brief?
    Mr. Amon. The special agent in charge. In this case that 
would have been the SAC in Atlanta, Georgia, that has coverage 
over multiple States, including North Carolina.
    Mr. Stupak. So that's special agent in charge or something?
    Mr. Amon. That's correct.
    Mr. Stupak. Who would that be?
    Mr. Amon. Fred Burnside.
    Mr. Stupak. OK. Did you ever deal directly with Department 
of Justice then? U.S. attorney?
    Mr. Amon. I did.
    Mr. Stupak. Who did you deal with there?
    Mr. Amon. I dealt primarily with two line prosecutors. In 
this case, there was one assigned by the United States 
Attorney's Office in Raleigh, NC, which falls in the eastern 
district of North Carolina. And the second was, as the director 
referenced before, main Justice has a Special Environmental 
Section. In that case, that was a trial attorney named Stacey 
Mitchell.
    Mr. Stupak. OK. Who was the gentleman out of North 
Carolina?
    Mr. Amon. Banu Rangarajan. She is female
    Mr. Stupak. OK. Anything else? Nothing further for this 
panel. You are dismissed. Thank you again.
    Mr. Whitfield, without objection, I would like to put the 
full binder into the record, and your June 11 record is also in 
there, that one document. No objections.
    The record will remain open for 30 days for further 
statements, opening statements of members or any other 
documents which the committee has requested. If people would 
get them into us, they will be made part of the record. That 
concludes all of our questions. We will dismiss this panel, and 
that concludes our hearing.
    Without objection, this subcommittee meeting is adjourned. 
Thank you all.
    [Whereupon, at 2:01 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               Exhibit 22

  Municipal/Public Tap Water Contaminated with TCE at Concentrations 
                          Above EPA MCL 5 ppb

    DOORMA DOOR CONTROLS INC HSCA PAD002295376 17 parts per 
billion (ppb)
    FORMER HULETT LAGOON MOSFN0703530 23.7 parts per billion 
(ppb)
    GEAUGA INDUSTRIES OHD061722575 30 parts per billion (ppb)
    GRAFTON WISCONSIN RESIDENTIAL WELL WI0001906981 200parts 
per billion (ppb)
    BOHN HEAT A-C&R DV ILD065243172 730 parts per billion (ppb)
    HAWTHORNE MUNICIPAL WELLS NJD980771679 48.6 parts per 
billion (ppb)
    ICELAND COIN LAUNDRY AREA GW PLUME NJ0001360882 41.7 parts 
per billion (ppb)
    LEE CHEMICAL MOD980853519 36 parts per billion (ppb)
    NEWTON COUNTY WELLS MOD985798339 190 parts per billion 
(ppb)
    SOL LYNN/INDUSTRIAL TRANSFORMERS TXD980873327 953,000 (ppb)
    VEGA ALTA PUBLIC SUPPLY WELLS PRD980763775 42 parts per 
billion (ppb)
    Groundwater Used as Municipal/Public Drinking Water 
Contaminated with TCE at Concentrations Above EPA MCL 5ppb
    ARIVEC CHEMICALS INC GAD990740714 39000 parts per billion 
(ppb)
    AVCO LYCOMING (WILLIAMSPORT) PAD003053709 250 parts per 
billion (ppb)
    BALLY GROUND WATER PAD061105128 1127 parts per billion 
(ppb)
    BREWSTER WELL FIELD NYD980652275 77parts per billion (ppb)
    CARRIER AIR CONDITIONING CO. TND044062222 8.8 parts per 
billion (ppb)
    CHARLEVOIX MUNICIPAL WELL MID980794390 100 parts per 
billion (ppb)
    CLARE WATER SUPPLY MID980002273 1400 parts per billion 
(ppb)
    CROSSLEY FARM PAD981740061 20000 parts per billion (ppb)
    CSX/LEWISBURG DERAILMENT TND987775566 45300 parts per 
billion (ppb)
    DELAVAN MUNICIPAL WELL #4 WID980820062 1300 parts per 
billion (ppb)
    FARIBAULT MUNI WELL FIELD MND982074569 180 parts per 
billion (ppb)
    FRIDLEY COMMONS PARK WELL MND985701309 79 parts per billion 
(ppb)
    FULTON AVENUE NY0000110247 1000 parts per billion (ppb)
    GEIGY CHEMICAL CORP. (ABERDEEN) NCD981927502 330 parts per 
billion (ppb)
    GROVELAND WELLS MAD980732317 118.8 parts per billion (ppb)
    HAWTHORNE MUNICIPAL WELLS NJD980771679 572 parts per 
billion (ppb)
    HOOKER CHEMICAL & PLASTICS CORP NYD002920312 87 parts per 
billion (ppb)
    INDIAN BEND WASH AREA AZD980695969 1400 parts per billion 
(ppb)
    INDUSTRIAL LATEX CORP. NJD981178411 89 parts per billion 
(ppb)
    INDUSTRIAL WASTE PROCESSING CAD980736284 390 parts per 
billion (ppb)
    JACKSON STEEL NYD001344456 250 parts per billion (ppb)
    KELLOGG-DEERING WELL FIELD CTD980670814 600 parts per 
billion (ppb)
    KENTUCKY AVENUE WELL FIELD NYD980650667 130 parts per 
billion (ppb)
    LASALLE ELECTRIC UTILITIES ILD980794333 5 parts per billion 
(ppb)
    LIBERTY INDUSTRIAL FINISHING NYD000337295 16 parts per 
billion (ppb)
    LODI MUNICIPAL WELL NJD980769301 324.0 parts per billion 
(ppb)
    MAYWOOD CHEMICAL CO. NJD980529762 324.0 parts per billion 
(ppb)
    METALTEC/AEROSYSTEMS NJD002517472 5140 parts per billion 
(ppb)
    MOSES LAKE WELLFIELD WAD988466355 32.2 parts per billion 
(ppb)
    NORTH PENN - AREA 7 PAD002498632 190 parts per billion 
(ppb)
    NORTH RAILROAD AVENUE PLUME NMD986670156 8.3 parts per 
billion (ppb)
    OAK GROVE VILLAGE WELL MOD981717036 70.8 parts per billion 
(ppb)
    OGALLALA GROUND WATER NED986369247 220 parts per billion 
(ppb)
    OLD ROOSEVELT FIELD NYSFN0204234 170 parts per billion 
(ppb)
    PALERMO WELL FIELD WA0000026534 15.0 parts per billion 
(ppb)
    PASLEY SOLVENTS & CHEMICALS, INC NYD991292004 145 parts per 
billion (ppb)
    PETOSKEY MUNICIPAL WELL FIELD MID006013049 1000 parts per 
billion (ppb)
    PINE STREET DUMP MND985739051 48 parts per billion (ppb)
    POTTER CO. MSD056029648 848 parts per billion (ppb)
    RAILROAD AVENUE GROUNDWATER IA0001610963 6.8 parts per 
billion (ppb)
    REICH FARMS NJD980529713 33 parts per billion (ppb)
    ROCKY HILL MUNICIPAL WELL NJD980654156 650 parts per 
billion (ppb)
    ROCKAWAY TOWNSHIP WELLS NJD980654214 362 parts per billion 
(ppb)
    RODALE MANUFACTURING CO. PAD981033285 150 parts per billion 
(ppb)
    SAEGERTOWN INDUSTRIAL AREA PAD980692487 310 parts per 
billion (ppb)
    SAN GABRIEL VALLEY (AREA 1,2,3,4) CAD980818512 1800parts 
per billion (ppb)
    SAN FERNANDO VALLEY (AREA 1) CAD980894893 18000 parts per 
billion (ppb)
    SAVAGE MUNICIPAL WATER SUPPLY NHD980671002 244 parts per 
billion (ppb)
    SOLID STATE CIRCUITS, INC. MOD980854111 290 parts per 
billion (ppb)
    SOUTH MUNICIPAL WATER SUPPLY NHD980671069 25 parts per 
billion (ppb)
    SPACE ORDNANCE SYSTEMS SAND CYN 511 parts per billion
    STURGIS MUNICIPAL WELLS MID980703011 152 parts per billion 
(ppb)
    TOWN GARAGE/RADIO BEACON NHD981063860 148.4 parts per 
billion (ppb)
    TUCSON INTERNATIONAL AIRPORT AZD980737530 2200 parts per 
billion (ppb)
    TUTU WELLFIELD VID982272569 711 parts per billion (ppb)
    VALLEY PARK TCE MOD980968341 600 parts per billion (ppb)
    VEGA ALTA PUBLIC SUPPLY WELLS PRD980763775 574 parts per 
billion (ppb)
    VESTAL WATER SUPPLY WELL 4-2 NYD980652267 974 parts per 
billion (ppb)
    WAITE PARK WELLS MND981002249 5100 parts per billion (ppb)
    WELLS G&H MAD980732168 267.40000 parts per billion (ppb)
    WHITEHALL MUNICIPAL WELLS MID980701254 68 parts per billion 
(ppb)
    ZANESVILLE WELL FIELD OHD980794598 330 parts per billion 
(ppb)

    Source of information: ATSDR HazDat Database

                                 <all>

</pre></body></html>
